 U.S. Department of Housing and Urban Development
    Office of Inspector General




Semiannual Report
   to Congress




     October 1, 2007, through March 31, 2008
Profile of Performance
                                        Audit profile of performance
                         for the period, October 1, 2007, through March 31, 2008
    Results
    Recommendations that funds be put to better use                                                 $1,221,819,100
    Recommended questioned costs                                                                     $143,781,895
    Collections from audits                                                                           $21,752,264
    Administrative sanctions                                                                                 6


                                     Investigation profile of performance
                         for the period, October 1, 2007, through March 31, 2008
    Results
    Funds put to better use                                                                           $30,556,203
    Recoveries/receivables                                                                            $20,560,935
    Indictments/informations                                                                               602
    Convictions/pleas/pretrial diversions                                                                  444
    Civil actions                                                                                           26
    Administrative sanctions1                                                                              422
    Personnel actions                                                                                       26
    Arrests2                                                                                               754
    Search warrants                                                                                         97
    Subpoenas issued                                                                                       413


                                       Hotline profile of performance
                         for the period, October 1, 2007, through March 31, 2008
    Results
    Funds put to better use                                                                            $2,356,668
    Recoveries/receivables                                                                              $131,080



1
  Personnel actions include reprimands, suspensions, demotions, or terminations of the employees of Federal, State, or local
governments, or of Federal contractors and grantees, as the result of Office of Inspector General (OIG) activities. In addition,
this reporting category includes actions by Federal agencies to suspend, debar, or exclude parties from contracts, grants, loans,
and other forms of financial or nonfinancial transactions with the government, based on findings produced by OIG.
2
    Included in the arrests is our focus on the nationwide Fugitive Felon Initiative.
  Inspector General’s Message
                                          I am pleased to present the U.S. Department of Housing and
                                       Urban Development, Office of Inspector General (HUD OIG),
                                       Semiannual Report to the Congress for the first half of fiscal year 2008.
                                       Once again, HUD OIG employees–auditors, agents, attorneys, and
                                       support staff–have excelled in their oversight, audit, and investigative
                                       endeavors.

                                           This is my twelfth report on HUD OIG ’s extraordinary
                                       activities, and our efforts continue to improve in both their reach and
                                       effectiveness. During the reporting period, we had $1.25 billion in
                                       funds put to better use, questioned costs of $143 million, and $20
                                       million in recoveries and receivables. This is exceptional work by our
                                       staff that has resulted in significant positive impact on fraud and
                                       misuse of taxpayer dollars. I am so proud of the men and women of
                                       HUD OIG and their achievements.

      The Federal Housing Administration (FHA) continues to provide an essential product for the
  American homebuyer and is a recognized force for economic stability in uncertain times. However, of
  particular concern at this time, is the impact of the subprime mortgage situation on the overall health of
  FHA. We have applied our investigative and audit resources to this issue. We have audited at-risk mortgagees,
  and we have stepped up our participation in mortgage fraud task forces around the country. We want
  to acknowledge FHA for its cooperation in these efforts.

      I direct your attention to our high profile audits and investigations. Audits to uncover single-family
  lenders and loan origination abuses were a particular priority during this period. Lenders were selected for
  audit through the careful analysis of data and various risk factors.

      HUD OIG also focused on HUD’s controls over the FHA appraiser roster to determine whether they
  were adequate to ensure that only qualified and eligible appraisers were placed on the roster and whether
  the oversight and maintenance of the roster were sufficient to ensure that only currently eligible appraisers
  remained on it. Oversight was lacking or faulty, and we recommended stronger internal controls.

      Our Office of Investigation also continued its pursuit of fraud among buyers and lenders. Special
  attention was paid to loan origination fraud, identity fraud, false Social Security numbers, and/or bankruptcy
  fraud.

      A good example of this work is the case against a former underwriter for First National Funding
  Company, who was sentenced in U.S. District Court, Newark, NJ, for making false statements to HUD
  and aiding and abetting. This person was also debarred from HUD and throughout the Executive Branch
  of the Federal Government for 3 years. At issue was the defendant’s falsifying of employment
  verification documents used by unqualified borrowers to obtain FHA-insured mortgages, as a result of
  which, HUD paid out in excess of $9.8 million after 66 mortgages defaulted.




Inspector General’s Message                                                                                        iii
         HUD OIG is dedicated and committed to becoming a more efficient and effective organization,
     to better recover taxpayer funds and bring those to justice who perpetrate crimes against the citizens and
     Government of this country.

         I thank the staff of HUD OIG for their tireless work in their efforts to identify waste, fraud, and abuse
     in the Nation’s housing and urban development programs, and I look forward to leading them to greater
     and higher accomplishments in the future.




        Kenneth M. Donohue
        Inspector General




iv                                                                                        Inspector General’s Message
                                         Audit reports issued by program

                                              Other            Single-Family
                                             programs            Housing               Multifamily
                     Hurricane                  9%                  5%                  Housing
                  Relief Oversight                                                       12%
                         8%




               Community
               Planning and                                                                    Public and Indian
               Development                                                                         Housing
                   27%                                                                               39%


                                     Monetary benefits identified by program
                                           Single-Family     Multifamily
                                             Housing                                    Public and Indian
                                                              Housing
                                                0%                                          Housing
                                                                1%
                                                                                              25%


                                                                                                       Community
            Other                                                                                      Planning and
           programs                                                                                    Development
             68%                                                                                           5%
                                                                                      Hurricane
                                                                                   Relief Oversight
                                                                                          1%


                              Monetary benefits identified in millions of dollars

         $1,000                                                                                        $922.3
          $900
          $800
          $700
          $600
          $500
                                                           $348.1
          $400
          $300
          $200                                                             $66.2
          $100                $1.2        $11.3                                        $16.5
             $0
                     Single-Family    Multifamily    Public &       Community      Hurricane           Other
                       Housing         Housing        Indian        Planning &      Relief            programs
                                                     Housing        Development    Oversight




Audit Charts                                                                                                          v
                      Investigative cases opened by program area (total: 635)

                                       Other                Single-Family
             Community
                                      programs                Housing
             Planning and
                                      7% (44)                 13% (83)
             Development
              20% (128)




        Multifamily
         Housing
        10% (62)                                                            Public and Indian
                                                                                Housing
                                                                               50% (318)


                Investigative recoveries by program area (total: $20,560,935)

          Community Planning                  Other
                                          1% ($168,000)                       Single-Family
           and Development                                                      Housing
           28% ($5,745,202)                                                       38%
                                                                              ($7,878,888)



       Multifamily
        Housing
     5% ($1,001,098)

                                        Public and Indian
                                            Housing
                                        28% ($5,767,747)




vi                                                                                   Investigation Charts
 Acronyms List
 AIGA           Assistant Inspector General for Audit
 AIGI           Assistant Inspector General for Investigations
 ARIGA          Assistant Regional Inspector General for Audit
 ASAC           Assistant Special Agent in Charge
 ATFE           Bureau of Alcohol, Tobacco, Firearms, and Explosives
 CAS            Computer Audit Specialist
 CDBG           Community Development Block Grants
 CID            Criminal Investigation Division
 CPD            Office of Community Planning and Development
 DAIGA          Deputy Assistant Inspector General for Audit
 DAIGI          Deputy Assistant Inspector General for Investigation
 DEA            Drug Enforcement Administration
 DHAP           Disaster Housing Assistance Program
 DHS            Department of Homeland Security
 DIG            Deputy Inspector General
 DoD            Department of Defense
 DOE            Department of Education
 DOJ            U.S. Department of Justice
 DROD           Disaster Relief Oversight Division
 DUI            Driving under the influence
 DVP            Disaster Voucher Program
 EIV            Enterprise Income Verification
 FBI            Federal Bureau of Investigation
 FDIC           Federal Deposit Insurance Corporation
 FEMA           Federal Emergency Management Agency
 FFMIA          Financial Management Improvement Act of 1996
 FHA            Federal Housing Administration
 FIRMS          Facilities Integrated Resources Management System
 FISMA          Federal Information Security Management Act of 2002
 FY             Fiscal year
 GAO            Government Accountability Office
 GNND           Good Neighbor Next Door
 HHS            U.S. Department of Health and Human Services
 HOME           Home Ownership Made Easy



Acronyms List                                                          vii
  HOPWA       Housing Opportunities for Persons with AIDS
  HUD         U.S. Department of Housing and Urban Development
  ICE         Immigration and Customs Enforcement
  IG          Inspector General
  IRS         Internal Revenue Service
  KDHAP       Katrina Disaster Housing Assistance Program
  MAP         Multifamily Accelerated Processing
  MTW         Moving to Work
  NAHASDA     Native American Housing Assistance and Self Determination Act of 1996
  NAHRO       National Association of Housing and Redevelopment Officials
  OA          Office of Audit
  OI          Office of Investigation
  OIG         Office of Inspector General
  OMB         Office of Management and Budget
  OTND        Officer/Teacher Next Door
  PCIE/ECIE   President’s Council on Integrity and Efficiency/Executive Council on Integrity and Efficiency
  PFCRA       Program Fraud Civil Remedies Act
  PHA         Public housing agency
  PHSI        Public housing safety initiatives
  PIH         Office of Public and Indian Housing
  REO         Real estate owned
  RHIIP       Rental Housing Integrity Improvement Project
  RIGA        Regional Inspector General for Audit
  SA          Special Agent
  SAC         Special Agent in Charge
  SBA         Small Business Administration
  SFA         Supervisory Forensic Auditor
  SSA         Social Security Administration
  SSN         Social Security number
  TSA         Transportation Security Administration
  USAO        U.S. Attorney’s Office
  USDA        U.S. Department of Agriculture
  USMS        U.S. Marshals Service
  USPS        U.S. Postal Service
  USPIS       U.S. Postal Inspection Service
  VA          U.S. Department of Veterans Affairs



viii                                                                                           Acronyms List
  Table of Contents
  Executive Highlights                                                              1
  Chapter 1 - HUD’s Single Family Housing Programs                                  7
         Audits                                                                     8
         Inspections and Evaluations                                               11
         Investigations                                                            12
  Chapter 2 - HUD’s Public and Indian Housing Programs                             21
         Audits                                                                    22
         Investigations                                                            34
  Chapter 3 - HUD’s Multifamily Housing Programs                                   57
         Audits                                                                    58
         Investigations                                                            63
  Chapter 4 - HUD’s Community Planning and Development Programs                    69
         Audits                                                                    70
         Inspections and Evaluations                                               78
         Investigations                                                            79
  Chapter 5 - Hurricane Relief Oversight                                            87
         Introduction and Background                                                89
         Audits                                                                     93
         Investigations                                                             97
         Inspections and Evaluations                                               106
  Chapter 6 - Other Significant Audits and Investigations/OIG Hotline              107
         Audits                                                                    108
         Investigations                                                            111
         OIG Hotline                                                               112
  Chapter 7 - Outreach Efforts                                                     115
  Chapter 8 - Review of Policy Directives                                          127
         Proposed Legislation                                                      128
         FHA Modernization                                                         128
         Proposed Rules                                                            128
  Chapter 9 - Audit Resolution                                                     129
         Audit Reports Issued before Start of Period with No Management Decision   130
         Significantly Revised Management Decisions                                131
         Significant Management Decision with Which OIG Disagrees                  132
         Federal Financial Management Improvement Act of 1996                      133
  Appendix 1 - Audit Reports Issued                                                135
  Appendix 2 - Tables                                                              143
  Appendix 3 - Index                                                               163
  HUD OIG Operations Telephone Listing                                             167



Table of Contents                                                                        ix
    Reporting Requirements
    The specific reporting requirements as prescribed by the Inspector General Act of 1978, as amended by the
    Inspector General Act of 1988, are listed below:
    Source/Requirement                                                                                      Pages
    Section 4(a)(2)-review of existing and proposed legislation and regulations.                                128
    Section 5(a)(1)-description of significant problems, abuses, and deficiencies relating to            1-113, 128
    the administration of programs and operations of the Department.
    Section 5(a)(2)-description of recommendations for corrective action with respect to                      7-113
    significant problems, abuses, and deficiencies.
    Section 5(a)(3)-identification of each significant recommendation described in               Appendix 2, Table B
    previous semiannual report on which corrective action has not been completed.
    Section 5(a)(4)-summary of matters referred to prosecutive authorities and the                           7-113
    prosecutions and convictions that have resulted.
    Section 5(a)(5)-summary of reports made on instances in which information or                        No Instances
    assistance was unreasonably refused or not provided, as required by Section 6(b)(2) of
    the Act.
    Section 5(a)(6)-listing of each audit report completed during the reporting period and              Appendix 1
    for each report, where applicable, the total dollar value of questioned and unsupported
    costsand the dollar value of recommendations that funds be put to better use.
    Section 5(a)(7)-summary of each particularly significant report and the total dollar value                7-113
    of questioned and unsupported costs.
    Section 5(a)(8)-statistical tables showing the total number of audit reports and the        Appendix 2, Table C
    total dollar value of questioned and unsupported costs.
    Section 5(a)(9)-statistical tables showing the total number of audit reports                Appendix 2, Table D
    and the dollar value of recommendations that funds be put to better use by
    management.
    Section 5(a)(10)-summary of each audit report issued before the commencement                Appendix 2, Table A
    of the reporting period for which no management decision had been made by the
    end of the period.
    Section 5(a)(11)-a description and explanation of the reasons for any                              No Instances
    significant revised management decisions made during the reporting period.
    Section 5(a)(12)-information concerning any significant management decision with which the                 132
    Inspector General is in disagreement.
    Section 5(a)(13)-the information described under section 05(b) of the Federal Financial                    133
    Federal Financial Management Improvement Act of 1996.




x                                                                                               Reporting Requirements
Executive
Highlights
    Strategic Initiative 1
    HUD Strategic Goal: Increase Homeownership Opportunities
    OIG Strategy: Contribute to the reduction of fraud in single-family insurance programs
    through
    - Audits uncovering single-family and loan origination abuse
    - Audits of the U.S. Department of Housing and Urban Development's (HUD) internal policies to
      determine whether controls are adequate
    - National strategy for single-family mortgage fraud task forces
    - Inspections and evaluations of program areas
    - Outreach to industry and consumer groups and the Department
    Highlights: Results or impact of significant OIG work
    - Recommended HUD develop and implement procedures to uniformly resolve underwriting               page 9
      underwriting deficiencies and potentially fraudulent loans
    - Evaluation of the Federal Housing Administration (FHA) Preforeclosure Sales Program            page 11
      in Region III
    - Seven indicted for loan origination scam causing more than $3.9 million in HUD losses          page 13
    - Appraiser sentenced to prison - HUD losses exceed $2.7 million                                 page 13
    - Program Fraud Civil Remedies Act (PFCRA) settlements in New Jersey net more                    page 14
      than $200,000
    - Identity theft and false Social Security numbers cause HUD losses in excess of $5.2 million    page 16
      in Colorado and Illinois
    - Reported as a material weakness FHA's lack of system capacity to manage anticipated           page 108
      increased volume for the Home Equity Conversion Mortgage System
    - More than 550 mortgage and real estate professionals attend mortgage fraud presentation       page 118
      in Texas
    - Provided comments for HUD to tighten controls and risk over FHA Secure program                page 128
      which is intended to assist subprime or high-risk borrowers harmed by questionable
      loan terms
    - Provided nonconcurring comments on HUD's notice for preforeclosure sales which                page 128
      could impact the liquidity of the FHA insurance fund

    Emerging Issues: Areas of OIG interest
    - Challenges resulting from an increase in FHA-insured home equity conversion mortgages
      (also known as "reverse mortgages")
    - Risk-based premium pricing and FHA refinancing of subprime loans (FHA Secure)
    - Gulf Coast States homeowner's assistance programs
    - Downpayment assistance: seller-funded downpayments
    - Risk involved in zero downpayment




2                                                                                            Executive Highlights
  Strategic Initiative 2
   HUD Strategic Goal: Promote Decent Affordable Housing
   OIG Strategy: Contribute to the reduction of erroneous payments in rental assistance
   programs through
   - Audits of Section 8 Housing Choice Voucher program activities
   - Audits of HUD’s internal policies to determine whether controls are adequate
   - Investigative initiatives involving corruption in the management of troubled public housing authorities
     and multifamily developments
   - Section 8 fraud initiatives in each Office of Inspector General (OIG) region
   - Public Housing Fugitive Felon and Sex Offender Initiatives - locate and remove
   - Public and Department-wide outreach initiatives

   Highlights: Results or impact of significant OIG work
   - Recommended the Director of the Fort Worth Office of Public and Indian Housing                  page 23
     require the Authority to support or repay more than $32.4 million, void and properly
     reclassify $648,530 in outstanding checks, and implement effective internal controls
     over the financial operations of its voucher program
   - Recommend HUD improve its controls to ensure that housing authorities properly                  page 23
     administer the community service and self-sufficiency requirement, resulting in more
     than $257 million being put to better use annually
   - Identified excessive assistance payments due to payments for units not meeting                  page 27
     minimum housing quality standards (HQS), errors in tenant files, and lack of controls
   - Recommended housing authorities properly account for and utilize income-eligible               pages 33
     Federal activities
   - More than $800,000 in Harrisburg housing funds diverted to failing credit union                 page 35
   - Tampa housing counselors steal more than $450,000 in housing subsidies                          page 35
   - HUD's Enterprise Income Verification (EIV) system discovers local government employees          page 39
     fleecing the Miami-Dade Housing Authority
   - Sex offenders found in Atlanta public housing units                                             page 54
   - Fake tenants and equity skimming cause HUD about $7.4 million in losses                         page 64
   - Public housing fraud schemes described for 140 National Association of Housing and             page 119
     Redevelopment Officials in New Jersey, Connecticut, Nebraska, and Nevada
   Emerging Issues: Areas of OIG interest
   - Adequacy of HQS inspections
   - Implementation of Section 8 Management Assessment Program controls to ensure that HUD's
     Section 8 housing stock is in material compliance with HQS
   - FHA-insured nursing homes and nursing home equity skimming
   - Public housing corruption and multifamily mismanagement
   - Evaluation of the Housing Authority of New Orleans (HANO) in carrying out its public housing
     activities, Section 8, procurement, and financial functions




Executive Highlights                                                                                           3
    Strategic Initiative 3
    HUD Strategic Goal: Strengthen Communities
    OIG Strategy:
    - Promote integrity, efficiency, and effectiveness of programs
    - Contribute to the reduction of fraud, waste, and abuse through
    - Audits of the Community Development Block Grant (CDBG), Supportive Housing Program,
      and HOME Investment Partnerships (HOME) program
    - Department liaison- Audits of Gulf Coast activities
    - Investigative initiative involving corruption in the administration of State or local community
      planning and development programs in each OIG region
    - Hurricane relief fraud in HUD CDBG-funded programs
    - Inspections and evaluations of program areas
    - Public dissemination of HUD OIG activities and outreach activities with State and local government
      agencies
    Highlights: Results or impact of significant OIG work
    - Recommended grantees reimburse the CDBG program and provide supporting                     page 72
      documentation for unsupported expenditures
    - Inspection of the State monitoring efforts of local governments receiving CDBG program     page 78
      funds
    - A former nonprofit executive director in Gary, IL, sent to prison for embezzling HUD       page 80
      HOME funds
    - Crotched Mountain Foundation payroll supervisor embezzles more than $1.6 million in HUD page 80
      CDBG and other funding
    - Jury convicts Love Social Services Center treasurer and wife pleas guilty to stealing HUD  page 80
      Community Planning and Development and U.S. Department of Justice (DOJ) funds
    - Mayor of Brookshire, TX, indicted for taking bribes from contractor in exchange for        page 83
      CDBG-funded contracts
    - Hurricane relief fraud involving CDBG funding                                              page 98
    - About 300 HUD grantees and community development representatives briefed on               page 121
      HUD OIG's mission and authority in San Francisco, CA
    Emerging Issues: Areas of OIG interest
    - Gulf Coast CDBG supplemental hurricane funding fraud




4                                                                                          Executive Highlights
  Strategic Initiative 4
   HUD Strategic Goal: Embrace High Standards of Ethics, Management, and
   Accountability
   OIG Strategy:
   - Be a relevant and problem-solving advisor to the Department
   - Contribute to improving HUD's execution and accountability of fiscal responsibilities
     through
   - Audits of HUD's financial statements
   - Audits of HUD's information systems and security management
   - Audits of Ginnie Mae activities
   - Implementation of DOJ Procurement Fraud Task Force at HUD
   - FedRent data match operation - identifying Federal employees who fraudulently receive housing
     assistance
   Highlights: Results or impact of significant OIG work
   - Federal employees who cheat the system (FedRent)                                                page 51
   - Recommended HUD revise Section 8 project-based recapture methodology to include                page 108
     recapturing funds from expired Section 8 contracts occurring in the current fiscal year
     with potential funds put to better use of $580 million from these expired contracts
   - Identified $342.3 million in excess unexpended funds that could be deobligated and             page 108
     put to better use
   - Identified two material weaknesses in internal controls related to FHA's home equity           page 108
     conversion mortgage (HECM) systems and credit subsidy cash flow model
   - Issued unqualified audit opinions of HUD's consolidated, FHA, and Ginnie Mae              pages 108, 109
     fiscal years 2006 and 2007 financial statements
   - Recommended HUD properly meet its information security responsibilities                        page 109

   Emerging Issues: Areas of OIG interest
   - HUD’s information technology capacity
   - Ginnie Mae’s monitoring of issuers




Executive Highlights                                                                                            5
                      Chapter 1
                HUD’s Single-Family
                 Housing Programs




Acronyms List
        The Federal Housing Administration’s (FHA) single-family programs provide mortgage insurance to
    mortgage lenders that, in turn, provides financing to enable individuals and families to purchase,
    rehabilitate, and construct a home. In addition to the audits and investigations described in this chapter,
    the U.S. Department of Housing and Urban Development, Office of Inspector General (HUD OIG),
    has conducted numerous outreach efforts (see chapter 7, page 116).


    Audits
                           Strategic Initiative 1: Contribute to the reduction of fraud
                                       in single-family insurance programs
         Key program results                    Questioned costs                           Funds put to better use
      Audit            3 audits                     $234,000                                       $780,000
                        Page 9           - HUD’s FHA appraiser roster
        Our
                        Page 9           - HUD's Quality Assurance Division
       focus
                        Page 9           - Mortgagees, loan correspondents, and direct endorsement lenders



                      Chart 1.1: Percentage of OIG single-family housing audit reports
                                        during this reporting period

                                                                                                           Region 1
                                                                                                             0%
                                           Region 7-8                  Region 5               Region 2
                                             33%                         0%                     0%




                                                                                                            Region 3
                                                                                                             34%

      Region 9-10
         33%


                                                                                                Region 4
                                                                                                  0%
                                             Region 6
                                               0%



                                                                                    Region 11
                                                                            (Disaster Relief Oversight)
                                                                                     %(N/A)*
    * This does not include hurricane relief audits. See chapter 5 for these reviews.



8                                                                             Chapter 1: HUD’s Single-Family Housing Programs
 HUD's FHA Appraiser Roster
     HUD OIG audited HUD's controls over the FHA appraiser roster to determine whether they were
 adequate to ensure that only qualified/eligible appraisers were placed on the roster and whether the oversight
 and maintenance of the roster were sufficient to ensure that only currently eligible appraisers remained on the
 roster.

     HUD did not conduct roster quality control reviews in accordance with its written roster quality control
 plan, perform regular monitoring of the roster to ensure data reliability, and retain initial application packages
 for all active appraisers listed on its roster as required by HUD's record disposition schedule. It also instructed
 and/or approved its contractor to use logic statements when developing the software program that updates the
 roster, which were not in accordance with HUD regulations and did not always work properly. As a result, the
 roster contained unreliable data including the listing of 3,480 appraisers with expired licenses and 119
 appraisers that had been State sanctioned. Additionally, 28 of the appraisers listed with expired licenses and
 eight of the sanctioned appraisers conducted appraisals.

      OIG recommended that HUD implement stronger internal controls to ensure that only eligible appraisers
 are placed on its roster and that oversight and maintenance of the roster are sufficient to ensure that only
 eligible appraisers remain on the roster. (Audit Report: 2008-LA-0002)

 HUD's Quality Assurance Division
     HUD OIG audited the HUD Quality Assurance Division, Washington, DC, to determine whether it
 consistently required Federal Housing Administration (FHA)-approved lenders to indemnify loans with
 similar material deficiencies and whether it appropriately handled potentially fraudulent loans.

     HUD's Quality Assurance Division did not always resolve materially deficient or potentially fraudulent
 loans consistently. As a result, HUD increased its risk of treating lenders differently in similar situations. In
 addition, OIG did not have the opportunity to pursue actions against parties responsible for fraudulent loans,
 and the FHA insurance fund incurred unnecessary losses and remains at risk for additional losses on fraudulent
 loans.

     OIG recommended that HUD (1) develop and implement effective policies and procedures to ensure
 uniform resolutions to loan underwriting deficiencies and the handling of potentially fraudulent loans,
 (2) coordinate with OIG to reevaluate the agreement between HUD and OIG regarding referring potentially
 fraudulent loans to OIG, and (3) require lenders to indemnify 16 insured loans that contained evidence of
 fraud. (Audit Report: 2008-KC-0001)

 Mortgagees, Loan Correspondents, and Direct Endorsement Lenders
     HUD OIG audited the Plymouth Meeting branch of National City Mortgage, Plymouth Meeting, PA, to
 determine whether the branch office complied with HUD regulations, procedures, and instructions in the
 origination and quality control review of FHA loans.

      Although the branch office generally complied with HUD regulations, procedures, and instructions,
 for two of eight loans reviewed, it did not properly document borrowers' qualifying ratios and did not properly




Chapter 1: HUD’s Single-Family Housing Programs                                                                        9
 verify assets for the loans, originally valued at more than $181,000, thereby increasing the risk to the FHA
 insurance fund. The branch office also charged ineligible commitment fees and/or overcharged for credit
 reports for six loans, thus causing borrowers to incur unnecessary costs.

     OIG recommended that HUD require National City Mortgage to indemnify more than $198,000 for two
 loans that it issued contrary to HUD's loan origination requirements; reimburse borrowers nearly $900 in
 overcharges; and emphasize its policies, procedures, and controls to branch office staff to ensure that the
 underwriters consistently follow HUD's underwriting requirements. (Audit Report: 2008-PH-1002)




10                                                             Chapter 1: HUD’s Single-Family Housing Programs
 Inspections and Evaluations
 Evaluation of the FHA Preforeclosure Sales Program in Region III
     A preforeclosure or "short" sale involves a delinquent FHA-insured property sale at fair market value but
 for less than the mortgage indebtedness. The lender accepts the net sales proceeds to satisfy the defaulted
 mortgage debt and can submit a claim to HUD for the difference plus certain costs, expenses, and debenture
 interest. An evaluation of the FHA preforeclosure sales program in Region III was initiated to determine
 whether lenders complied with FHA program requirements and whether these procedures limited the risk of
 program fraud and abuse.

     The evaluation of the FHA preforeclosure sales program in Region III found that lenders technically
 complied with most FHA requirements in administering the program, but FHA program guidelines were
 inadequate to ensure that homes approved for preforeclosure sales were sold at fair market or optimum value.
 As a result, HUD may incur higher insurance claims on some properties sold throught his loss mitigation
 program, and the program remains inherently vulnerable to investor exploitation and fraud schemes. HUD
 OIG provided HUD with this report as a management advisory without formal recommendations.
 (I&E Report: IED 07 007)




Chapter 1: HUD’s Single-Family Housing Programs                                                              11
 Investigation
     Some investigations discussed in this report were generated from leads provided by HUD single-family
 housing program staff or conducted jointly with Federal, State, and local law enforcement agencies. The
 results of various significant investigations are described below.

                        Strategic Initiative 1: Contribute to the reduction of fraud
                                    in single-family insurance programs
      Key program              Cases                       $                      Convictions/pleas/            Admin/civil
         results               closed                  recovered                      pretrials                   actions
      Investigations              99                 $7.9 million                        62                           53
                              Page 13          - Loan origination fraud

           Our                Page 16          - Identity fraud and false Social Security number
          focus               Page 17          - Bankruptcy fraud
                              Page 18          - Other single-family fraud


           Chart 1.2: Percentage of OIG single-family housing closed investigation cases
                                    during this reporting period

                                                                                                       Region 1
                                                                                                         3%
                                        Region 7-8                       Region 5
                                          13%                                              Region 2
                                                                          14%
                                                                                            14%




                                                                                                           Region 3
                                                                                                            18%
     Region 9-10
        22%


                                                                                                Region 4
                                                                                                  6%
                                            Region 6
                                             11%



                                                                                 Region 11
                                                                         (Disaster Relief Oversight)
                                                                                  %(N/A)*

 * This does not include hurricane relief cases. See chapter 5 for these cases.



12                                                                           Chapter 1: HUD’s Single-Family Housing Programs
 Loan Origination Fraud
     JeVenna Smith-Harris, a former underwriter for First National Funding Company, previously sentenced in
 U.S. District Court, Newark, NJ, for her guilty plea to making false statements to HUD and aiding and
 abetting, was debarred from procurement and nonprocurement transactions with HUD and throughout the
 Executive Branch of the Federal Government for 3 years. Smith-Harris falsified employment verification
 documents used by unqualified borrowers to obtain FHA-insured mortgages. HUD realized losses in excess of
 $9.8 million after 66 mortgages defaulted.



     Darrell and Kandace Marriott, owners of One Way Home and Land
 Company, Inc. (One Way); Karen Hayes, Debra Grace, Linda Howard, and Brett
 Harwell, employees of One Way; and Gary Griffith, a loan officer for Guardian
 Nationwide Mortgage, were each indicted in Navarro County Court, Corsicana,
 TX, for engaging in an organized crime and securing execution of a document by
 deception. The above defendants allegedly created, provided, or certified
 fraudulent financial, identity, and other documents used by unqualified borrowers
 to obtain FHA-insured mortgages. HUD realized losses in excess of $3.9 million
 after 66 mortgages defaulted.



     Kahala Hickoff, a HUD-approved appraiser, was sentenced in U.S. District
 Court, Los Angeles, CA, to 6 months incarceration and 3 years probation and
 ordered to pay HUD $905,970 in restitution for his earlier guilty plea to making
 false statements. Hickoff prepared fraudulent appraisals for FHA-insured
 properties and used the names of others when he signed and submitted the
 documents. HUD realized losses in excess of $2.7 million after 31 properties
 defaulted.



     Wendy Barker, a Dallas County Community College computer instructor, pled
 guilty in U.S. District Court, Dallas, TX, to conspiracy tomake false statements to
 a Federal agency. From July 2003 through September 2007, Barker and others
 electronically altered or created fraudulent income, employment, and other
 documents used by unqualified borrowers to obtain FHA-insured mortgages.
 HUD realized losses of about $530,000 after 11 mortgages defaulted.


                                                                                       Copyright, 2008. Corsicana
                                                                                       Daily Star - Corsicana, TX.
                                                                                        Reprinted with permission.




Chapter 1: HUD’s Single-Family Housing Programs                                                                  13
     Robert Green, doing business as Parkway Tax Service and Fast Tax, was
 sentenced in U.S. District Court, New Orleans, LA, to 5 years probation and
 ordered to pay HUD $8,000 in restitution for his earlier guilty plea to conspiracy.
 Green prepared false Federal income tax returns used by unqualified straw
 borrowers to obtain FHA-insured mortgages. HUD realized losses of $435,740
 after six mortgages defaulted.



     David Paul, the president of DCP Investment Properties, LLC, and Diane
 Flannery, a former loan officer for Source Mortgage Corporation, were each
 indicted in U.S. District Court, Philadelphia, PA, for committing mail fraud and
 aiding and abetting. Paul allegedly provided fraudulent documents and
 downpayment funds used by unqualified borrowers to obtain FHA-insured
 mortgages, and Flannery allegedly originated FHA-insured mortgages for the
 unqualified borrowers knowing Paul had provided fraudulent documents and
 downpayment assistance. HUD realized losses of $280,000 after six mortgages
 defaulted.



     Denise Baskerville, an administrative assistant for M.T. Real Estate
 Development, Inc., pled guilty in U.S. District Court, Newark, NJ, to conspiracy
 to make false statements. Baskerville and others created and submitted fraudulent
 documents used by unqualified borrowers to obtain FHA-insured mortgages. HUD
 realized losses of $242,981 after 16 mortgages defaulted.
                                                                                       Copyright, 2008. The Times-
                                                                                       Picayune - New Orleans, LA.
                                                                                         Reprinted with permission.
     AMS Mortgage Company (AMS), 1st and 2nd Mortgage Company
 of New Jersey, Inc., and National City Mortgage Company (National City),
 located in Newark, NJ, each entered into Program Fraud Civil Remedies Act (PFCRA) settlements and
 agreed to collectively pay HUD $201,747. AMS, 1st and 2nd Mortgage Company, and National City
 certified fraudulent FHA-insured loan packages and submitted false claims for FHA-insurance benefits after
 the borrowers defaulted.



     Steven Winter, a former realtor for King Thompson Realty, was sentenced in U.S. District Court,
 Columbus, OH, to 2 years incarceration and 3 years probation and ordered to pay HUD $174,720 and the
 Internal Revenue Service (IRS) $183,517 in restitution for his earlier guilty plea to making false statements
 and filing false Federal income tax returns. Winter falsified credit, employment, and other documents used by
 unqualified borrowers to obtain FHA-insured mortgages and failed to report income from real estate sales on
 his Federal income tax returns. HUD realized losses of $174,720 after five mortgages defaulted.




14                                                               Chapter 1: HUD’s Single-Family Housing Programs
      Uto Essien, owner of Essien & Co Realty, Ltd. (Essien); Idara Ekiko, a realtor for Essien; Scott Hinkley and
 Jennifer Wolsey, a loan officer and processor for ABK Mortgage; and FHA-insured borrowers Cheri and Jessica
 Decker and Heather Etuk were each indicted in Colorado District Court, Denver, CO, for committing theft,
 committing theft by receiving, forgery, computer crimes, and violating the Colorado Organized Crime
 Control Act. The above defendants allegedly used or provided false income, debt, and other documents for
 themselves or other unqualified borrowers to obtain conventional and FHA-insured mortgages. HUD
 realized losses of $153,814 after three FHA-insuredmortgages defaulted.



     Gloria Matlock, a former loan officer for Supreme Lending, pled guilty in U.S. District Court, Dallas, TX,
 to conspiracy to provide false statements to a Federal agency. Matlock and others created or submitted
 fraudulent documents used by unqualified borrowers to obtain FHA-insured mortgages. HUD realized losses
 of about $130,000 after two mortgages defaulted.



    Raymond Talan, a former realtor for Remax Realty, pled guilty in U.S. District Court, Rockford, IL, to
 mail fraud. Talan provided fraudulent documents used by unqualified borrowers to obtain FHA and
 conventional mortgages. HUD realized losses of $86,300 after four mortgages defaulted.



     Maria Gallucci, a realtor for Keller Williams and a loan officer for Uptown Mortgage Service, was charged
 in Adams County District Court, Brighton, CO, with attempting to influence a public servant, forgery,
 offering a false instrument for recording, and official misconduct by a notary public. Gallucci allegedly forged
 the signature of her former spouse on documents associated with two FHA-insured properties she jointly
 owned and personally notarized a document required for her FHA-insured loan file. HUD realized a loss of
 $81,626 after one mortgage defaulted.



     Winston Shillingford, the former president of now-defunct First Funding Mortgage Bankers (First
 Funding), and former First Funding loan officer Marie Jean-Louis, each previously sentenced in U.S District
 Court, Brooklyn, NY, for their guilty pleas to Federal income tax evasion or conspiracy to defraud HUD, were
 debarred from procurement and nonprocurement transactions as a participant or principal with HUD and
 throughout the Executive Branch of the Federal Government for 3 years. Jean-Louis created and provided
 fraudulent documents used by unqualified borrowers to obtain FHA-insured mortgages, and Shillingford,
 who obtained more than $300,000 from the sales of flipped FHA-insured properties originated by First
 Funding, failed to report this income on his Federal income tax returns. HUD realized losses in excess of
 $75,000 after three mortgages defaulted.



      Guild Mortgage, a HUD-approved FHA mortgage lender in Los Angeles, CA, entered into a PFCRA
 settlement and agreed to pay HUD $40,219. George Rivas, a former loan officer for Guild Mortgage
 previously convicted of mail fraud and aiding and abetting, assisted an unqualified borrower who obtained an




Chapter 1: HUD’s Single-Family Housing Programs                                                                  15
 FHA-insured mortgage. Guild Mortgage certified the fraudulent FHA-insured loan package and submitted a
 false claim for FHA-insurance benefits after the borrower defaulted.



      Stephen Lampkin, a former manager for Island Mortgage Network in Buffalo, NY, entered into a PFCRA
 settlement and agreed to pay HUD $10,000. Lampkin, previously sentenced for his guilty plea to making a
 false statement to HUD, certified FHA-insured loan packages that contained false documents.

 Identity Fraud and False Social Security Numbers
     Louis Ramon Luevano, also known as Ray Luevano, a real estate broker for Harvest Realty; Antonio Vitale,
 also known as Tony Vitale, a former loan officer for Sterling Capital Mortgage Company; Celso
 Galvan-Barrera, also known as Celso Galvin; Leonel Miramontes Armendariz; Jorge Ruedas Barajas; Jose Paz
 Guerrero Ramirez; and Iris Rodriguez were each charged in Adams County District Court, Brighton, CO,
 with committing theft, conspiracy, offering a false instrument for recording, attempting to influence, and
 criminal impersonation to gain a benefit. The above defendants allegedly provided false Social Security
 numbers (SSN) and fraudulent documents to obtain FHA-insured mortgages for themselves or other
 unqualified borrowers. In addition, Claudia Hernandez-Martinez, also known as Claudia Hernandez or
 Claudia Martinez, and Concepcion Hernandez-Herrera, also known as Claudia Hernandez or Claudia
 Hernandez H, were each sentenced to 24 months probation and ordered to perform 50 hours of community
 service for their earlier guilty pleas to conspiracy. Hernandez-Martinez and Hernandez-Herrera used false
 SSNs to obtain and later default on FHA-insured mortgages. HUD realized losses in excess of $3.2 million
 after 49 mortgages defaulted.



      Rhonda Torossian and Nancy Rodriguez, a former loan officer and processor for RBC Mortgage, and
 Cesar Arenas, a former realtor for Whitehead Realty, were sentenced in U.S. District Court, Rockford, IL,
 for their earlier guilty pleas to conspiracy.
 Torossian and Arenas were each sentenced
 to 20 months incarceration and 3 years
 probation and ordered to pay HUD $476,257
 and $355,644 in restitution, respectively.
 Rodriguez was sentenced to 5 years probation
 and ordered to pay HUD $300,581
 in restitution. Torossian, Rodriguez, Arenas, and
 others provided false SSNs and fraudulent
 employment, credit, and other documents used
 by unqualified borrowers to obtain FHA-
 insured mortgages. HUD realized losses in
 excess of $2 million after more than 50
 mortgages defaulted.
                                                             Copyright, 2007. Rockford Register Star - Rockford, IL.
                                                                                        Reprinted with permission.




16                                                             Chapter 1: HUD’s Single-Family Housing Programs
     Rito Miguel Diaz, Sr., and Rito Miguel Diaz, Jr., real estate agents for Familia Realty, Realty World, or
 Network Realty, each pled guilty in U.S. District Court, Los Angeles, CA, to mail fraud and aiding and
 abetting. From September 1998 to January 2002, Diaz, Sr., Diaz, Jr., and their mother, previously indicted
 Rosemary Diaz, provided or created fraudulent identification, employment, credit, and other documents used
 by unqualified borrowers to obtain FHA-insured mortgages. HUD realized losses in excess of $900,000 after
 18 mortgages defaulted.



     Jose Antonio Caballero, owner of American International Finance and Mortgage Services, Inc., was
 sentenced in U.S. District Court, Dallas, TX, to 12 months incarceration and 36 months supervised release
 and ordered to pay HUD $119,620 in restitution for his earlier guilty plea to making a false statement.
 Caballero failed to claim a prior felony conviction on his FHA lender application and provided false SSNs or
 IRS employment identifications used by unqualified and undocumented immigrants to obtain FHA-insured
 mortgages. HUD realized losses of about $400,000 after 11 mortgages defaulted.



     Caridad Prados, a straw borrower indicted in U.S. District Court, Newark, NJ, for conspiracy to defraud
 HUD and using a false SSN, was suspended from procurement and nonprocurement transactions as a
 participant or principal with HUD and throughout the Executive Branch of the Federal Government. Prados
 and others allegedly submitted fraudulent documents to obtain FHA-insured mortgages. HUD realized losses
 in excess of $349,000 after 12 mortgages defaulted.



      Santiago Contreras Sauceda, Alejandro Cruz, Julio Interiano, Cipriano Negrete, and Miguel Alcala each
 pled guilty in Dallas County District Court, Dallas, TX, to securing execution of a document by deception,
 each defendant was sentenced to 2 years probation, and they were collectively fined $2,391. In addition, Erik
 Alonso pled guilty to securing execution of document by deception and was sentenced to 3 months
 confinement, fined $722, and placed into immigration deportation proceedings. The above defendants used
 false SSNs and submitted fraudulent documents to obtain and later default on FHA-insured mortgages. HUD
 realized losses of $162,819 after their mortgages defaulted.

 Bankruptcy Fraud
     Carlos Castelan was sentenced in U.S. District Court, Salt Lake City, UT, to 15 months incarceration and
 36 months probation and ordered to pay HUD $45,736 in restitution for his earlier guilty plea to making false
 statements and destroying, altering, or falsifying records in a bankruptcy or Federal investigation. Castelan
 used a false SSN when he obtained an FHA-insured mortgage and filed for bankruptcy. HUD realized a loss
 of $62,000 after his mortgage defaulted.



     Steven Sturdivant, a former Chicago Housing Authority (CHA) Section 8 landlord, and his wife, Yasmeen
 Sturdivant, were each charged in U.S. District Court, Chicago, IL, with committing bankruptcy fraud,
 concealment of assets, or wire fraud. Steven and Yasmeen Sturdivant allegedly provided fraudulent documents




Chapter 1: HUD’s Single-Family Housing Programs                                                              17
 to obtain FHA-insured or conventional mortgages, and Steven Sturdivant allegedly failed to report CHA
 housing contract payments on bankruptcy petitions and filed numerous bankruptcies to delay foreclosure
 proceedings. HUD realized a loss of $30,841 after one FHA-insured mortgage defaulted.



     Venus Trillet was arrested and charged in Lawrenceville Superior Court, Norcross, GA, with committing
 forgery. Trillet allegedly forged the signature of her former spouse when she refinanced her FHA-insured
 mortgage, failed to pay 12 mortgage payments, and filed bankruptcy to impede foreclosure proceedings.

 Other Single-Family Fraud
     Rockney Martineau was sentenced in Maricopa County Superior Court, Phoenix, AZ, to 5 years
 incarceration and ordered to pay HUD $149,796 in restitution for his earlier guilty plea to committing
 fraudulent schemes. Martineau illegally entered two HUD-owned homes, filed false deeds claiming property
 ownership, fraudulently delayed his eviction from the properties, and caused HUD losses of $149,796.



      Debra Molina, a San Bernardino County probation officer and HUD Good Neighbor Next Door
 (Good Neighbor) program participant, was charged in U.S. District Court, Riverside, CA, with making false
 statements. Molina obtained a HUD-owned property and received a $67,500 discount, but Molina allegedly
 failed to reside in her Good Neighbor property or report her nonresidency on HUD certifications.



      Francisco Renteria, a U.S. Department of Homeland Security supervisory immigration officer and
 Good Neighbor program participant, pled guilty in U.S. District Court, El Paso, TX, to making false
 statements to HUD. Renteria was sentenced to 3 years probation, ordered to pay HUD $16,800 in
 restitution, and fined $1,000. Renteria obtained a HUD-owned property and received a $57,000 discount,
 but Renteria failed to claim previously owned residential properties or his nonresidency in his Good Neighbor
 property on HUD certifications.



     Prisciliano Peralta, Sr., was charged in Adams County District Court, Brighton, CO, with committing
 theft, forgery, offering a false instrument for recording, and criminal impersonation. Peralta allegedly used an
 FHA-insured property owned by another as collateral for a $20,000 bail bond, but the individual released on
 bail failed to appear in court, and HUD realized a loss of about $54,753 after the mortgage defaulted.



     Sammie Parr III, a Chicago Police Department officer and HUD Officer/Teacher Next Door
 (Officer/Teacher) program participant, was charged in a civil complaint filed in U.S. District Court, Chicago,
 IL, with making false claims and breach of contract. Parr obtained a HUD-owned property and received a
 $49,950 discount, but Parr allegedly failed to report his ownership of additional real estate on HUD
 certifications.




18                                                               Chapter 1: HUD’s Single-Family Housing Programs
     Kristine Knowles, a teacher and an Officer/Teacher program participant, agreed to a civil judgment filed in
 U.S. District Court, Chicago, IL, and paid the U.S. Department of Justice $35,000 in restitution. Knowles
 obtained a HUD-owned property at a 50 percent discount and certified the property as her sole residence, but
 Knowles failed to reside in the property or report her ownership of additional real estate on HUD
 certifications.



     Rena Haley, a Baltimore Police Department sergeant and an Officer/Teacher program participant, entered
 into a PFCRA settlement in Baltimore, MD, and agreed to pay HUD $39,220 in restitution. Haley obtained
 a HUD-owned property and received a $33,720 discount, but Haley failed to reside in the Officer/Teacher
 property or report her nonresidency on HUD certifications.



     Robert Miller was convicted in U.S. District Court, Washington, DC, of wire fraud and inducement to
 travel in interstate commerce in execution of a scheme to defraud. Miller posed as a lawyer, realtor, mortgage
 broker, foreclosure expert, and other professionals; obtained about $500,000 from investors to purchase
 HUD-owned and other properties to "flip" for a profit; and then failed to purchase investment properties and
 used investor funds for his personal benefit.



     Carey O'Laughlin, president of National Housing Foundation, a nonprofit approved by HUD to obtain
 FHA-insured mortgages, was indicted in U.S. District Court, Chicago, IL, for making false statements to a
 federally insured bank. O'Laughlin allegedly obtained and defaulted on $1 million in bank credit after he
 provided fraudulent financial statements and documents to American Charter Bank.




Chapter 1: HUD’s Single-Family Housing Programs                                                                19
                    Chapter 2
                HUD’s Public and
                 Indian Housing
                    Programs




Acronyms List
     The U.S. Department of Housing and Urban Development (HUD) provides grants and subsidies to
 5,158 public housing agencies (PHA) nationwide. Many PHAs administer both public housing and Section 8
 programs. Programs administered by PHAs are designed to enable low-income families, the elderly, and
 persons with disabilities to obtain and reside in housing that is safe, decent, sanitary, and in good repair. In
 addition to the audits and investigations described in this chapter, the Office of Inspector General (OIG), has
 conducted numerous outreach efforts (see chapter 7, page 119).


 Audits
                      Strategic Initiative 2: Contribute to the reduction of erroneous
                                         payments in rental assistance
         Key program results                 Questioned costs                           Funds put to better use
      Audit          26 audits                  $49 million                                   $294 million
                      Page 23         - Community service and self-sufficiency program
       Our            Page 23         - Section 8 Housing Choice Voucher program activities at PHAs
      focus           Page 27         - Public housing program activities
                      Page 32         - Native American programs


                   Chart 2.1: Percentage of OIG public and Indian housing audit reports
                                        during this reporting period
                                                                                                       Region 1
                                                                                                         4%
                                         Region 7-8                    Region 5           Region 2
                                           19%                          12%                 0%




                                                                                                         Region 3
                                                                                                          12%
     Region 9-10
        22%


                                                                                              Region 4
                                                                                               12%
                                         Region 6
                                          19%



                                                                                 Region 11
                                                                         (Disaster Relief Oversight)
                                                                                  %(N/A)*
 * This does not include hurricane relief audits. See chapter 5 for these reviews.



22                                                                     Chapter 2: HUD’s Public and Indian Housing Programs
 Community Service and Self-Sufficiency Program
   HUD OIG audited HUD's community service and self-sufficiency requirement to determine whether
 HUD ensured that housing authorities properly administered the requirement.

     HUD did not have adequate controls to ensure that housing authorities properly administered the
 requirement. It did not have sufficient guidelines, adequate data collection and reporting systems, or effective
 enforcement mechanisms. Of 68 households reviewed, 44 did not comply with the requirement and were,
 therefore, ineligible for continued occupancy. We estimate that housing authorities improperly renewed or
 extended the leases of at least 85,000 ineligible households, thereby costing an estimated $21.5 million in
 monthly operating subsidies.

     OIG recommended that HUD improve its controls to ensure that housing authorities properly administer
 the requirement, resulting in more than $257 million being put to better use annually. In addition, OIG
 recommended that HUD require housing authorities to take corrective action against the 44 ineligible
 households identified. (Audit Report: 2008-KC-0002)

 Section 8 Housing Choice Voucher Program Activities at PHAs
      Audits of the Section 8 Housing Choice Voucher program were a priority during this semiannual reporting
 period. PHAs were selected for audit based on risk analysis and/or hotline complaints. While OIG's objectives
 varied by auditee, the majority of the reviews were to determine whether the units met housing quality
 standards, whether the PHA managed the program according to HUD requirements, and whether the
 eligibility of the tenants was correctly determined. The following section illustrates the audits conducted in
 the Section 8 Housing Choice Voucher program area.

     HUD OIG audited the Dallas Housing Authority, Dallas, TX, regarding the financial management of its
 Housing Choice Voucher program. Contrary to requirements, Authority management failed to implement
 internal controls over the financial management of the program and did not exercise sound management
 practices. As a result, the Authority's financial data were unreliable, its fund balances were incorrect, and it
 could not assure HUD that it spent program funds in accordance with its annual contributions contract or
 Federal regulations. Further, the Authority certified to HUD that it expended significantly less in program
 funds than it received in 2005 and 2006.

     OIG recommended that HUD require the Authority to support or repay more than $32.4 million, void
 and properly reclassify nearly $649,000 in outstanding checks, and implement effective internal controls over
 the financial operations of its Housing Choice Voucher program. In addition, OIG recommended that HUD
 take appropriate administrative sanctions, up to and including issuing a notice of default in accordance with its
 annual contributions contract for the rental certificate and rental voucher programs to ensure that the
 Authority complies with requirements. (Audit Report: 2008-FW-1006)



    HUD OIG also audited the portability features of the Housing Choice Voucher program at the Dallas
 Housing Authority in Dallas, TX. The Authority (1) mismanaged its portable vouchers and failed to
 administer portability in accordance with HUD requirements, (2) could not identify its portable families and




Chapter 2: HUD’s Public and Indian Housing Programs                                                              23
 attempted to collect portability payments from other housing authorities based on unreliable billing
 information, (3) did not bill other housing authorities or reconcile its accounts accurately or in a timely
 manner, and (4) violated portability requirements by denying and discouraging families wishing to port into
 its Housing Choice Voucher program.

     OIG recommended that HUD require the Authority to (1) reconcile its portability accounts, (2) establish
 and implement necessary controls to ensure that its program complies with HUD requirements, (3) establish
 and implement controls to ensure that employees cannot manipulate accounting data, (4) repay administrative
 fees collected for its port Housing Choice Voucher program since it did not properly administer the program,
 and (5) repay more than $3.7 million that it inappropriately requested from HUD. (Audit Report:
 2008-FW-1003)



    HUD OIG audited the Section 8 Housing Choice Voucher program of the Shreveport Housing
 Authority, Shreveport, LA. Of the 66 units inspected, 62 did not meet minimum housing quality standards,
 and 47 were materially noncompliant with HUD standards. As a result, tenants lived in units that were not
 decent, safe, and sanitary.

     OIG recommended that HUD require the Authority to (1) inspect the 62 units that did not meet
 minimum housing quality standards to verify that the owners took appropriate corrective action to make the
 units decent, safe, and sanitary; (2) reinspect all of its Section 8 units, including those units that it owns, and
 ensure that they meet housing quality standards and if any of the units cannot be made decent, safe, and
 sanitary, either abate the housing assistance payments or terminate the tenant's voucher as appropriate; and
 (3) implement procedures and controls to ensure that its Section 8 units and inspections meet HUD
 requirements to prevent $6.1 million in future assistance payments from being spent on units that do not meet
 standards. (Audit Report: 2008-FW-1002)



     HUD OIG audited the Section 8 Housing Choice Voucher program of the Housing Authority of the
 County of Los Angeles, Los Angeles, CA. The Authority did not comply with HUD's requirements or its own
 administrative plan in performing reexaminations. It incorrectly calculated housing assistance payments, did
 not complete tenant reexaminations in a timely manner, and improperly changed reexamination due dates. As
 a result, it made improper and unsupported housing assistance payments, collected unearned administrative
 fees between 2005 and 2006, and continued to put its program at risk.

     OIG recommended that HUD direct the Los Angeles County Board of Supervisors to replace the
 executive director and hire a new Assisted Housing Division director. OIG also recommended that HUD
 withhold 10 percent of the Authority's future administrative fees until it properly implements its new
 computer system; direct the Authority to reimburse HUD $3.6 million in fiscal year 2005 and 2006
 administrative fees; and require the Authority to reimburse overpayments of more than $33,000 from nonfederal
 funds, reimburse tenants nearly $3,000 for underpayments, and provide support or reimburse the program
 nearly $6,000 for unsupported costs. (Audit Report: 2008-LA-1007)




24                                                            Chapter 2: HUD’s Public and Indian Housing Programs
     HUD OIG performed a corrective action verification of the audit recommendations cited in the audit
 report, Miami-Dade Housing Agency Did Not Ensure Section 8-Assisted Units Met Housing Quality
 Standards (2006-AT-1001), issued December 21, 2005. The purpose of the corrective action verification was
 to determine whether the selected audit recommendations were implemented and the deficiencies reported in
 the audit report corrected.

     The Agency, located in Miami, FL, disregarded the management decisions and did not implement the
 promised corrective action. It did not correct the housing quality standards violations OIG cited in the audit
 and failed to implement its revised Section 8 administrative plan. As a result, the deficiencies cited in the audit
 report were not corrected, and the Agency continued to violate HUD requirements.

    OIG recommended and HUD agreed with reopening recommendations 1A and 1B from audit report
 2006-AT-1001 because the Agency did not implement the agreed-upon corrective actions. (Audit
 Report: 2008-AT-0801)



     HUD OIG audited the Housing Authority of the City of Allentown, PA, and found that the Authority
 generally calculated housing assistance payments accurately and properly maintained documentation in its
 tenant files for its Section 8 program. However, it did not settle interfund payables accruing to its Section 8
 program in a timely manner and did not allocate administrative salary and benefit costs to its programs on a
 reasonable and fair basis. As a result, the Authority allowed the Section 8 program's interfund payables to
 accumulate to more than $760,000 over a 10-month period, and it charged excess administrative salary and
 associated employee benefit costs totaling nearly $151,000 to its low-rent public housing program.

     OIG recommended that HUD verify the Authority's reimbursement to settle the Section 8 program's
 interfund payables and direct the Authority to reimburse its low-rent public housing program from the
 programs that benefited from the improper allocation of administrative salary and benefit costs. (Audit
 Report: 2008-PH-1003)



     HUD OIG audited the Section 8 Housing Choice Voucher program of the Holyoke Housing Authority,
 Holyoke, MA. Of the 63 program units inspected, 43 failed inspection, and 26 were materially noncompliant
 with housing quality standards. The Authority did not always perform its inspection or notify the owners of
 inspection results in a timely manner or abate the housing assistance payments when repairs were not made as
 required. It also did not have an adequate quality control process in place to ensure that inspections detected
 housing quality standards violations or were properly performed and in compliance with HUD's and the
 Authority's requirements.

     OIG recommended that HUD require the Authority to implement controls to ensure that (1) its
 inspection policies and procedures are followed and that all units meet HUD's housing quality standards to
 prevent $1.6 million in program funds from being spent on units that are in material noncompliance and
 (2) future Section 8 quality control inspections are properly performed and supported by adequate
 documentation. (Audit Report: 2008-BO-1002)




Chapter 2: HUD’s Public and Indian Housing Programs                                                                25
     HUD OIG audited the Municipality of Ponce, PR's (authority) Section 8 Housing Choice Voucher
 program. Of the 54 units inspected, 39 did not meet minimum housing quality standards, and 12 of those
 were in material noncompliance. The authority also failed to ensure that annual housing quality inspections
 were performed in a timely manner. As a result, Section 8 program funds were not used to provide units that
 were decent, safe, and sanitary; and the authority made housing assistance payments for units that did not meet
 standards. The authority also did not pay program landlords in a timely manner or apply utility allowances for
 tenant-supplied appliances.

     OIG recommended that HUD require the authority to (1) inspect all of the 39 units that did not meet
 minimum housing quality standards to verify that the landlords took appropriate corrective actions and if
 appropriate actions were not taken, abate the rents or terminate the tenants' vouchers; (2) establish and
 implement adequate procedures and controls to prevent more than $190,000 from being spent on units with
 material housing quality standards violations and for the timely disbursement of more than $185,000 in back
 payments to landlords; and (3) develop a utility allowance schedule that complies with program requirements
 and recognizes the costs of tenant-supplied appliances to ensure that more than $71,000 in program funds is
 used in accordance with HUD requirements. (Audit Report: 2008-AT-1001)



     HUD OIG reviewed the Housing Authority of the City of Napa, CA's Section 8 program to determine
 whether concerns raised in a complaint relating to misappropriation of Section 8 funds had merit and whether
 allegations of improper rent increases for the Section 8 Moderate Rehabilitation Single Room Occupancy
 (Mod Rehab) and Section 8 Housing Choice Voucher programs were valid.

     The allegation relating to the misappropriation of Section 8 funds had no merit. However, the Authority
 improperly increased contract rents for eight units at a Section 8 Mod Rehab project, resulting in the Authority's
 paying more than $63,000 in excess housing assistance payments to the owner. Additionally, the Authority did
 not properly determine reasonable rents for the Section 8 Housing Choice Voucher program units. As a result,
 it potentially overpaid housing assistance to the owners.

     OIG recommended that HUD require the Authority to (1) reimburse the excessive housing assistance
 payments related to the Section 8 Mod Rehab units; (2) develop and implement written policies, procedures,
 and controls for administering its Section 8 Mod Rehab program in compliance with HUD regulations;
 (3) establish procedures and implement controls to ensure that its rent reasonableness determination process is
 in accordance with HUD rules and regulations; (4) establish procedures and implement controls to ensure that
 the comparable database is up-to-date, complete, and verified; and (5) conduct training for all individuals
 involved in rent reasonableness determinations. OIG also recommended that HUD coordinate with OIG to
 conduct a postaudit verification review to determine whether corrective actions were implemented. (Audit
 Report: 2008-LA-1002)



     HUD OIG audited the Section 8 Housing Choice Voucher program of the Anaheim Housing Authority,
 Anaheim, CA, and found that the Authority incorrectly calculated housing assistance payments and processed
 annual recertifications without ensuring that all HUD requirements were met. OIG identified more than
 $6,000 in housing assistance overpayments and $90 in housing assistance underpayments related to 4 of 10
 tenant reexaminations. In addition, although the Authority had significantly improved its rent reasonableness




26                                                            Chapter 2: HUD’s Public and Indian Housing Programs
 practices since late 2006, its rent reasonableness procedures were not in accordance with all HUD rules and
 regulations.

     OIG recommended that HUD require the Authority to (1) reimburse the program from nonfederal funds
 for the overpayment of housing assistance; (2) reimburse the appropriate tenant from program funds for the
 underpayment of housing assistance; (3) ensure that the new administrative plan is properly implemented
 throughout the organization; and (4) implement additional procedures and controls over eligibility, quality
 control reviews, and rent reasonableness determinations. (Audit Report: 2008-LA-1005)



      HUD OIG audited the Housing Authority of the City of Colorado Springs, CO, to determine whether it
 followed Federal procurement requirements and its own procurement policies in awarding two capital fund
 rehabilitation contracts, properly administered all work done by its contractor, and followed Federal
 occupancy requirements and its own administrative plan in maintaining its Section 8 waiting list and selecting
 eligible applicants from its waiting list.

     The Authority did not follow applicable requirements while awarding and administering two capital fund
 rehabilitation contracts. It also violated applicable requirements while maintaining its Section 8 waiting list
 and selecting participants from the waiting list. It had no assurance that it received the best price when
 awarding two contracts that eventually paid out more than $2.2 million. In addition, it did not administer the
 contracts according to requirements when it paid more than $570,000 to the contractor for services provided
 outside the scope of the statement of work on the contracts, and it improperly maintained its waiting list and
 selected tenants without regard to the waiting list or appropriate support.

     OIG recommended that HUD require the Authority to provide training and implement controls to ensure
 that written procedures are followed. In addition, OIG recommended that HUD perform a postmonitoring
 review to ensure that the Authority took recommended actions. (Audit Report: 2008-DE-1001)

 Public Housing Program Activities
    HUD OIG audited the District of Columbia Housing Authority's administration of its leased housing
 under its Moving to Work Demonstration program in Washington, DC, to determine whether the Authority
 ensured that its program units met housing quality standards.

     Of 70 housing units inspected, 67 did not meet HUD's housing quality standards, and 48 of the units had
 exigent health and safety violations that the Authority's inspectors neglected to report during their last
 inspection. The Authority spent nearly $193,000 in program and administrative funds for these 48 units.

      OIG recommended that HUD require the Authority to (1) ensure that housing units inspected during the
 audit are repaired to meet HUD's housing quality standards, (2) reimburse its program from nonfederal funds
 for the improper use of program funds for units that materially failed to meet HUD's standards, and
 (3) implement adequate procedures and controls to ensure that program units meet housing quality standards
 to prevent an estimated $21.7 million from being spent annually on units with material housing quality
 standards violations. (Audit Report: 2008-PH-1001)




Chapter 2: HUD’s Public and Indian Housing Programs                                                            27
     HUD OIG audited the Housing Authority of the City of Michigan City, IN's nonprofit development
 activities to determine whether the Authority diverted or pledged resources subject to its annual contributions
 contract, other agreements, or regulations for the benefit of non-HUD developments.

      The Authority diverted and pledged assets subject to its contracts, other agreements, or HUD's regulations
 for the benefit of Michigan City Housing Development, Incorporated, the Authority's nonprofit entity. It
 failed to file declarations of trust on 32 properties purchased using Turnkey III Homeownership sales proceeds.
 It also inappropriately transferred ownership of 29 of the 32 properties, valued at more than $1.1 million, to its
 nonprofit without HUD approval and did not ensure that it complied with its HUD-approved plan regarding
 the use of the sales proceeds. As a result, fewer funds were available to serve the Authority's low-income
 families. Further, the Authority did not comply with HUD's property disposition requirements and did not
 ensure that its nonprofit used the proceeds from the sale of property in accordance with its agreement with
 HUD. As a result, HUD lacks assurance that the sale of the property served the best interests of HUD, the
 Authority, and its residents.

     OIG recommended that HUD require the Authority to (1) submit executed declarations of trust for the
 Turnkey III properties to HUD, (2) negotiate with its nonprofit to transfer ownership of the 29 Turnkey III
 properties back to the Authority and amend its promissory note with Horizon Bank to remove the properties
 held as collateral or pay HUD for the properties from nonfederal funds, (3) reimburse its public housing
 program from nonfederal funds for rental income received from the Turnkey III properties, (4) replenish its
 public housing program to comply with its approved HUD plan or provide a revised plan to HUD for review
 and approval, (5) implement adequate procedures and controls for monitoring the progress of the urban park
 development or exercise its right to reversion of title if the park is not fully developed, (6) negotiate with its
 nonprofit to discontinue using sales proceeds to pay interest payments, and (7) implement a written plan for
 use of the proceeds. OIG also recommended that HUD take appropriate action to declare the Authority in
 substantial default of its contract. (Audit Report: 2008-CH-1001)



     HUD OIG reviewed the development activities of the Douglas County Housing Authority, Omaha, NE,
 to determine whether the Authority encumbered or spent HUD assets for nonfederal development activities
 without HUD approval.

     The Authority (1) inappropriately encumbered nearly $1.67 million in Federal assets when it entered into
 loan documents containing setoff provisions against the Authority's HUD-related bank accounts,
 (2) inappropriately entered into partnership agreements that made it responsible for all operating deficits of
 two nonfederal developments, (3) inappropriately spent nearly $860,000 in public housing funds on three
 nonfederal developments, and (4) arbitrarily allocated nearly $730,000 of its administrative and maintenance
 supervisor salaries to its Federal programs without adequate support.

     OIG recommended that HUD require the Authority to (1) improve its controls, obtain adequate releases
 from the loan commitments and partnership agreements for the nonfederal developments, and repay its public
 housing program for any Federal funds used inappropriately; (2) reimburse its HUD programs; and
 (3) reimburse its HUD programs for any salary allocations it cannot support and implement an acceptable
 method for allocating future salary and benefits costs. OIG also recommended that HUD take appropriate




28                                                            Chapter 2: HUD’s Public and Indian Housing Programs
 administrative actions against the Authority, its chief executive officer, and members of its board of
 commissioners for violating HUD rules. (Audit Report: 2008-KC-1001)



    HUD OIG audited the Housing Authority of the City of McKinney, TX, to determine whether the
 Authority's transactions with its affiliated nonprofit, the McKinney Housing Opportunity Corporation,
 complied with HUD requirements.

     In violation of its annual contributions contract, the Authority inappropriately provided funds and real
 estate to its not-for-profit affiliate and did not follow requirements when it made housing assistance payments
 to the Corporation. It did not obtain independent determinations of fair market rents or compliance with
 housing quality standards for properties owned by the Corporation.

     OIG recommended that HUD require the Authority to (1) repay more than $915,000 to its low-income
 accounts, (2) support more than $79,000 in housing assistance payments to the Corporation by obtaining
 independent determinations of fair market rents and compliance with housing quality standards,
 and (3) implement policies and procedures to ensure that it complies with HUD requirements. (Audit
 Report: 2008-FW-1005)



     HUD OIG audited the public housing and Public Housing Capital Fund
 programs of the Highland Park Housing Commission, Highland Park, MI, to
 determine whether the Commission effectively administered its program and
 followed HUD's requirements.

      The Commission's administration of its programs, regarding admission and
 occupancy and procurement, was inadequate. It did not comply with HUD's
 requirements and its policies in administering its admission and occupancy
 process. It was unable to support more than $153,000 in public housing
 operating subsidies received, did not receive total household payments of nearly
 $29,000, received excess total household payments of more than $13,000, and
 received nearly $8,000 in public housing operating subsidies to which it was not
 entitled. Further, the Commission's procurement activities were not conducted
 according to its and HUD's requirements. It did not follow HUD's requirements
 for full and open competition regarding the procurement of professional, housing
 maintenance, and general cleaning services totaling nearly $83,000 and did not
 have supporting documentation for work costing more than $61,000 under the
 Commission's Public Housing Capital Fund program.

     OIG recommended that HUD require the Commission to provide support
 or reimburse its applicable program from nonfederal funds for the unsupported
 payments, reimburse its applicable program from nonfederal funds for the

                                                                                     Copyright, 2008. Detroit Free
                                                                                     Press - Detroit, MI. Reprinted
                                                                                                   with permission.



Chapter 2: HUD’s Public and Indian Housing Programs                                                               29
 improper use of funds, and implement adequate procedures and controls to help ensure that nearly $70,000 in
 public housing funds will be put to better use. (Audit Report: 2008-CH-1003)



     HUD OIG audited the 5(h) homeownership program of the Akron Metropolitan Housing Authority,
 Akron, OH, to determine whether the Authority properly accounted for and used its program's proceeds in
 accordance with requirements.

      The Authority failed to maintain a separate identity for more than $196,000 of its program's proceeds
 because it commingled the proceeds with funds in its general public housing fund account. It also did not use
 its program sales proceeds in a timely manner. As a result, the program's proceeds were not used to assist
 low-income families.

     OIG recommended that HUD require the Authority to (1) reimburse its appropriate account the 5(h)
 sales proceeds plus earned interest, (2) submit a proposal for HUD's approval on how the program's proceeds
 will be used, and (3) implement adequate procedures and controls to ensure that the proceeds are used to
 provide housing assistance for low-income families in accordance with HUD's requirements. (Audit Report:
 2008-CH-1002)



     HUD OIG reviewed the capital fund program of the Housing Authority of the County of San Joaquin,
 Stockton, CA, to determine whether the Authority used capital funds in accordance with HUD rules and
 regulations.

     The Authority did not use capital funds in accordance with requirements. It used nearly $176,000 to
 absorb shared administrative costs of other housing programs, improperly charged nearly $115,000 in
 ineligible indirect administrative fees, recorded more than $77,000 in additional questioned costs to its capital
 fund grant, and did not have policies and procedures in place to ensure accurate and complete financial infor-
 mation.

     OIG recommended that HUD require the Authority to repay HUD and reimburse the capital fund
 for shared administrative costs from other housing programs and ineligible administrative fees. OIG also
 recommended that the Authority remove liabilities from its accounting records and establish policies and
 procedures to ensure that it spends and supports its use of capital funds in accordance with HUD
 requirements. (Audit Report: 2008-LA-1008)



     HUD OIG audited Green River Management, Inc., Ada, OK, which managed the Housing Authorities of
 the City of Konawa, City of Langston, City of Pauls Valley, City of Wynnewood, Town of Cheyenne, and
 Caddo Electric Cooperative, to determine whether the housing authorities appropriately procured Green River
 as their management agent, maintained properties, and carried out their financial responsibilities in
 accordance with HUD rules and regulations and their policies and procedures.




30                                                           Chapter 2: HUD’s Public and Indian Housing Programs
     The housing authorities did not appropriately procure their management agent contracts, did not use
 more than $199,000 in accordance with requirements, and unnecessarily paid a commissioner of Konawa
 nearly $6,000 as an insurance agent when they could have purchased the insurance directly from the company.
 Further, Langston did not maintain its units in good condition or manage certain aspects of its operations in
 accordance with requirements. As a result, the housing authorities misspent more than $205,000 and could
 put more than $84,000 to better use by reprocuring the management agent contracts.

    OIG recommended that HUD require (1) the housing authorities to reprocure their management agent
 contracts; (2) Langston to correct its physical conditions and implement procedures to ensure that its units are
 maintained in a decent, safe, and sanitary condition; (3) the housing authorities to support or repay the
 misspent funds; and (4) the housing authorities to comply with HUD and State requirements. (Audit
 Report: 2008-FW-1001)



    HUD OIG audited the Schuyler Housing Authority, Schuyler, NE, to determine whether the Authority
 improperly spent public housing assets when developing and operating an assisted living program.

      The Authority inappropriately used more than $78,000 in public housing funds to pay expenses of a
 non-HUD assisted living program, improperly allowed the assisted living entity to collect more than $60,000
 in public housing rent, and did not maintain tenant records or accurately report tenant data to HUD for
 assisted living participants.

      OIG recommended that HUD require the Authority to obtain repayment from the non-HUD assisted
 living entity for those expenses paid on the entity's behalf, collect public housing tenant rents that the entity
 had not transferred to the Authority, and implement controls to separate public housing revenues and expenses
 from those of the assisted living program. OIG also recommended that HUD monitor the Authority to
 ensure that it does not continue to inappropriately support the assisted living program. (Audit Report:
 2008-KC-1002)



     HUD OIG audited the Housing Authority of Baltimore City's administration of its leased housing under
 its Moving to Work Demonstration program in Baltimore, MD, to determine whether the Authority's
 controls over its tenant files were adequate to ensure compliance with HUD requirements.

     The Authority's controls were generally sufficient to ensure that tenant files contained the required
 documentation, and its tenant files were orderly and contained certification and recertification documents in
 accordance with HUD requirements. However, in 7 of the 22 tenant files reviewed, the Authority incorrectly
 calculated housing assistance payments, resulting in more than $3,000 in overpayments and nearly $3,000 in
 underpayments. The Authority was in the process of strengthening its controls over housing assistance
 payment determination to ensure that it made future housing assistance payments accurately and in
 accordance with HUD requirements.

     OIG recommended that HUD require the Authority to reimburse its program from nonfederal funds for
 the overpayment of housing assistance and reimburse applicable tenants for housing assistance underpayments,




Chapter 2: HUD’s Public and Indian Housing Programs                                                              31
 thereby putting these funds to better use. OIG further recommended that HUD conduct a followup review to
 ensure that the Authority's planned process improvements are implemented. (Audit Report: 2008-PH-1004)



     HUD OIG audited HUD's oversight of the Housing Authority of DeKalb County, Atlanta, GA, with
 regard to the Authority's compliance with its memorandum of agreement to determine whether HUD
 adequately monitored the Authority's implementation of operating improvements required in the agreement.

     HUD did not ensure that the Authority accurately implemented its agreement. The Authority did not
 implement some tasks related to financial management and procurement. As a result, it was released from its
 agreement without fully completing and implementing it. Thus, HUD could not be assured that the Authority's
 public housing program was managed in a manner consistent with sound financial practices.

     OIG recommended that HUD perform a comprehensive review of the Authority's procurement function
 to ensure that it is operating in accordance with Federal and State regulations and perform either staff or
 independent public accountant on-site review of the financial management internal controls to ensure that the
 Authority has adequate financial internal controls regarding the disbursement of funds. (Audit Report:
 2008-AT-0001)



     HUD OIG audited the Housing Authority of the City of Brighton, CO, to determine whether the
 Authority had an adequate inventory control system and whether it performed contracting activities in
 accordance with Federal procurement requirements.

    The Authority did not have complete and accurate inventory records of its fixed assets. It also violated
 Federal procurement requirements while awarding two service contracts worth approximately $52,000.

     OIG recommended that HUD require the Authority to perform a complete physical inventory of its fixed
 assets, develop and implement inventory control practices, and properly train its procurement staff. In
 addition, OIG recommended that HUD perform a postmonitoring review to ensure that the Authority took
 recommended actions. (Audit Report: 2008-DE-1002)

 Native American Programs
     HUD OIG audited Oneida Housing Authority, Oneida, WI, to determine whether the Authority
 calculated program income for Native American Housing Assistance and Self Determination Act of 1996
 (NAHASDA)-assisted United States Housing Act of 1937 (1937 Act) properties in accordance with applicable
 HUD guidance, regulations, and requirements and to observe uses of revenue from NAHASDA-assisted 1937
 Act properties.

     The Authority failed to track NAHASDA Indian Housing Block Grant (Block Grant) rehabilitation or
 capital expenses for each property and restrict nonprogram income from its Mutual Help program. As a result,
 more than $2.2 million in combined low-rent and Mutual Help housing receipts was inappropriately classified
 as nonprogram income, and the proceeds from the sale of Mutual Help units were not restricted to eligible
 uses. Further, the Authority's financial auditor identified from $60,000 to $100,000 in disbursements for




32                                                         Chapter 2: HUD’s Public and Indian Housing Programs
 2006 board expenses as abusive. Those costs were paid from the Authority's local fund, which contained
 nonprogram income from 1937 Act units.

      OIG recommended that HUD (1) require the Authority to implement policies and procedures to
 determine program income in accordance with HUD requirements, (2) evaluate the Authority's computation
 of low-rent program income and determine whether the estimated unit labor costs are adequate to document
 the total costs of rehabilitation or capital costs or reclassify the nearly $991,000 in nonprogram income as
 Block Grant program income, (3) evaluate the Authority's computation of Mutual Help program income and
 determine whether the estimated unit labor costs are adequate to document the total cost of rehabilitation or
 capital costs or reclassify more than $1.2 million in nonprogram income as Block Grant program income, and
 (4) require the Authority to implement policies and procedures restricting the use of nonprogram income from
 Mutual Help proceeds of sale to eligible activities. (Audit Report: 2008-SE-1002)



    HUD OIG audited Warm Springs Housing Authority, Warm Springs, OR, to determine whether the
 Authority calculated program income for NAHASDA-assisted 1937 Act properties in accordance with
 applicable HUD guidance, regulations, and requirements and to observe uses of revenue from
 NAHASDA-assisted 1937 Act properties.

      The Authority did not have an adequate accounting process and system in place to accurately allocate
 income from 1937 Act properties receiving Block Grant program assistance between the 1937 Act and Block
 Grant programs. It failed to track cumulative NAHASDA modernization expenses for each property and did
 not allocate the property's share of income attributable to the NAHASDA Block Grant program. As a result,
 it inappropriately removed more than $1.4 million in low-income receipts from HUD-monitored NAHASDA
 affordable housing activities and used restricted funds to pay for more than $204,000 in unsupported travel
 expenses. The low-income housing receipts were used to repay unsupported compensation of housing officials
 and travel expenses identified during a 2003 monitoring review. Other uses of nonprogram income included
 unallowable bad debt, personal expenses on Authority credit cards, miscellaneous HUD-rejected expenses, and
 maintenance of tribal housing outside the NAHASDA program.

     OIG recommended that HUD require the Authority to (1) establish an accounting system that allocates
 income attributable to the NAHASDA program and documents the total cost of NAHASDA-funded
 rehabilitation and capital improvements or return the funds withdrawn from 1937 Act revenue to the NAHASDA
 program, (2) reconcile insurance proceeds and ensure that they are credited to NAHASDA-eligible activities
 for any policy paid using NAHASDA funds or policies covering NAHASDA-assisted units, (3) establish a
 separate accounting for Mutual Help program proceeds of sale to ensure proper restriction on the use of those
 funds, and (4) complete repayment of the unsupported travel expenses. (Audit Report: 2008-SE-1001)




Chapter 2: HUD’s Public and Indian Housing Programs                                                          33
 Investigation
     Some investigations discussed in this report were generated from leads provided by HUD public and
 Indian housing program staff or conducted jointly with Federal, State, and local law enforcement agencies.
 The results of various significant investigations are described below.

                     Strategic Initiative 2: Contribute to the reduction of erroneous
                                        payments in rental assistance
     Key program               Cases                        $                     Convictions/pleas/              Admin/civil
        results                closed                   recovered                     pretrials                     actions
     Investigations              275                  $5.8 million                       314                         323
                              Page 35          - Public housing authority theft/embezzlement
                              Page 38          - Rental assistance fraud
          Our                 Page 51          - FedRent Initiative
         focus
                              Page 54          - Fugitive Felon Initiatives
                              Page 55          - Other fraud/crimes
                              Page 56          - Systemic Implications Report

           Chart 2.2: Percentage of OIG public and Indian housing closed investigation
                                cases during this reporting period
                                                                                                       Region 1
                                                                                                         7%
                                           Region 7-8                    Region 5         Region 2
                                              9%                          12%               9%




     Region 9-10                                                                                        Region 3
        31%                                                                                              15%




                                                                                               Region 4
                                           Region 6                                              7%
                                            10%



                                                                                 Region 11
                                                                         (Disaster Relief Oversight)
                                                                                  %(N/A)*

 * This does not include hurricane relief cases. See chapter 5 for these cases.



34                                                                      Chapter 2: HUD’s Public and Indian Housing Programs
 Public Housing Authority Theft/Embezzlement
    VA Construction Company, a Housing Authority of the City of Danbury (Danbury) contractor, was
 ordered to pay Danbury $1.5 million in a civil judgment filed in Connecticut Superior Court, Danbury, CT.
 VA Construction Company failed to perform on its Danbury public housing construction contract.



     Carl Payne, the former executive director for the Harrisburg Housing Authority (HHA) and president and
 chief executive officer for the now-defunct Greater Harrisburg Community Credit Union (HCCU), pled
 guilty in U.S. District Court, Harrisburg, PA, to conspiracy to defraud HUD and making false statements.
 Payne and unnamed conspirators created documents to obstruct a grand jury investigation into the diversion
 of $500,000 in HHA funds to HCCU. A subsequent HUD OIG audit revealed that $834,969 in HHA funds
 was diverted to HCCU without authorization or disclosure.



     William Porfilio, doing business as Eastern Electronics & Security, Inc., a former Springfield Housing
 Authority (SHA) contractor, pled guilty in U.S. District Court, Springfield, MA, to conspiracy to commit
 wire fraud. Porfilio obtained more than $500,000 in SHA contracts after he paid bribes to and installed
 electronic systems in the homes of previously sentenced SHA executive director Raymond Asselin and others.



                                  Former Tampa Housing Authority (THA) Section 8 counselor Calvin
                              Coleman and six fictitious THA landlords were each indicted in U.S. District
                              Court, Tampa, FL, for conspiracy to steal government funds, theft of
                              government funds, or theft concerning programs receiving Federal funds. In
                              addition, former THA Section 8 counselors Mario Lovett and Carlton Miles and
                              nine fictitious THA landlords each pled guilty to conspiracy to steal government
                              funds, theft of government funds, or committing program fraud. Coleman and
                              others allegedly and Lovett, Miles, and others admittedly conspired and used the
                              THA computer system to fraudulently generate and obtain $455,168 in THA
                              housing contract payments they were not entitled to receive.



                                  David Baker, the Scranton Housing Authority (SHA) executive director, was
                              indicted in U.S. District Court, Scranton, PA, for misusing his position and
                              obstructing and impeding the performance of Federal auditors; making and using
                              false documents; misapplying Federal funds; wire fraud; and influencing,
                              obstructing, and impeding the due administration of justice during a Federal grand
                              jury investigation. Baker allegedly misused his position, threatened an
                              independent auditor, retaliated against cooperating SHA employees, made false
 Copyright, 2007. The Tampa
 Tribune - Tampa, FL.
 Reprinted with permission.




Chapter 2: HUD’s Public and Indian Housing Programs                                                            35
 statements to HUD, used SHA funds without authorization, and placed ineligible family members and friends
 into SHA subsidized housing units. HUD's losses are estimated at $300,000.



     Margaret Fletcher, the former Fulton County Housing Authority (FCHA) executive director; her
 daughter, Rita Stapleton, the former FCHA acting executive director; and former FCHA contract auditor
 Margaret Pryor were each charged in U.S. District Court, Harrisburg, PA, with misprision of a felony, conflict
 of interest, or submitting fictitious financial reports to HUD. Fletcher allegedly participated and allowed
 relatives to participate as landlords in the FCHA Housing Choice Voucher program, used FCHA funds for
 unauthorized administrative expenses, and awarded FCHA contracts to Stapleton. Stapleton allegedly
 participated as a landlord in the FCHA Housing Choice Voucher program, fraudulently accepted FCHA
 contracts, and obtained FCHA funds for fabricated vacation hours. Pryor allegedly falsified her employing
 firm and submitted false FCHA annual financial reports to HUD. HUD's losses are estimated at $238,000.



     Rebecca Sargeant, a former Springfield Housing Authority (SHA) accounts receivable clerk, was sentenced
 in U.S. District Court, Springfield, IL, to 13 months incarceration and 3 years supervised release and ordered
 to pay SHA $168,000 in restitution for her earlier guilty plea to theft of government funds. Sargeant prepared,
 endorsed, and negotiated $168,000 in SHA checks for her personal use without authorization.



      Lupe Pacheco, a former Region VI Housing Authority (Region VI) Section 8 supervisor, was sentenced in
 Chavez County District Court, Roswell, NM, to 4 years incarceration and 5 years supervised probation and
 ordered to pay Region VI $147,600 in restitution for her earlier guilty plea to embezzlement. Pacheco entered
 fictitious tenant and landlord information into the Region VI computer system, obtained $146,700 in
 fraudulent Region VI housing contract payments, and used the bogus Region VI housing contract payments
 for personal expenditures.



    Susan Wyatt, the former Homerville Housing Authority (HHA) executive director, was sentenced in U.S.
 District Court, Homerville, GA, to 14 months incarceration and 3 years supervised release and ordered to pay
 HUD $110,418 in restitution for her earlier guilty plea to embezzlement. Wyatt embezzled $110,418 in
 HHA funds for her personal use.



     Robert Newell, the former governor for the Passamaquoddy Tribe Indian Township Reservation
 (Passamaquoddy), a HUD-funded Indian tribal organization, and James Parisi, the former Passamaquoddy
 financial officer, were each indicted in U.S. District Court, Bangor, ME, for conspiracy, embezzlement, and
 making false statements and claims. From 2003 to 2006, Newell and Parisi allegedly diverted and used more
 than $1.7 million in Passamaquoddy funds without authorization. HUD's losses are estimated at $82,000.




36                                                          Chapter 2: HUD’s Public and Indian Housing Programs
     Pauletta McNabb, the former Lawrence County Housing Authority (LCHA) executive director, was
 indicted in U.S. District Court, Cummington, KY, for embezzlement. McNabb allegedly used $71,889 in
 LCHA funds for unauthorized credit card purchases and travel advances.



     Karen and Anslem Thompson, former employees for the Lukachukai Chapter Veterans Organization
 Service Development, Inc., (Lukachukai), a Navajo Housing Authority contractor, each pled guilty in U.S.
 District Court, Flagstaff, AZ, to conspiracy to commit embezzlement and theft from an Indian tribal
 organization. From May 2000 to November 2002, Karen and Anslem Thompson and others embezzled
 $65,000 in Lukachukai funds for their personal use.



     George Green, the former Union County Housing Authority (UCHA) executive director, was arrested and
 charged in Eighth Judicial Circuit Court, Lake Butler, FL, with committing an organized scheme to defraud in
 excess of $50,000. From November 2002 to March 2006, Green allegedly received UCHA funds for
 fabricated work and vacation hours, directed UCHA personnel to perform services at private residences during
 UCHA work hours, diverted UCHA assets for his personal use, expended UCHA funds for unauthorized
 expenditures, and created fraudulent UCHA rental records for relatives and friends. HUD's losses are
 estimated at $57,499.



     Betty Trent, the former Brooksville Housing Authority (BHA) executive director, was sentenced in U.S.
 District Court, Tampa, FL, to 2 years incarceration and ordered to pay HUD $23,000 in restitution for her
 earlier conviction of conspiracy to defraud the U.S. Government, wire fraud, theft concerning programs
 receiving Federal funds, embezzlement of public money, making false claims and statements, and falsification
 of Federal records in an investigation. Trent and previously sentenced BHA project manager Jo Ann Bennett
 created fraudulent invoices and embezzled more than $40,000 in BHA funds.



    Frank Giannoccaro, a former Rochester Housing Authority (RHA) contractor and owner of Giannoccaro
 Plumbing and Construction, Inc., was sentenced in U.S. District Court, Rochester, NY, to 2 years probation
 and ordered to pay HUD $10,838 in restitution for his earlier guilty plea to theft of government funds.
 Giannoccaro submitted more than $36,000 in fraudulent work orders and completion certifications to RHA.



     Rosemary Kappes, the former Housing Authority of Salt Lake City (HASLC) executive director, pled
 guilty in U.S. District Court, Salt Lake City, UT, to health care fraud. Kappes reimbursed HASLC $22,000
 and was sentenced to one day probation and ordered to perform 10 hours of community service. Kappes used
 $22,000 in HASLC funds to obtain health insurance benefits for her former spouse.




Chapter 2: HUD’s Public and Indian Housing Programs                                                         37
     Robbie Dudley, a former St. Louis Housing Authority (SLHA) employee, entered into a pretrial diversion
 agreement filed in U.S. District Court, St. Louis, MO, and was sentenced to 12 months supervised release, was
 barred from working any job with a fiduciary responsibility, and agreed to pay SLHA and an elderly tenant
 $4,759 in restitution. Dudley stole SLHA tenant payments and transferred funds from an elderly tenant's
 bank account for her personal use.



     Brent Honore, owner of Honore Construction Company, pled guilty in U.S.
 District Court, New Orleans, LA, to misprision of a felony and was sentenced to 2
 years probation and fined $5,000. Honore paid bribes for construction invoice
 approvals to previously sentenced James Lozano, a former project manager for
 Columbia Highlands Company, a Housing Authority of New Orleans
 subcontractor.



      Benny Ramos, a City of Paterson (Paterson) Section 8 program deputy
 director, was indicted in U.S. District Court, Newark, NJ, for attempting to extort
 money under color of official right and accepting cash to influence and reward.
 Princess Reaves, a Paterson deputy court administrator; Victor Ortiz, a Paterson
 housing inspector; and Mark Hooks, a City of Passaic (Passaic) employee, each
 pled guilty to soliciting and accepting bribes, attempting to extort money under
 color of official right, or accepting corrupt payments. In addition, eight Paterson,
 Patterson Housing Authority, or Passaic County Water Commission employees
 were collectively sentenced to more than 4 years and 10 months incarceration, 5
 months home confinement, 4 years supervised release, and 13 years probation and
 fined $10,900 for their earlier guilty pleas to interfering with commerce by threat
 or violence, unlawfully accepting property of another, conspiracy to defraud the
 U.S. Government, or attempting to extort money under color of official right.                  Copyright, 2008.
 Ramos allegedly and the remaining defendants admittedly solicited and accepted             The Times-Picayune -
 bribes from an unnamed conspirator in exchange for steering Section 8 tenants to              New Orleans, LA.
 specific properties, expediting building inspections, or rejecting tenant complaints             Reprinted with
 filed in municipal court.                                                                           permission.


 Rental Assistance Fraud
     Budimir Radojcic, owner of B&B Properties II, Inc., a Chicago Housing Authority (CHA) Section 8
 landlord, and Suzana Radojcic, Mirjana Omickus (Radojcic), Christa Patterson, and Mark Helfand were each
 charged in Cook County Circuit Court, Chicago, IL, with organizing a continuing financial crimes enterprise,
 financial institution fraud, conspiracy to commit a financial crime, forgery, theft, money laundering, and wire
 and mail fraud. Budimir Radojcic and the above defendants allegedly conspired and purchased rental
 properties, converted the properties into condominiums, fraudulently sold the properties to straw buyers who
 obtained conventional mortgage loans, conveyed the properties to a land trust without lender approval, and
 obtained more than $700,000 in CHA housing contract payments they were not entitled to receive.




38                                                          Chapter 2: HUD’s Public and Indian Housing Programs
      Twelve Miami-Dade Housing Authority
 (MDHA) Section 8 or Housing Choice
 Voucher program participants employed by
 local governmental agencies were each indicted
 in Eleventh Judicial Circuit Court, Miami, FL,
 for committing public assistance fraud and grand
 theft. In addition, 11 MDHA Section 8
 or public housing tenants and two registered
 sex offenders and unauthorized MDHA residents
 were arrested on probable cause for committing
 public assistance and organized fraud, grand
 theft, and conspiracy. The above defendants
 allegedly failed to report income, assets,
 unauthorized residents, or subleasing of their
 subsidized units on MDHA certifications and
 collectively obtained about $443,571 in MDHA
 housing assistance they were not entitled to                       Copyright, 2008. The Miami Herald - Miami, FL.
 receive.                                                                                 Reprinted with permission.



     Thirteen former Las Vegas Housing Authority (LVHA) Section 8 tenants and a former LVHA landlord
 were charged in Clark County Justice Court, Las Vegas, NV, with theft by misrepresentation, obtaining money
 under false pretenses, or attempted theft. In addition, former LVHA Section 8 tenants Lonnie Brown and
 Israel Bonilla Hernandez each pled guilty to attempted theft. Brown and Hernandez admittedly and the
 remaining defendants allegedly failed to report income, accurate household compositions, familial
 relationships, or their criminal histories on LVHA certifications and collectively obtained $368,684 in
 LVHA housing assistance they were not entitled to receive.



     Eleven Cuyahoga Metropolitan Housing Authority (CMHA) Section 8 landlords and 17 Section 8 tenants
 were each charged in Cuyahoga County Court of Common Pleas, Cleveland, OH, with theft and tampering
 with records. The above defendants allegedly failed to report income, assets, unauthorized residents, deceased
 tenants, or the transfer of property ownership on housing certifications and obtained $280,000 in CMHA




             Copyright, 2008. The Plain Dealer - Cleveland, OH. Reprinted with permission.



Chapter 2: HUD’s Public and Indian Housing Programs                                                                39
 housing assistance or housing contract payments they were not entitled to receive. In addition, Section 8
 landlord Tawonna Banks pled guilty to committing forgery and theft, and former Section 8 tenant Elaine
 Pritchett was sentenced to 6 months home confinement and 3 years probation and ordered to pay CMHA
 $39,300 in restitution for her earlier guilty plea to committing theft. Banks fraudulently used an alias to
 obtain a conventional mortgage loan on property chartered to CMHA, leased the property to a CMHA
 Section 8 tenant who was related, failed to report her familial relationship on housing certifications, and
 obtained $25,500 in housing contract payments she was not entitled to receive. Pritchett failed to report her
 ownership interest in her CMHA subsidized property and obtained $39,300 in housing assistance she was not
 entitled to receive. Collectively, the above defendants caused HUD losses of $344,800.



     Fifteen San Bernardino County Housing Authority (SBHA) Housing Choice Voucher program
 participants were charged in San Bernardino County Superior Court, Victorville, CA, with obtaining aid by
 misrepresentation and perjury. The above defendants allegedly failed to report unauthorized residents on
 SBHA certifications and obtained $275,083 in SBHA housing assistance they were not entitled to receive.



      Eleven former Columbus Metropolitan Housing Authority (Columbus) Section 8 tenants were indicted in
 U.S. District Court, Columbus, OH, for making false statements. The above defendants allegedly failed to
 report income, employment, or assets on housing certifications and obtained about $170,000 in Columbus
 housing assistance they were not entitled to receive. In addition, former Section 8 tenants Velvet Wyche, also
 known as Velvet Young, and Vellena Johnson were each indicted for committing theft and tampering with
 records, and former Section 8 tenant Veronica Silverthorn was sentenced to 12 months incarceration and 5
 months probation and ordered to perform 100 hours of community service and pay HUD $19,698 in
 restitution for her earlier guilty plea to theft. Wyche and Johnson allegedly and Silverthorn admittedly failed
 to report income, accurate household compositions, or their ownership interest in their Columbus subsidized
 property and obtained $79,698 in housing assistance they were not entitled to receive. Collectively, the above
 defendants caused HUD losses of $249,698.



     Laurie Harris, Andrea Marks, and Shakisha Tracy, former New York City Housing Authority (NYCHA)
 Section 8 tenants, were each sentenced in U.S. District Court, New York City, NY, for their earlier guilty pleas
 to theft of government funds. Collectively, the above defendants were sentenced to 6 months home
 confinement and 8 years probation and ordered to pay NYCHA $145,871 in restitution. Harris, Marks, and
 Tracy failed to report income on NYCHA certifications and obtained $145,871 in NYCHA housing assistance
 they were not entitled to receive.



     Lizbeth Valerio, a former Chelsea Housing Authority (CHA) public housing tenant, was arrested after her
 indictment in U.S. District Court, Boston, MA, for mail fraud and aggravated identity theft. From 1993
 through 2000, Valerio allegedly used a stolen identity to earn income and obtain assets, failed to report income




40                                                           Chapter 2: HUD’s Public and Indian Housing Programs
 or assets on CHA or other certifications, and obtained $118,117 in HUD-funded CHA housing assistance
 and $148,126 in other housing assistance and benefits she was not entitled to receive.



     Mayra Montano, a former Islip Housing Authority (IHA) Section 8 tenant, was sentenced in Suffolk
 County Superior Court, Central Islip, NY, to 5 years probation and ordered to perform 840 hours of
 community service and pay HUD and others $150,000 in restitution for her earlier guilty plea to grand
 larceny. Montano paid the restitution before sentencing to preclude the seizure of her property in an asset
 forfeiture proceeding. Montano failed to report her ownership interest in her IHA subsidized property and
 obtained $107,000 in IHA housing assistance she was not entitled to receive.



     Peter Ojo, a former housing employee for the City of Hawthorne; Titi Sanusi, Olga Yancor, and Josue
 Verona, former Hawthorne Housing Authority (HHA) Section 8 tenants; and Deborah Dauda, a fabricated
 dependent of Sanusi, were each charged in Los Angeles County Superior Court, Hawthorne, CA, with
 committing grand theft; grand theft of personal property; perjury by declaration; attempting to file false or
 forged instruments; or obtaining money, labor, or property by false pretenses. Ojo allegedly assisted Sanusi in
 fraudulently obtaining HHA housing assistance, Dauda allegedly falsely claimed to be a dependent of Sanusi,
 and Yancor and Verona allegedly failed to report income or assets on HHA certifications. Collectively, the
 above defendants obtained more than $101,797 in HHA housing assistance they were not entitled to receive.



     Quaneshia Holden, a former Housing Authority for the City of Los Angeles (HACLA) Section 8 tenant,
 and Armen and Artashes Gasparian were each charged in Los Angeles County Superior Court, Los Angeles,
 CA, with attempting to file false or forged instruments or conspiracy. In addition, Karine Gasparian and
 Mercy Stringfield, former HACLA Section 8 tenants, were each sentenced for their earlier guilty pleas to
 welfare fraud, perjury, or grand theft. Karine Gasparian was sentenced to 3 years probation and ordered to
 perform 452 hours of community service and pay HACLA $34,342 and other agencies $52,251 in restitution,
 and Stringfield was sentenced to 3 years incarceration and ordered to pay HACLA $55,269 and other victims
 $245,833 in restitution. Holden and Armen and Artashes Gasparian allegedly and Karine Gasparian and
 Stringfield admittedly conspired to hide assets; used fictitious names; or failed to report income, unauthorized
 residents, or their criminal histories on HACLA certifications and collectively obtained $101,011 in HACLA
 housing assistance they were not entitled to receive.



     Ten Scranton Housing Authority (SHA) public housing or Housing Choice Voucher program participants
 were each charged in Lackawanna County District Court, Scranton, PA, with tampering with public records
 and unsworn falsifications. The above defendants allegedly failed to report income on SHA certifications and
 collectively obtained more than $101,000 in SHA housing assistance they were not entitled to receive.




Chapter 2: HUD’s Public and Indian Housing Programs                                                             41
     Five former DuPage Housing Authority (DHA) Section 8 tenants were charged in DuPage County Circuit
 Court, Wheaton, IL, with theft by deception and forgery. The above defendants allegedly failed to report
 income on DHA certifications and collectively obtained about $100,000 in DHA housing assistance they were
 not entitled to receive.



      Cheryl Smith, a former Housing Authority of the County of Santa Clara (HACSC) Section 8 tenant, was
 sentenced in U.S. District Court, San Jose, CA, to 3 years probation and ordered to pay HUD $19,779 in
 restitution for her earlier guilty plea to making false statements to HUD. In addition, former HACSC
 Housing Choice Voucher program participant Laura Rivas was sentenced to 9 months incarceration
 (suspended) and 3 years probation and ordered to pay HACSC $29,127 in restitution for her earlier nolo
 contendere plea to grand theft, and former HACSC landlord Tuan Hoang Tran entered into a Program Fraud
 Civil Remedies Act (PFCRA) settlement and agreed to pay HUD $27,000. Smith failed to report an
 unauthorized resident, Rivas allegedly failed to report an unauthorized resident, and Tran, who previously pled
 nolo contendere to grand theft, allegedly failed to report his residency with the Section 8 tenant in his HACSC
 subsidized unit. Collectively, the above defendants caused HUD losses of $91,068.



      Laurence Reuben and Bedinur Kackarli, Village of Spring Valley (Spring Valley) Section 8 tenants, were
 each arrested and charged in Spring Valley Justice or Rockland County District Courts, SpringValley, NY, with
 grand larceny. Reuben and Kackarli allegedly failed to report income or provided a false Social Security
 number (SSN) on Spring Valley certifications and collectively obtained $76,500 in SpringValley housing
 assistance they were not entitled to receive.



      Kesha Burton, a former Inglewood Housing Authority (IHA) Section 8 tenant, was charged in Los Angeles
 County Superior Court, Inglewood, CA, with committing perjury and grand theft. In addition, Ivette
 Longsworth and Julia Jackson, former IHA Section 8 tenants, were each sentenced for their earlier guilty pleas
 to filing false or forged instruments or grand theft. Longsworth was sentenced to 5 years probation and
 ordered to pay IHA $38,000 in restitution, and Jackson was sentenced to 3 years probation and ordered to pay
 the City of Inglewood $25,986 in restitution. Burton allegedly and Longsworth and Jackson admittedly failed
 to report income on IHA certifications and collectively obtained more than $76,000 in IHA housing
 assistance they were not entitled to receive.



     Gloria Hester and Stephanie Alexander, former Joliet Housing Authority (JHA) Section 8 tenants, were
 each indicted in Will County Circuit Court, Joliet, IL, for committing theft by deception and forgery. Hester
 and Alexander allegedly failed to report income on JHA certifications and collectively obtained $76,000 in
 JHA housing assistance they were not entitled to receive.




42                                                          Chapter 2: HUD’s Public and Indian Housing Programs
     Crystal Sylvia and Carol Rapoza, former Falmouth Housing Authority (FHA) Section 8 tenants, were each
 charged in Falmouth District Court, Falmouth, MA, with larceny over $250 by false pretenses. Sylvia and
 Rapoza allegedly failed to report income or the unauthorized residency of their landlord on FHA certifications
 and collectively obtained $73,272 in FHA housing assistance they were not entitled to receive.



     Audrea Allen, a former Tampa Housing Authority (THA) Section 8 tenant, was charged in U.S. District
 Court, Tampa, FL, with theft of government funds. In addition, Felicia Tucker and Glory Ann Davenport,
 former THA Section 8 tenants, were each sentenced for their earlier guilty pleas to public assistance fraud or
 theft of government funds. Tucker was sentenced to 48 months probation and ordered to pay THA $11,177
 in restitution, and Davenport was sentenced to 18 months incarceration and 36 months supervised probation
 and ordered to pay HUD $45,048 and the Social Security Administration (SSA) $34,032 in restitution. Allen
 allegedly and Tucker and Davenport admittedly failed to report income, nonresidency in their THA subsidized
 property, or an accurate marital status onTHA certifications and collectively obtained $68,728 in THA
 housing assistance they were not entitled to receive.



     Six former Selma Housing Authority (SHA) Section 8 tenants were indicted in
 U.S. District Court, Mobile, AL, for theft of government funds, and two of the above
 defendants, Jackie Eaton and Judice Caver, each pled guilty. The above defendants
 allegedly and Eaton and Caver admittedly failed to report income on SHA
 certifications and collectively obtained about $60,000 in SHA housing assistance they
 were not entitled to receive.



     Beverly Beard, a former Baltimore County Housing Authority (BCHA) Housing
 Choice Voucher program participant, was arrested after her indictment in U.S. District
 Court, Baltimore, MD, for making false statements, committing SSA fraud, and aiding
 and abetting. From 1995 through January 2007, Beard allegedly failed to report
 income; provided a false SSN on BCHA and other certifications; and obtained about
 $180,602 in BCHA, SSA, and other benefits she was not entitled to receive. HUD's
 loss is estimated at $55,000.



     Felicia and Katie McLean, former Frederick City Housing Authority (FCHA)
 Section 8 tenants, were each charged in Frederick County Circuit Court, Frederick,
 MD, with theft by deception and making false statements. In addition, Kiaeisha Charles,
 a former FCHA public housing tenant, was convicted of making false statements and
 was sentenced to 3 years incarceration (suspended) and 3 years probation and ordered
                                                                                           Copyright, 2007. The
                                                                                           Selma Times Journal -
                                                                                            Selma, AL. Reprinted
                                                                                                with permission.




Chapter 2: HUD’s Public and Indian Housing Programs                                                            43
 to pay FCHA $13,782 in restitution. Charles failed and Felicia and Katie McLean allegedly failed to report
 income or their criminal histories on FCHA certifications and collectively obtained $54,917 in FCHA
 housing assistance they were not entitled to receive.



     Esther Arias, a former Revere Housing
 Authority (RHA)and Massachusetts Department
 of Housing and Community Development
 Section 8 tenant; her mother, Ester Percel; and
 Edwin Gonzalez were each sentenced in U.S.
 District Court, Boston, MA, for their earlier
 convictions or guilty pleas to conspiracy, mail and
 bankfraud, possession of stolen mail, theft of
 government property, identity theft, or filing false
 Federal income tax returns. Arias, Percel, and                       Copyright, 2007. Lynn Daily Item - Lynn, MA.
 Gonzalez were collectively sentenced to 138                                              Reprinted with permission.
 months incarceration and 9 years supervised
 probation and ordered to pay the Internal Revenue
 Service (IRS) and the Commonwealth of Massachusetts $204,404 in restitution. The above defendants and
 others conspired and stole U.S. mail, used stolen identifications to establish credit card accounts, fraudulently
 withdrew funds from bank accounts, filed false Federal income tax returns, or obtained $51,916 in HUD-
 funded housing assistance they were not entitled to receive.



     Tomas Ramirez Alcantar, an undocumented immigrant and former Omaha Housing Authority (OHA)
 public housing tenant, was indicted in U.S. District Court, Omaha, NE, for aggravated
 identity theft. From June 2003 to November 2007, Alcantar allegedly used a false
 identity on OHA certifications and obtained about $46,901 in OHA housing assistance
 he was not entitled to receive.



      Jamie Ayers and her husband, Lael Williams, a former Section 8 tenant and landlord
 through Resources for Communities and People Solutions (RCAP), a HUD-funded
 nonprofit housing agency, were each indicted in U.S. District Court, Springfield, MA,
 for conspiracy, making false statements and misrepresentations to obtain Social Security
 benefits, and theft of government funds. In addition, Jasmine Landrin, a former RCAP
 landlord, was sentenced to 2 years probation and ordered to pay RCAP $5,000 in
 restitution for her earlier guilty plea to larceny over $250 and making false claims to a
 government agency. Landrin admittedly and Ayer and Williams allegedly failed to report
 assets or familial relationships on RCAP certifications and collectively obtained $47,666
 in RCAP housing assistance they were not entitled to receive.
                                                                                              Copyright, 2007. The
                                                                                       Republican - Springfield, MA.
                                                                                          Reprinted with permission.




44                                                            Chapter 2: HUD’s Public and Indian Housing Programs
     Carla Warren, a former Maryland Department of Housing and Community Development (Maryland
 HCD) Section 8 tenant, was charged in Maryland District Court, Salisbury, MD, with theft by deception and
 making false statements. In addition, former Maryland HCD Section 8 tenants Samantha Boyd, Sonja Cottman,
 and Tammy Mitchell were each sentenced for their earlier guilty pleas to making false statements or
 committing theft. Boyd was sentenced to 5 years supervised probation and ordered to perform 100 hours of
 community service and pay Maryland HCD $13,085 in restitution, and Cottman and Mitchell were each
 sentenced to 36 months probation and ordered to pay Maryland HCD $12,000 and $3,445 in restitution,
 respectively. Warren allegedly and the remaining defendants admittedly failed to report income on Maryland
 HCD certifications and collectively obtained $42,006 in Maryland HCD housing assistance they were not
 entitled to receive.



      Marie Mosley, a Prince William County Housing and Community Development (Prince William HCD)
 Section 8 tenant, pled guilty in U.S. District Court, Alexandria, VA, to theft of government funds. Mosley
 failed to report income on Prince William HCD certifications and obtained about $41,000 in Prince William
 HCD housing assistance she was not entitled to receive.



     Darren Reagan, a former Dallas Housing Authority (DHA) Section 8 landlord, was indicted in U.S.
 District Court, Dallas, TX, for theft of public monies. Reagan allegedly failed to report his familial
 relationship with the Section 8 tenant in his DHA subsidized property and obtained more than $40,000 in
 DHA housing contract payments he was not entitled to receive.



     Ali Atia Mohammed and Radieh Al-Safi, Michigan State Housing Development Authority (MSHDA)
 Section 8 tenants, were each indicted in U.S. District Court, Detroit, MI, for making false statements and
 operating an unlicensed money transmitting business. Mohammed and Al-Safi allegedly operated an
 unlicensed money transmitting business from their MSHDA subsidized unit and failed to report business
 income or assets on MSHDA, SSA, U.S. Department of Agriculture, or U.S. Department of Health and
 Human Services certifications. HUD's loss is estimated at $40,000.



     Diane Smith, a former Frederick Housing Authority (FHA) Section 8 tenant, was charged in U.S. District
 Court, Baltimore, MD, with theft of government property. Smith allegedly used a fictitious name and
 obtained $38,809 in FHA housing assistance at the same time she received and resided in a New York City
 Housing Authority subsidized housing unit.



      Laketha Lee, a former Sedgwick County Housing Authority (SCHA) Section 8 tenant, was indicted in
 U.S. District Court, Wichita, KS, for making false statements. From June 2001 to July 2006, Lee allegedly
 failed to report income on SCHA certifications and obtained $36,484 in SCHA housing assistance she was not
 entitled to receive.




Chapter 2: HUD’s Public and Indian Housing Programs                                                       45
     Sharlene Zelaya, a Torrance City Housing Authority (TCHA) Housing Choice Voucher program
 participant, was convicted in Los Angeles County Superior Court, Torrance, CA, of grand theft and false
 representations. Zelaya failed to report income on TCHA certifications and obtained $34,387 in TCHA
 housing assistance she was not entitled to receive.



     Joanne and Toni Catalini, former Gloucester Housing Authority (GHA) Section 8 tenants, were each
 charged in Gloucester District Court, Gloucester, MA, with committing larceny over $250 by false pretenses
 and making false claims to a government agency. Joanne and Toni Catalini allegedly failed to report income on
 GHA certifications and obtained about $34,000 in GHA housing assistance they were not entitled to receive.



     Emad Duar, a San Francisco Housing Authority (SFHA) Section 8 tenant, was sentenced in U.S. District
 Court, San Francisco, CA, to 1 year probation for his earlier guilty plea to theft of government funds. Duar
 agreed to pay the Housing Authority of the County of Contra Costa (Contra Costa) $4,593 in restitution and
 repay SFHA $27,367 for housing assistance overpayments. From October 2001 through November 2003,
 Duar failed to report income on SFHA and Contra Costa certifications and obtained about $33,000 in
 housing assistance he was not entitled to receive. In addition, Nasir Javaid, a former SFHA landlord, entered
 into a PFCRA settlement and agreed to pay HUD $10,000. Javaid, previously sentenced for his guilty plea to
 making false statements to HUD, failed to report his familial relationship with the Section 8 tenant is his
 SFHA subsidized property.



     Theresa Parker, a Nassau County Housing Section 8 tenant and Nassau County Department of Social
 Services employee, was arrested and charged in Nassau County District Court, Nassau County, NY, with
 grand larceny. Parker allegedly failed to report an accurate household composition on Nassau County
 certifications and obtained $30,000 in housing assistance she was not entitled to receive.



      Joyce Surley, a former Chesterfield Housing Authority (CHA) Housing Choice Voucher program
 participant, pled guilty in U.S. District Court, Richmond, VA, to theft of government property. Surley failed
 to report spousal residency or income on CHA or SSA certifications and obtained $30,000 in CHA housing
 assistance and $47,000 in SSA benefits she was not entitled to receive.



     Elizabeth Ginez, a former Housing Authority of Snohomish County (HASC) Section 8 tenant, was charged
 in Snohomish County Superior Court, Everett, WA, with committing theft. Ginez allegedly failed to report
 income or assets on HASC certifications, retained rental subsidy payments made to her HASC landlord, and
 obtained $29,885 in HASC housing assistance she was not entitled to receive.




46                                                         Chapter 2: HUD’s Public and Indian Housing Programs
     Sara Calman, a Salem Housing Authority (SHA) Section 8 tenant, was charged in Salem District Court,
 Salem, MA, with larceny over $250. Calman allegedly failed to report income on SHA certifications and
 obtained $28,821 in SHA housing assistance she was not entitled to receive.



     Tuawana Colvin, a former Dayton Metropolitan Housing Authority (DMHA) Section 8 tenant, was charged
 in Montgomery County Circuit Court, Dayton, OH, with committing theft and falsification in committing
 theft. Colvin allegedly failed to report income on DMHA certifications and obtained $28,757 in DMHA
 housing assistance she was not entitled to receive.



      Michele Verrall, a former Butte Housing Authority (BHA) public housing tenant, was sentenced in U.S.
 District Court, Missoula, MT, to 1 year probation and ordered to perform 100 hours of community service
 and pay BHA $28,286 in restitution for her earlier guilty plea to making false statements. From January 1999
 to May 2006, Verrall failed to report income on BHA certifications and obtained $28,286 in BHA housing
 assistance she was not entitled to receive.



     Jalenska Cheatham, a Murfreesboro Housing Authority (MHA) Section 8 tenant, pled guilty in U.S.
 District Court, Nashville, TN, to making false statements. Cheatham failed to report income, assets, or her
 nonresidency in her subsidized unit on MHA certifications and obtained $28,111 in MHA housing assistance
 she was not entitled to receive.



     Jeanne MacDonald, a former Auburn Housing Authority (AHA) Section 8 tenant, was charged in
 Androscoggin County Superior Court, Auburn, ME, with committing theft by deception. From 1998
 through 2003, MacDonald allegedly failed to report an unauthorized resident or the resident's income on
 AHA certifications and obtained $27,605 in AHA housing assistance she was not entitled to receive.



     Stacy Pelham and Damien Byer, former Baltimore Housing Authority (BHA) Housing Choice Voucher
 program participants, were each indicted in Baltimore County Circuit Court, Baltimore, MD, for committing
 theft and conspiracy to commit theft. From October 2005 to February 2008, Pelham and Byer allegedly failed
 to report income, accurate household compositions, or their criminal histories on BHA certifications and
 collectively obtained about $25,502 in BHA housing assistance they were not entitled to receive.



     Luis Zuniga, a Montgomery County Housing Opportunities Commission (Montgomery County) public
 housing tenant, was charged in Montgomery County District Court, Silver Spring, MD, with making false
 statements and committing theft by deception. Zuniga allegedly failed to report an unauthorized resident or




Chapter 2: HUD’s Public and Indian Housing Programs                                                         47
 the resident's income on Montgomery County certifications and obtained $24,338 in Montgomery County
 housing assistance he was not entitled to receive.



     Elisa Love and Jeffrey Douglas, Oklahoma Housing Finance Agency (OHFA) Section 8 tenants, were each
 charged in Jackson County District Court, Altus, OK, or Carter County District Court, Ardmore, OK, with
 obtaining money by false pretenses. Love and Douglas allegedly failed to report income on OHFA
 certifications and collectively obtained $23,430 in OHFA housing assistance they were not entitled to receive.



     Kathy Carpenter, a former Isothermal Planning and Development Commission (Isothermal) Section 8
 tenant, and Doyle Shuford were each indicted in North Carolina Superior Court, McDowell County, NC,
 for fraudulent misrepresentations. Carpenter allegedly failed to report Shuford's residency on Isothermal
 certifications and obtained $23,034 in Isothermal housing assistance she was not entitled to receive.



      Elaine Whitehair, a former Westminster Housing Authority (WHA) Housing Choice Voucher program
 participant, was charged in Carroll County District Court, Westminster, MD, with theft by deception and
 making false statements. Whitehair allegedly failed to report an accurate household composition or the
 criminal histories of unauthorized residents on WHA certifications and obtained $21,600 in WHA housing
 assistance she was not entitled to receive.



      Shareese Holston, a Chicago Housing Authority (CHA) public housing tenant and Cook County Sheriff's
 Department correctional officer, was sentenced in U.S. District Court, Chicago, IL, to 5 years probation and
 ordered to pay HUD $21,177 in restitution for her earlier guilty plea to making false statements. Holston
 failed to report income on CHA certifications and obtained $21,000 in CHA housing assistance she was not
 entitled to receive.



     Brian and Robert Booker, a fictitious Cook County Housing Authority (CCHA) Section 8 landlord and
 tenant, were each sentenced in Cook County Circuit Court, Chicago, IL, for their earlier guilty pleas to theft.
 Brian Booker was sentenced to 20 days incarceration and 2 years probation and ordered to pay CCHA $21,000
 in restitution, and Robert Booker was sentenced to 2 years probation. Brian Booker created a fictional
 landlord to accept CCHA housing contract payments for property he owned and occupied, and Robert Booker
 fraudulently obtained CCHA Section 8 tenant status, signed false CCHA certifications, and enabled Brian
 Booker to obtain $21,000 in CCHA housing contract payments he was not entitled to receive.



     Michael Brown, a Fairfax County Department of Housing and Community Development (Fairfax HCD)
 Housing Choice Voucher program participant, was arrested and charged in Fairfax County Court, Fairfax, VA,
 with obtaining housing assistance under false pretenses. Brown allegedly failed to report an unauthorized




48                                                          Chapter 2: HUD’s Public and Indian Housing Programs
 resident or his income and registered sex offender status on Fairfax HCD certifications and obtained $19,371
 in Fairfax HCD housing assistance he was not entitled to receive.



     Anetra Chisholm, a former Charlotte Housing Authority (CHA) Section 8 tenant, was sentenced in
 Mecklenburg County Superior Court, Charlotte, NC, to 60 months probation and ordered to pay CHA
 $18,718 in restitution for her earlier guilty plea to obtaining property by false pretenses. Chisholm failed to
 report income on CHA certifications and obtained $18,718 in CHA housing assistance she was not entitled to
 receive.



     Ammita Nichols and Nyya Archer, former Durham Housing Authority (DHA) Section 8 tenants, were
 each sentenced in Durham County District Court, Durham, NC, for their earlier guilty pleas to obtaining
 property by false pretenses. Nichols was sentenced to 18 months probation and ordered to pay DHA $11,744
 in restitution, and Archer was sentenced to 45 days incarceration and 24 months probation and ordered to pay
 DHA $5,000 in restitution. Nichols and Archer failed to report income on DHA certifications and
 collectively obtained more than $18,000 in DHA housing assistance they were not entitled to receive.



      John Pecor, a former Barre Housing Authority (BHA) Section 8 tenant, was arrested and indicted in U.S.
 District Court, Burlington, VT, for making false statements. From July 2003 to August 2006, Pecor allegedly
 failed to report income or an accurate household composition on BHA certifications and obtained $18,000 in
 BHA housing assistance he was not entitled to receive.



     Sarah Shepard, a former Housing Authority of the County of Los Angeles (HACOLA) Section 8 tenant,
 was charged in Los Angeles County Superior Court, Los Angeles, CA, with filing a false or forged instrument.
 Shepard allegedly failed to report an unauthorized resident or the resident's registered sex offender status on
 HACOLA certifications and obtained more than $17,767 in HACOLA housing assistance she was not
 entitled to receive.



      Sheridan Murray, an unauthorized tenant in a Housing Authority of Kansas City (HAKC) subsidized unit,
 was indicted in U.S. District Court, Kansas City, KS, for making false statements, conspiracy, theft of
 government funds, and money laundering. Between March 2000 and October 2007, Murray failed to report
 his unauthorized residency or income on HAKC certifications and obtained $16,782 in HAKC housing
 assistance he was not entitled to receive.



     Bonnie Thomas, a former King County Housing Authority (KCHA) Section 8 tenant, and Terrell Dorsey,
 an unauthorized resident with Thomas, were each sentenced in King County Superior Court, Seattle, WA, for
 their earlier guilty pleas to committing theft. Thomas and Dorsey were each fined $500 and sentenced to 2




Chapter 2: HUD’s Public and Indian Housing Programs                                                            49
 and 4 months home confinement with electronic monitoring, respectively. From 2003 to 2005, Thomas
 failed to report Dorsey's residency or income on KCHA certifications and obtained $16,680 in KCHA
 housing assistance she was not entitled to receive.



     Jesenia Sosa, a former City of Buenaventura Housing Authority (CBHA) Housing Choice Voucher
 program participant, pled guilty in Ventura County Superior Court, Ventura, CA, to committing grand theft
 and welfare fraud. Sosa was sentenced to 150 days incarceration and 3 years probation and ordered to pay
 CBHA $16,193 in restitution. From January 2004 to December 2006, Sosa failed to report income or an
 accurate household composition on CBHA certifications and obtained $16,044 in CBHA housing assistance
 she was not entitled to receive.



     Ismael Cruz, a former Rochester Housing Authority (RHA) Section 8 landlord, was sentenced in U.S.
 District Court, Rochester, NY, to 2 years probation, ordered to pay HUD $15,810 in restitution, and fined
 $5,025 for his earlier guilty plea to creating false documents. Cruz fraudulently certified a Section 8 tenant in
 his RHA subsidized property and obtained $15,810 in RHA housing contract payments for property he leased
 to others. Cruz was also suspended from procurement and nonprocurement transactions as a participant or
 principal with HUD and throughout the Executive Branch of the Federal Government pending the outcome
 of criminal proceedings or any related debarment actions.



     Biata Jones and Rickisa Garner, former Sacramento Housing and Redevelopment Agency (SHRA) public
 housing or Housing Choice Voucher program participants, were each charged in Sacramento County Superior
 Court, Sacramento, CA, with committing grand theft or perjury. Jones and Garner allegedly failed to report
 income or nonresidency in their subsidized units on SHRA certifications and collectively obtained $15,620 in
 SHRA housing assistance they were not entitled to receive.



     Erin Morse-Wright, a former North Las Vegas Housing Authority (North LVHA) Section 8 tenant, was
 charged in Clark County Justice Court, Las Vegas, NV, with theft by misrepresentation. From June 2005
 through May 2007, Morse-Wright failed to report income on North LVHA certifications and obtained about
 $15,402 in North LVHA housing assistance she was not entitled to receive.



     Ten Puerto Rico Department of Housing Administration public housing tenants were arrested and
 indicted in U.S. District Court, Trujillo Alto, PR, for conspiracy to possess and possession of firearms in
 relation to narcotics trafficking offenses; conspiracy to possess with intent to distribute controlled substances;
 and possession with intent to distribute heroin, crack cocaine, cocaine, and marijuana. The above defendants
 allegedly conspired with others and participated in known gang activities, including the possession of firearms
 and possession and distribution of heroin, cocaine, crack cocaine, and marijuana. HUD's losses are not yet
 determined.




50                                                            Chapter 2: HUD’s Public and Indian Housing Programs
     Robyn Fain, a Weber County Housing Authority (WCHA) Housing Choice Voucher program
 participant, was arrested and charged in Weber County Court, Ogden, UT, with possession of heroin with the
 intent to distribute. During her arrest, Louie Ash, an alleged unauthorized tenant in Fain's WCHA subsidized
 unit, was arrested for harboring a fugitive. HUD's losses are not yet determined.



      Manuel Rodriguez, a Housing Authority for the City and County of Fresno (Fresno) Section 8 landlord,
 was charged in Fresno County Superior Court, Fresno, CA, with committing arson, insurance fraud, perjury,
 and grand theft. Rodriguez allegedly started a fire in a property he owned and leased to Fresno, fraudulently
 filed an insurance claim for fire damages, and provided false information on Fresno certifications. HUD's
 losses are not yet determined.



     Dora Rodriguez, a Nassau County Housing Authority (NCHA) Section 8 tenant, was arrested and charged
 in Hempstead District Court, Mineola, NY, with soliciting and accepting bribes. Rodriguez allegedly posed as
 a Section 8 broker and solicited and accepted bribes from prospective NCHA Section 8 tenants.

 FedRent Initiative
      Since 1996, HUD OIG has reported material weaknesses in HUD's internal controls over rental housing
 assistance payments. GAO in January 2001 added HUD's rental housing assistance programs to its list of
 federal programs at high risk of fraud, waste and abuse. In late 2000, HUD's Office of Policy Development
 and Research completed a study that found that 60 percent of all subsidy determinations were in error, and
 estimated $2 billion in net annual overpayments and $3.2 billion in gross annual improper payments. Some of
 this was the result of tenants' underreporting of their income, on which subsidies are based. HUD's various
 rental housing assistance programs represent HUD's largest program area, with more than $26 billion in total
 payments in fiscal 2004, serving more than 4.8 million low-income families, administered by more than 4,100
 public housing agencies and 22,000 private housing owners and management agents. In fiscal 2007, HUD
 spent about $27 billion to provide rent and operating subsidies that benefited more than 4 million households.

    In an effort to combat administrative overpayments and tenant fraud, HUD and HUD OIG commenced
 "Operation FedRent," a joint effort to address rental assistance fraud involving Federal employees. Operation
 FedRent compares HUD tenant data to current and retired Federal employee information maintained by the
 U.S. Office of Personnel Management. After the comparison, an income eligibility determination is made,
 and SSNs for family members six years of age and older are verified. If a discrepancy exists, an investigation is
 opened, and appropriate administrative or legal actions are initiated to collect any overpaid housing assistance.
 Results of Operation FedRent during this semiannual reporting period are described below.

     Tanya Blaylock, Cheryl Esters, Bonita Fisher, Michelle Parker, and Mary Beth Sabala, former Dallas
 Housing Authority (DHA) Section 8 tenants and current or former employees of the IRS, the U.S.
 Department of Veterans Affairs (VA), the U.S. Department of Homeland Security, or the U.S. Department of
 Agriculture, were each indicted in U.S. District Court, Dallas, TX, for theft of government funds. The above
 defendants allegedly failed to report income on DHA certifications and collectively obtained $147,344 in
 DHA housing assistance they were not entitled to receive.




Chapter 2: HUD’s Public and Indian Housing Programs                                                              51
      Denise Davis, a former Newark Housing Authority (NHA) Section 8 tenant and legal assistant for the New
 Jersey U.S. Attorney's Office, was indicted in U.S. District Court, Newark, NJ, for theft of public money,
 making false statements to HUD, and criminal forfeiture. From April 1985 to December 2005, Davis
 allegedly failed to report income on NHA certifications and obtained about $130,553 in NHA housing
 assistance she was not entitled to receive.



     Lauton Joshua, a former San Francisco Housing Authority (SFHA) Section 8 tenant and U.S. Army
 employee, and her grandmother, former SFHA landlord Helen Lowe, each pled guilty in U.S. District Court,
 San Francisco, CA, to making false statements. From August 1998 to December 2006, Joshua and Lowe failed
 to report income, assets, or their familial relationship on SFHA certifications and collectively obtained about
 $127,000 in SFHA housing assistance they were not entitled to receive.



      Vera Carter, Vivian Lollis, Birdie Jackson, Wyvonia Ware, and June Bly, Housing Authority of the City of
 Los Angeles (HACLA) Section 8 tenants and employees of the VA or the U.S. Postal Service (USPS), were each
 indicted in U.S. District Court, Los Angeles, CA, for making false statements. The above defendants allegedly
 failed to report income on HACLA certifications and obtained $110,000 in HACLA housing assistance they
 were not entitled to receive.



      Sonya Reshard, a Housing Authority for the County of Los Angeles (HACOLA) Section 8 tenant and
 USPS employee, was indicted in U.S. District Court, Los Angeles, CA, for making false statements. Reshard
 allegedly failed to report income on HACOLA certifications and obtained $76,340 in HACOLA housing
 assistance she was not entitled to receive.



     Gloria Jackson, a Long Beach Housing Authority (LBHA) Section 8 tenant and VA employee, was
 indicted in U.S. District Court, Long Beach, CA, for making false statements. Jackson allegedly failed to
 report income on LBHA certifications and obtained about $75,788 in LBHA housing assistance she was not
 entitled to receive.



     Marjorie Chatman, a former Richmond Housing Authority (RHA) Section 8 tenant and SSA employee,
 was sentenced in U.S. District Court, Oakland, CA, to 6 months home confinement with electronic
 monitoring and 3 years probation and ordered to pay RHA $64,452 in restitution for her previous guilty plea
 to theft of government funds. From April 1997 through November 2006, Chatman failed to report income on
 RHA certifications and obtained $64,452 in RHA housing assistance she was not entitled to receive.



   Antionette Love and Taazamisha Bender, Compton Housing Authority (CHA) Section 8 tenants and
 USPS employees, were each indicted in U.S. District Court, Los Angeles, CA, for making false statements.




52                                                          Chapter 2: HUD’s Public and Indian Housing Programs
 The above defendants allegedly failed to report income on CHA certifications and collectively obtained about
 $61,000 in CHA housing assistance they were not entitled to receive.



     Tracie Coleman, a former Housing Authority of Kansas City (HAKC) Section 8 tenant and IRS employee,
 was charged in Jackson County District Court, Kansas City, MO, with theft by deception. In addition,
 Brenda Houston, a former HAKC Section 8 tenant and IRS employee, pled guilty to theft of public money
 and property. From 2001 through 2005, Coleman allegedly and Houston admittedly failed to report income
 on HAKC certifications and collectively obtained $53,143 in HAKC housing assistance they were not entitled
 to receive.



     Shellette Jackson, a former Washington, DC, Housing Authority (DCHA) Section 8 tenant and U.S.
 Department of State employee, was sentenced in U.S. District Court, Washington, DC, to two concurrent
 terms of 3 years probation and ordered to perform 100 hours of community service and pay DCHA and the
 DC Department of Human Services $50,384 in restitution for her earlier guilty plea to making false claims
 and fraudulently obtaining public assistance. Jackson failed to report income on DCHA and other
 certifications and obtained $22,705 in DCHA housing assistance and $27,679 in Medicaid, food stamps, and
 other benefits she was not entitled to receive.



      Lavon Wright, a San Bernardino County Housing Authority (SBCHA) Section 8 tenant and VA
 employee, was indicted in U.S. District Court, San Bernardino, CA, for making false statements. Wright
 allegedly failed to report income on SBCHA certifications and obtained $22,575 in SBCHA housing
 assistance he was not entitled to receive.



     Debra Freeman, a former East Chicago Housing Authority (East CHA) public housing tenant and USPS
 employee, pled guilty in U.S. District Court, Hammond, IN, to theft of government funds. Freeman failed to
 report income on East CHA certifications and obtained about $20,675 in East CHA housing assistance she
 was not entitled to receive.



     Sahia Seaman, a former Charlotte Housing Authority (CHA) Section 8 tenant and USPS employee, pled
 guilty in U.S. District Court, Charlotte, NC, to theft of government funds. Seaman failed to report income
 on CHA certifications and obtained $17,572 in CHA housing assistance she was not entitled to receive.



     Peter Ruach, a former Portland Housing Authority (PHA) public housing tenant and USPS employee, was
 indicted in U.S. District Court, Portland, ME, for making false statements and theft of government property.
 From November 2004 through September 2005, Ruach allegedly failed to report income on PHA and other




Chapter 2: HUD’s Public and Indian Housing Programs                                                         53
 certifications and obtained $4,686 in PHA housing assistance and $3,242 in welfare and food stamp benefits
 he was not entitled to receive.



      Willie Ann Ford, a Texoma Council of Government Housing Authority (Texoma) Section 8 tenant and VA
 employee, was indicted in U.S. District Court, Bonham, TX, for making a false statement. Ford allegedly
 failed to report income on Texoma housing certifications and obtained $2,154 in Texoma housing assistance
 she was not entitled to receive.

 Fugitive Felon Initiatives
     Enacted into law in 1996, Section 903 of Public Law 104-193, "Elimination of Housing Assistance with
 Respect to Fugitive Felons and Probation and Parole Violators," allows for the termination of housing subsidies
 for public or assisted housing tenants who flee to avoid prosecution, avoid confinement after conviction of a
 felony, or violate conditions of their parole or probation. The law also authorizes Federal, State, and local law
 enforcement agencies to exchange information and perform data matches.

      OIG supports a Fugitive Felon Initiative (FFI) by matching HUD housing assistance information with
 crime data from the National Crime Information Center, U.S. Marshals Service (USMS), and other
 participating law enforcement data banks. In addition, OIG special agents actively participate in the USMS
 "Operation FALCON," a joint Federal, State, city, and county law enforcement effort to locate and apprehend
 fugitive felons wanted for violent crimes. Conducted in most major cities throughout the United States and its
 territories, Operation FALCON places a strong emphasis on apprehending fugitive felons involved in gangs,
 homicides, sexual assaults, or crimes against the elderly and children. Since the inception of OIG's FFI,
 hundreds of cases have been opened and closed, resulting in more than 8,221 arrests. OIG strongly supports
 Operation FALCON in an effort to make HUD public and assisted housing a safe place for families to live.
 FFI results during this semiannual reporting period are described below.

     Stanford Griswold pled guilty in U.S. District Court, Kansas City, MO, to assaulting a Federal officer and
 unlawful transportation of a firearm. Griswold assaulted a HUD OIG special agent during Operation
 FALCON VI, a USMS action initiated to identify, locate, and apprehend violent fugitives, particularly those
 charged with committing sex crimes.



     Jimmy Morris, George Snipes, and Antonio Belmont, Atlanta Housing Authority public housing tenants,
 were each indicted in Fulton County Superior Court, Atlanta, GA, for failing to accurately report as sex
 offenders with the Fulton County Sheriff's Office.



    Felicia Clark, Unique Tolliver, and Isharia Holden, Section 8 tenants at Holly Park Apartments, a HUD-
 funded multifamily housing development, were each arrested in New Orleans, LA, on outstanding State
 warrants for battery, possession of narcotics, or other violations.




54                                                           Chapter 2: HUD’s Public and Indian Housing Programs
     Simona Chavez, a Salt Lake City Housing Authority Housing Choice Voucher program participant, was
 arrested on an outstanding warrant issued by Utah State Court, Salt Lake City, UT, charging her with
 obstruction of justice.



     Paul Wood, a West Valley City Housing Authority Housing Choice Voucher program participant, was
 arrested on an outstanding warrant issued by Washington County District Court, Salt Lake City,UT, charging
 him with criminal nonsupport.

 Other Fraud/Crimes
     William Ottaviano, an appraiser for Equity Appraisals; Hopeton Bradley, owner of Renhops Management;
 Frank Corallo, a loan processor for U.S. Mortgage, Inc.; and Clarbel Morrobel each pled guilty in U.S. District
 Court, Newark, NJ, to wire fraud. In addition, Michael Eliasof, owner of Paterson Management, LLC, and
 MGE Investments, and Melanie Gebbia each pled guilty to filing a false Federal income tax return or
 conspiracy to commit money laundering. The above defendants and others provided false appraisals or loan
 documents used by unqualified investors to obtain conventional mortgages, placed the fraudulently
 mortgaged properties into the Paterson Housing Authority (PHA) or the City of Paterson (Paterson) Section 8
 programs, and obtained PHA or Paterson housing contract payments they were not entitled to receive. Gebbia
 also failed to report income she received for preparing false mortgage documents on her Federal income tax
 return.



     Rex Wetzel, a Blackfeet Housing Authority (BHA) homeownership program participant, was sentenced in
 U.S. District Court, Great Falls, MT, to 10 months incarceration and 36 months probation and ordered to pay
 BHA $12,000 in restitution for his earlier guilty plea to theft. Wetzel obtained $12,000 from BHA for
 downpayment assistance to purchase a home, but instead of purchasing the property, Wetzel forged the seller's
 signature, negotiated the check, and used BHA funds for personal expenditures.



     Douglas and Cassandra Williams, doing business as Wet National Relocation Services, were each sentenced
 in Clark County Justice Court, Las Vegas, NV, for their earlier guilty pleas to conspiracy to commit theft or
 theft by misrepresentation. Douglas Williams was sentenced to 12 months incarceration (suspended) and 36
 months probation and ordered to pay the victims $14,507 in restitution. Cassandra Williams was sentenced to
 48 months incarceration (suspended), 10 days in the Clark County Detention Center, and 36 months
 probation and ordered to perform community service and pay the above restitution jointly with Douglas
 Williams. From July 2006 through January 2007, Douglas and Cassandra Williams created fictitious Section
 8 vouchers and sold them to numerous victims, and Douglas Williams, a former Las Vegas Housing Authority
 inspector, conducted unauthorized housing inspections to further their scheme.




Chapter 2: HUD’s Public and Indian Housing Programs                                                            55
     David and Anna Delle Donna, the mayor of Guttenberg, NJ, a Guttenberg Planning Board member, and
 Guttenberg Housing Authority (GHA) Section 8 landlords, were each indicted in U.S. District Court,
 Newark, NJ, for accepting payoffs and filing false Federal income tax returns. David Donna allegedly accepted
 payoffs as campaign contributions, and David and Anna Donna allegedly failed to obtain conflict-of-interest
 waivers from HUD or report $25,000 in GHA housing contract payments on their 2004 and 2005 Federal
 income tax returns.

 Systemic Implications Report
 Mandating Social Security Numbers and Asset Verifications for Public Housing Tenants
 and Landlords

     An analysis of subsidized housing investigations conducted in the HUD OIG Chicago region disclosed
 numerous flaws in the housing authority SSN and asset verification process. The inaccuracies found included
 tenants' ownership of unreported real estate, fictitious landlords, and landlords who provided false
 identification information. As a result, HUD OIG's Office of Investigation submitted a systemic implications
 report to HUD public and Indian housing staff and recommended that HUD mandate housing authorities to
 conduct comprehensive SSN and asset verifications for both tenants and landlords.

     In response, HUD incorporated the above recommendation into a proposed rule, "Refinement of Income
 and Rent," which is expected to be published by September 30, 2008. This rule will require all current housing
 recipients to obtain a valid SSN within one year of final issuance. In addition, the HUD proposed rule, "Assets
 26 - 84," prohibits tenants from any ownership interest in real property and requires landlords to provide proof
 of property ownership.




56                                                           Chapter 2: HUD’s Public and Indian Housing Programs
                     Chapter 3
                HUD’s Multifamily
                Housing Programs




Acronyms List
     In addition to multifamily housing developments with U.S. Department of Housing and Urban
 Development (HUD)-held or HUD-insured mortgages, the Department subsidizes rents for low-income
 households, finances the construction or rehabilitation of rental housing, and provides support services for the
 elderly and handicapped.

 Audits
                     Strategic Initiative 2: Contribute to the reduction of erroneous
                                        payments in rental assistance
         Key program results                 Questioned costs                           Funds put to better use
      Audit         8 audits                    $10 million                                     $729,000

       Our          Page 59           - Project-based Section 8 contract administrators
      focus         Page 59           - Owner and management agent operations



                    Chart 3.1: Percentage of OIG multifamily housing audit reports
                                      during this reporting period

                                                                                                     Region 1
                                                                                                      37%
                                         Region 7-8                     Region 5
                                                                                          Region 2
                                            0%                            0%
                                                                                           13%




                                                                                                           Region 3
                                                                                                            13%
     Region 9-10
        24%



                                                                                                Region 4
                                       Region 6                                                   0%
                                        13%



                                                                               Region 11
                                                                       (Disaster Relief Oversight)
                                                                                %(N/A)*
 * This does not include hurricane relief audits. See chapter 5 for these reviews.




58                                                                           Chapter 3: HUD’s Multifamily Housing Programs
 Project-based Section 8 contract administrators
      HUD’s Office of Inspector General (OIG) audited the Los Angeles, CA, Multifamily Hub's monitoring of
 its annual contributions contract with its performance-based contract administrator, Los Angeles LOMOD, to
 determine whether HUD appropriately monitored LOMOD with respect to the annual contributions
 contract.

     The Los Angeles Multifamily Hub did not properly monitor its contractor. It did not follow up on the
 findings in its 2004 annual compliance review of LOMOD in a timely manner, made inappropriate decisions
 regarding the assessment and reversal of disincentives, inappropriately moved LOMOD to the "full
 implementation" stage of its contract for two required performance standards without properly supporting the
 decision, improperly allowed retroactive rent increases, and did not monitor LOMOD's activities with regard
 to the performance standard relating to review of monthly vouchers.

     OIG recommended that HUD (1) not reimburse LOMOD for the more than $105,000 in reduction in
 incentive fees for those findings in the 2004 compliance review that were improperly reversed, (2) assess more
 than $1.3 million in disincentives against LOMOD for incorrect work products, (3) monitor LOMOD's rent
 adjustment and contract renewal transactions under standards 3 and 14 until HUD can ensure that LOMOD
 has met the acceptable quality level for three consecutive months, and (4) begin monitoring LOMOD under
 standard 6 relating to the review, authorization, and payment of monthly vouchers to owners so that it does
 not put $13.6 million at risk each month. (Audit Report: 2008-LA-0001)

 Owner and Management Agent Operations
      HUD OIG audited Century Mission Oaks in San Antonio, TX, to determine whether the project's
 owner-manager, Century Mission Oaks GEAC, LLC, complied with HUD's regulatory agreement during
 fiscal years 2005 and 2006.

     The owner did not support or document that project expenditures were reasonable and necessary. As a
 result, the owner could not support more than $2.9 million in expenses, incurred nearly $66,000 in ineligible
 expenses, and improperly transferred $197,000 in project funds to an affiliate. Therefore, fewer project funds
 were available for mortgage payments, and the risk to the Federal Housing Administration (FHA) insurance
 fund was unnecessarily increased. Further, the owner did not ensure that the project's books and records were
 properly maintained. Financial records were missing; general ledger entries were incomplete, misclassified,
 and/or unsupported; revenues and payroll expenses were overstated; and records were conflicting. As a result,
 HUD and other stakeholders could not accurately assess the financial condition of the project.

      OIG recommended that HUD require the owner to (1) provide support for or make necessary adjustments
 to its financial records to remove $2.7 million in unsupported expenses and expense accruals recorded in its
 books, (2) provide support for or reimburse almost $273,000 in unsupported costs, (3) deposit almost $263,000
 for the ineligible disbursements and unauthorized transfers into the project's reserve for replacement account,
 (4) correct and accurately maintain its accounting records, and (5) implement procedures and controls to
 ensure that future disbursements for project expenses comply with requirements. OIG also recommended that
 HUD pursue double damages remedies against the responsible parties for the ineligible disbursements and




Chapter 3: HUD’s Multifamily Housing Programs                                                                  59
 unauthorized transfers and pursue civil money penalties and administrative sanctions, as appropriate, against
 the owner for its part in the regulatory violations identified. (Audit Report: 2008-FW-1008)



    HUD OIG audited Vesta Windham Heights, LLC, in Windham, CT, to determine whether the owners
 and/or management agent used project funds in accordance with the regulatory agreement.

     The owners did not use project funds in accordance with the regulatory agreement. OIG identified
 questioned costs and opportunities for funds to be put to better use totaling more than $2.8 million.
 Specifically, the owners and management agent (1) used more than $171,000 for services that were
 unnecessary and unreasonable to operate and maintain the project when the project was in a non-surplus-cash
 position; (2) included unreasonable and unnecessary costs in their cost certification, causing HUD to overinsure
 the mortgage by more than $598,000; and (3) repaid more than $800,000 in advances when the project was in
 a non-surplus-cash position.

     OIG recommended that HUD require the owners to (1) repay the project for the ineligible use of
 operating funds for unreasonable and unnecessary costs charged to the project, (2) make a principal payment
 or establish an escrow with the lender from nonproject funds to pay down the amount of overinsurance, and
 (3) repay the project for ineligible repayments to its related companies. Further, OIG recommended that
 HUD pursue sanctions as appropriate against the responsible parties for the unreasonable disbursements
 identified. (Audit Report: 2008-BO-1005)



     HUD OIG audited Richard A. Hutchens and Associates' (agent) management of the financial operations
 of Cayuga Village and Touraine Apartments in Buffalo, NY, to determine whether the agent used project funds
 in accordance with its regulatory agreement and HUD requirements.

     The agent did not use project funds in accordance with its regulatory agreement and HUD requirements.
 Specifically, the agent (1) did not solicit competitive bids or maintain adequate documentation to support
 nearly $988,000 in repair and maintenance costs paid to an identity-of-interest company, (2) made more than
 $505,000 in unauthorized loans and withdrawals of residual receipts, (3) improperly disbursed nearly $143,000
 in project operating funds to pay expenses that were questionable, and (4) did not make a required payment of
 nearly $8,000 to the residual receipts account or a required equity payment in a timely manner.

     OIG recommended that HUD instruct the agent to develop procedures to ensure compliance with all
 terms of its regulatory agreement and require the agent to (1) reimburse the projects for the ineligible costs
 associated with unauthorized loans and withdrawals from residual receipts, an improper salary advance, and
 excessive fees and (2) submit supporting documentation to justify all unsupported costs and reimburse the
 projects from nonproject funds for all amounts determined to be ineligible. (AuditReport: 2008-NY-1002)



    HUD OIG audited Vesta Mohegan, LLC, Norwich, CT, to determine whether the owners used project
 funds in accordance with their regulatory agreement with HUD.




60                                                                Chapter 3: HUD’s Multifamily Housing Programs
     The owners did not use project funds in accordance with the regulatory agreement. OIG identified
 questioned costs and opportunities for funds to be put to better use totaling nearly $1.2 million. Specifically,
 the owners (1) used more than $58,000 in project funds for unnecessary and unreasonable operating costs;
 (2) included more than $593,000 in unreasonable relocation costs and other questionable costs in the cost
 certification, causing the HUD-insured mortgage to be overinsured by more than $341,000; and (3) repaid
 nearly $201,000 in member advances when the project was in a non-surplus-cash position.

     OIG recommended that HUD require the owners to (1) repay the project for the questioned operating
 costs from nonproject funds, (2) make a principal payment or establish an escrow with the lender from nonproject
 funds to pay down the amount of overinsurance, and (3) reimburse the project from nonproject fund sources
 for the ineligible member advance repayments and remove the unreasonable member advances accrued from
 the project's accounting records. (Audit Report: 2008-BO-1004)



     HUD OIG audited Elders Place, Incorporated, Philadelphia, PA, to determine whether it administered
 project funds in accordance with HUD requirements.

    Elders Place, Inc., did not administer project operating funds in accordance with HUD requirements. It
 made nearly $310,000 in unsupported disbursements and more than $73,000 in ineligible disbursements
 and, thereby, did not sufficiently protect HUD's and the residents' interests in the project.

     OIG recommended that HUD direct Elders Place, Inc., to (1) provide documentation to support the
 unsupported costs or reimburse the project for any unsupported costs from nonfederal funds; (2) repay the
 project from nonfederal funds for the ineligible costs identified by the audit; and (3) develop and implement
 controls to ensure that project operating funds are administered in compliance with applicable HUD and
 Federal regulations, thereby preventing more than $13,000 from being disbursed improperly over the next
 year. OIG further recommended that HUD impose administrative sanctions against Greater Germantown
 Housing Development Corporation, the project's sponsor, for violations of the regulatory agreement. (Audit
 Report: 2008-PH-1005)



    HUD OIG reviewed whether the Phoenix Apartments multifamily project in Concord, CA, used its project
 funds in accordance with HUD rules and regulations in response to a Hotline complaint.

     The project did not use project funds in accordance with the requirements of its regulatory agreement and
 applicable HUD rules and regulations. Specifically, during fiscal years 2004 through 2006 the project used
 nearly $90,000 of its funds for unnecessary purposes and did not support the necessity and/or reasonableness
 of more than $118,000 spent for the project. OIG also found unsafe conditions, some of which the project's
 management ignored for more than two years.

     OIG recommended that HUD require the project's owner, Phoenix Apartments, Inc., to (1) repay the
 project nearly $90,000 from nonproject funds for the unnecessary expenditures and provide support for the
 reasonableness of the funds paid for the unsupported services and goods or repay the project for the
 unsupported amount from nonproject funds; (2) immediately obtain the services of a HUD-approved
 professional management agent to manage the project and implement policies and procedures for ensuring




Chapter 3: HUD’s Multifamily Housing Programs                                                                   61
 that project funds are spent only for reasonable and necessary purposes; and (3) immediately procure repair
 services for all of the unsafe conditions and implement adequate policies and procedures for periodic
 inspection, reporting, repair, and followup of any conditions that may pose a hazard to the project's residents
 or visitors. (Audit Report: 2008-LA-1006)




62                                                                Chapter 3: HUD’s Multifamily Housing Programs
 Investigation
     Some investigations discussed in this report were generated from leads provided by HUD multifamily
 housing program staff or conducted jointly with Federal, State, and local law enforcement agencies. The
 results of various significant investigations are described below.


                     Strategic Initiative 2: Contribute to the reduction of erroneous
                                        payments in rental assistance

     Key program               Cases                        $                     Convictions/pleas/             Admin/civil
        results                closed                   recovered                     pretrials                    actions
    Investigations                47                  $1 million                         36                          50
                              Page 64          - Theft/embezzlement
          Our
                              Page 65          - Rental assistance fraud
         focus
                              Page 67          - Other fraud/crimes



               Chart 3.2: Percentage of OIG multifamily housing closed investigation
                                 cases during this reporting period

                                                                                                      Region 1
                                                                                                        9%
                                           Region 7-8                    Region 5
                                             11%                                         Region 2
                                                                          13%             20%




                                                                                                        Region 3
    Region 9-10                                                                                          16%
        7%



                                                                                              Region 4
                                          Region 6                                              2%
                                           22%



                                                                                Region 11
                                                                        (Disaster Relief Oversight)
                                                                                 %(N/A)*

 * This does not include hurricane relief cases. See chapter 5 for these cases.



Chapter 3: HUD’s Multifamily Housing Programs                                                                                  63
 Theft/Embezzlement
     Martin Shulman, owner of S.G.B. Management, Inc. (SGB), a management agent for six HUD-insured
 and subsidized multifamily properties; his wife, Gail Shulman; and SGB office manager Keyetta Williams were
 each indicted in U.S. District Court, Cleveland, OH, for equity skimming, theft, money laundering,
 obstructing a Federal audit, and mail and wire fraud. The above defendants allegedly claimed nonexistent
 tenants and fraudulently obtained more than $1.4 million in HUD housing assistance payments, used about
 $1 million in property equity for their personal benefit, and caused HUD losses of more than $5 million after
 two FHA-insured mortgages defaulted. Total HUD losses are estimated at $7.4 million.



     Frank DeSantis, president of the Community Partnership Development Corporation (Community), a
 HUD-funded nonprofit administering a $16.9 million Low Income Housing Preservation and Resident
 Homeownership Act grant, pled guilty in U.S. District Court, Los Angeles, CA, to obstructing a Federal audit.
 DeSantis provided fraudulent time sheets and fictitious certifications in an attempt to support nearly
 $3.2 million in overstated and unapproved construction fees paid to Community employees during the
 rehabilitation of three multifamily housing developments.



     Wynee Joyner, a principal of the National Housing Group, Inc. (NHG), a HUD contract oroverseeing the
 management and maintenance of HUD-owned multifamily housing developments, was arrested and charged
 in U.S. District Court, New York City, NY, with conspiracy and mail fraud. Joyner allegedly instructed NHG
 employees to submit about $500,000 in false claims to HUD in an effort to circumvent NHG contract terms
 and obtain HUD reimbursements before paying third-party vendors.



     Iris Baez, the former board president for Co-Op City, a HUD-funded 15,372 unit multifamily housing
 development, and Nickhoulas Vitale, also known as Nicky Vitale, a former Co-Op City painter, each pled
 guilty in U.S. District Court, New York City, NY, to bribery. Baez was sentenced to 6 months incarceration




        Copyright, 2007. The Daily News - New York City, NY. Reprinted with permission.




64                                                                  Chapter 3: HUD’s Multifamily Housing Programs
 and 1 year supervised release and ordered to forfeit $10,000. Baez obtained $10,000 in kickbacks after she and
 others awarded a $3.5 million painting contract to Vitale’s current employer, Stadium Interior Painting.



     Kimberly Campbell, a former administrative assistant for Kenneth Court Apartments, a HUD-funded
 multifamily housing development, and Antwan Busby, Ottis Levine, and Lionell Bradley were each charged in
 Thirteenth Judicial Circuit Court, Tampa, FL, with conspiracy to commit armed robbery, committing a
 robbery with a firearm, armed burglary of a dwelling with a firearm, aggravated battery with a deadly weapon,
 grand theft, or possession of a firearm during the commission of a felony. The above defendants allegedly
 conspired and stole about $3,000 in utility assistance payments from Kenneth Court Apartments.



     Joseph Driscoll, a former maintenance director for ARCO Management Company, a former HUD
 contractor overseeing the management and maintenance of HUD-owned multifamily housing developments,
 pled guilty in U.S. District Court, New York City, NY, to committing mail fraud. Driscoll and others
 submitted fake bids to facilitate a HUD-funded window replacement contract award to a specific company.

 Rental Assistance Fraud
      Six former Section 8 tenants at Mandela Homes Apartments, a HUD-funded multifamily housing
 development, were each charged in U.S. District or Boston Municipal Courts, Boston, MA, or West Roxbury
 District Court, Jamaica Plain, MA, with making false statements, theft of public money, larceny over $250 by
 a single scheme, misuse of a Social Security number, or identity theft. The above defendants allegedly failed to
 report income, assets, or accurate identification information on housing certifications and collectively
 obtained $252,126 in housing assistance they were not entitled to receive.



    Hong Le, a Section 8 tenant at El Rancho Verde Apartments, a HUD-funded multifamily housing
 development, and An Quang Nguyen, an unauthorized resident with Le, each pled nolo contendere in Santa
 Clara County Superior Court, San Jose, CA, to grand theft. Nguyen was sentenced to 6 months incarceration,
 ordered to pay HUD $80,356 in restitution, and fined $450. Le allegedly failed to report Nguyen's residency
 on housing certifications and obtained $80,356 in housing assistance she was not entitled to receive.



      Five Section 8 tenants at Coral Gardens Apartments (Coral Gardens), a HUD-funded multifamily
 housing development in Homestead, FL, were arrested on probable cause for committing public assistance
 fraud, possession of marijuana with the intent to distribute, or outstanding warrants. The above defendants
 allegedly failed to report income or unauthorized residents on housing certifications and obtained about
 $49,583 in housing assistance they were not entitled to receive. In addition, MariaVazquez, a former Coral
 Gardens Section 8 tenant, was sentenced to 2 years supervised probation, ordered to pay HUD $10,386 in
 restitution, and fined $498 for her previous conviction of public assistance fraud and grand theft, and Ernesto




Chapter 3: HUD’s Multifamily Housing Programs                                                                   65
 Rodriguez, an uncooperative witness in the Vazquez trial, was arrested on an outstanding warrant for failure to
 appear, trespassing, and disorderly conduct. Collectively, the above defendants caused HUD losses of $59,979.



     Jeri Hill, a former Section 8 tenant at Glenridge Cooperative Apartments, a HUD-funded multifamily
 housing development, was indicted in U.S. District Court, San Francisco, CA, for making false statements to
 HUD. From January 2003 through October 2007, Hill allegedly failed to report income on housing
 certifications and obtained about $56,000 in housing assistance she was not entitled to receive.



     Kathy Lovett, a former Section 8 tenant at Woodridge Homes Apartments, a HUD-funded multifamily
 housing development, was charged in Lawrence District Court, Lawrence, MA, with larceny over $250. From
 January 1999 to November 2006, Lovett allegedly failed to report income on housing certifications and
 obtained $47,600 in housing assistance she was not entitled to receive.



    Eddie Speller, a New York City Department of Housing and Preservation Development Section 8 tenant
 and New York City police officer, pled guilty in U.S. District Court, New York City, NY, to theft of
 government funds. Speller failed to report income on housing certifications and obtained about $30,000 in
 housing assistance he was not entitled to receive.



     Nikita Nelson-Smith, a former Section 8 tenant at Watts Arms I, a HUD-funded multifamily housing
 development, was charged in Los Angeles County Superior Court, Los Angeles, CA, with filing a false or
 forged instrument. Nelson-Smith allegedly failed to report assets or her nonresidency in her subsidized unit on
 housing certifications and obtained more than $17,946 in housing assistance she was not entitled to receive.



     Ellen Yoder, a former Section 8 tenant at Hillside Village Apartments, a HUD-funded multifamily housing
 development, was sentenced in U.S. District Court, Williamsport, PA, to time served and 12 months
 supervised release and ordered to pay HUD $8,090 in restitution for her earlier guilty plea to making false
 statements to HUD. Yoder concealed her criminal history on housing certifications and obtained $8,090 in
 housing assistance she was not entitled to receive.



    Rachel Klotz, a manager for Park Seven Apartments (Park Seven), a HUD-funded multifamily housing
 development, was indicted in Johnson County District Court, Olathe, KS, for making false writings. In
 addition, Gayle Rapp, a former Park Seven Section 8 tenant, entered into a pretrial diversion agreement and
 was sentenced to 12 months probation, was ordered to pay court costs of $323, and agreed to pay Park Seven
 $1,206 in restitution. Klotz allegedly failed to report tenant income on HUD certifications in an attempt to




66                                                                Chapter 3: HUD’s Multifamily Housing Programs
 allow tenants to maintain their housing assistance eligibility, and Rapp admittedly failed to report income on
 housing certifications and obtained $1,206 in housing assistance she was not entitled to receive. Collective
 HUD losses are not yet determined.

 Other Fraud/Crimes
     Patrick Crislip, a former HUD multifamily construction analyst, was sentenced in U.S. District Court,
 Kansas City, KS, to 5 months incarceration, 5 months home detention, and 2 years probation and ordered to
 pay HUD $30,000 in restitution for his earlier guilty plea to conspiracy to conceal a conflict of interest.
 Crislip entered into a renovation and cleaning contract and obtained $49,900 from Alpha Property
 Management, Inc., a HUD multifamily management agent for Sunflower Park and Silver City Apartments, at
 the same time he conducted official HUD rehabilitation inspections at the multifamily housing developments
 identified above.




Chapter 3: HUD’s Multifamily Housing Programs                                                                 67
        Chapter 4
    HUD’s Community
Planning and Development
        Programs
     The Office of Community Planning and Development (CPD) seeks to develop viable communities by
 promoting integrated approaches that provide decent housing, suitable living environments, and expanded
 economic opportunities for low- and moderate-income persons. The primary means toward this end is the
 development of partnerships among all levels of government and the private sector. In addition to the audits
 and investigations described in this chapter, the U.S. Department of Housing and Urban Development, Office
 of Inspector General (HUD OIG), has conducted numerous outreach efforts (see chapter 7, page 121).


 Audits
                   Strategic Initiative 3: Contribute to the strengthening of communities
         Key program results                 Questioned costs                           Funds put to better use
      Audit          18 audits                 $62.7 million                                  $3.4 million
                      Page 71         - Community Development Block Grant programs
       Our
      focus           Page 74         - HOME Investment Partnerships program
                      Page 76         - Supportive Housing Program grants



                   Chart 4.1: Percentage of OIG community planning and development
                                 audit reports during this reporting period

                                                                                                     Region 1
                                                                                                      11%
                                         Region 7-8                     Region 5
                                                                                          Region 2
                                            0%                            0%
                                                                                           27%




                                                                                                           Region 3
                                                                                                             6%
     Region 9-10
        17%



                                                                                                Region 4
                                       Region 6                                                  28%
                                        11%



                                                                               Region 11
                                                                       (Disaster Relief Oversight)
                                                                                %(N/A)*
 * This does not include hurricane relief audits. See chapter 5 for these reviews.



70                                                      Chapter 4: HUD’s Community Planning and Development Programs
      OIG audited the Community Development Block Grant (CDBG) program, the HOME Investment
 Partnerships Program (HOME), and the Supportive Housing Program grants. While OIG's objectives varied
 by auditee, the majority of the reviews were to determine whether the grant funds were administered for
 eligible activities and that the auditee met program objectives. The following section illustrates the audits
 conducted in the community planning and development area.

 Community Development Block Grant Programs
    HUD OIG, Washington, DC, audited HUD's administration of the CDBG program and concluded that
 HUD's performance measurements did not demonstrate how grantees were increasing neighborhood health
 and attaining the primary CDBG objective of developing viable urban communities. In addition, while HUD's
 monitoring of CDBG entitlement communities identified numerous grantee deficiencies and offered
 meaningful recommendations for corrective actions, grantee performance had often not improved over time.

     OIG recommended that HUD implement a system to measure the impact of its monitoring efforts for
 improving grantee performance and effectiveness. Specifically, OIG recommended that HUD (1) design a
 performance measurement system that allows it to report meaningful outcomes and not just outputs,
 (2) design a ranking and rating system for individual grantees so that HUD and its stakeholders can identify
 and address both good and poor performance, (3) establish controls to ensure that monitoring efforts
 emphasize high-impact activities so that recommendations can focus on promoting improvements in program
 participants' performance, and (4) assess the impact of its monitoring on performance and increase incentives
 to improve grantee performance and compliance by using all of its available sanction authority. (Audit Report:
 2008-NY-0001)



     HUD OIG audited the CDBG program administered by the City of Ft. Lauderdale, FL, and found that
 the City did not provide or maintain adequate supporting documentation to demonstrate that CDBG
 activities met national objectives. As a result, it had no assurance that more than $5 million in expended
 CDBG funds achieved the intended national objective or met program requirements. The City's CDBG
 financial information did not agree with information reported to HUD. The City also failed to report
 program income to HUD for one project and improperly allocated 100 percent of its vehicle expenditures to
 the program without adequate supporting documentation demonstrating that the expenses were accurate and
 program related.

     OIG recommended that HUD require the City to (1) provide documentation to support that program
 requirements were followed and national objectives were met or reimburse its program $2.3 million from
 nonfederal funds; (2) provide an action plan for development of land parcels to include how national objec-
 tives will be achieved and, if not developed within 90 days, reimburse its program the greater of $2.6 million or
 the fair market value of the property from nonfederal funds; (3) maintain documentation to support that
 program requirements were followed and national objectives were met to allow more than $722,000 in unused
 funds to be put to better use by ensuring that the City effectively uses these funds for the intended clientele; (4)
 update, implement, and enforce written monitoring policies and procedures to ensure effective performance
 and compliance with Federal regulations for meeting CDBG national objectives; (5) reconcile its Financial
 Accounting Management Information System with the HUD Integrated Disbursement and Information




Chapter 4: HUD’s Community Planning and Development Programs                                                        71
 System and notify HUD of the adjustments; (6) report rental and interest income for one project as program
 income; and (7) reimburse the program nearly $99,000 from nonfederal funds, since there is no assurance that
 vehicle use was program related. (Audit Report: 2008-AT-1005)



     HUD OIG audited the City of Chicopee, MA's administration of its CDBG program and found that the
 City violated conflict-of-interest regulations, resulting in ineligible projects being funded and the improper use
 of more than $1.1 million in CDBG funds. The City also did not properly support that more than $4.3
 million in CDBG-funded public facilities and improvement activities met the low-to-moderate-income
 benefit requirements and did not adequately monitor or provide oversight of CDBG funds provided for public
 works and facilities activities.

     OIG recommended that HUD (1) require the City to repay the $1.1 million in ineligible costs from
 nonfederal sources; (2) pursue all applicable administrative sanctions against the City, including debarring
 individuals involved in the decision to expend these funds; (3) ensure that the City provides supporting
 documentation for the unsupported costs or take administrative action requiring repayment of amounts not
 adequately supported or determined to be ineligible; (4) require the City to establish written oversight policies
 and procedures that meet HUD requirements for awarding, administering, and monitoring CDBG program
 funds; and (5) require the City to repay from nonfederal funds the amount of CDBG program funds spent on
 prohibited or unsupported maintenance and repair activities. (Audit Report: 2008-BO-1001)



     HUD OIG audited the CDBG program administered by the City of West Palm Beach, FL, and found
 that the City was deficient in contract administration, monitoring, maintaining supporting documentation,
 and reporting program income and failed to ensure that more than $2.7 million in CDBG funds was used in
 compliance with program requirements and to meet national objectives. In addition, the City awarded
 contracts without full and open competition; did not prepare a cost analysis before awarding the contracts; and
 did not maintain documentation supporting that contractors were not debarred, suspended, or ineligible. As
 a result, it could not ensure that more than $1.2 million in contracts it awarded provided full and open
 competition and that the costs were reasonable.

     OIG recommended that HUD require the City to (1) provide documentation supporting that HUD
 requirements were followed and national objectives were met for 27 CDBG activities or reimburse the
 program more than $2.7 million from nonfederal funds; (2) develop, implement, and enforce more
 comprehensive written policies and procedures that comply with HUD requirements; (3) provide supporting
 documentation to justify the eligibility and reasonableness of nearly $625,000 disbursed for the four contracts
 or reimburse the program from nonfederal funds; and (4) ensure that Federal procurement requirements are
 incorporated into City policies and procedures, implemented, and enforced. (Audit Report: 2008-AT-1004)



     HUD OIG audited the Municipality of Canovanas, PR's CDBG program and concluded that the
 Municipality's financial management system did not fully comply with applicable HUD requirements. It did
 not support the allowability of more than $885,000 in program disbursements, could not account for more
 than $501,000 in CDBG receipts, allowed the use of more than $23,000 for ineligible program expenditures,




72                                               Chapter 4: HUD’s Community Planning and Development Programs
 and did not disburse CDBG program funds in a timely manner. In addition, the Municipality improperly
 used CDBG funds for new housing construction and lacked adequate documentation to support program
 accomplishments. Therefore, the related program expenditures of more than $36,000 are ineligible, and more
 than $324,000 is considered unsupported pending an eligibility determination by HUD. The Municipality
 also awarded six contracts without following HUD procurement requirements, did not support the
 reasonableness of more than $109,000 in CDBG disbursements, and paid more than $70,000 for excessive
 expenditures.

     OIG recommended that HUD require the Municipality to (1) repay more than $59,000 in ineligible
 expenditures and the $70,000 in excessive costs; (2) provide all supporting documentation showing the
 appropriateness and eligibility of more than $1.82 million in CDBG disbursements; (3) develop and
 implement an internal control plan; and (4) ensure that CDBG expenditures are properly accounted for,
 reconciled with HUD's disbursement system, and in compliance with HUD requirements. (Audit Report:
 2008-AT-1002)



     A HUD OIG review of the City of Jacksonville, FL/County of Duval, FL's CDBG program did not
 identify reportable conditions for most of the cited objectives. However, the City needs to improve controls to
 ensure proper justification for sole source procurements and that subrecipients only use program funds for
 specific City-approved activities. OIG identified subrecipients that did not properly document or justify sole
 source procurements totaling $156,000 for four purchases and one instance in which the City reimbursed a
 subrecipient nearly $35,000 for costs that were not for the activity component the City approved. As a result,
 the City could not adequately support the reasonableness of $156,000 in CDBG disbursements and the nearly
 $35,000 paid for costs not associated with the City-approved activity.

     OIG recommended that HUD require the City to establish and implement controls to ensure compliance
 with requirements for sole source purchases and that subrecipients are only reimbursed for costs incurred for
 activities approved in their funding request. The City should be required to reimburse the program from
 nonfederal funds for any portion of the nearly $191,000 that it cannot support as being reasonable and having
 been incurred for the City-approved activity. (Audit Report: 2008-AT-1003)

     Lower Manhattan Development Corporation
     During the reporting period we continued our series of Congressionally mandated audits of the Lower
 Manhattan Development Corporation’s (Corporation) administration of the Community Development Block
 Grant Disaster Recovery Assistance funds provided to the State of New York following the September 11,
 2001, terror attack. The State of New York designated the Corporation to administer $2.783 billion of the
 $3.483 billion in Community Development Block Grant Disaster Recovery Assistance funds to assist with the
 recovery and revitalization of lower Manhattan. The two audits completed during this reporting period are
 summarized as below.

     HUD OIG audited the Lower Manhattan Development Corporation (Corporation), New York, NY,
 regarding its administration of the Community Development Block Grant Disaster Recovery Assistance funds
 provided to the State of New York following the September 11, 2001, terror attack. The objectives of the audit
 were to determine whether the Corporation (1) disbursed the funds in accordance with the guidelines




Chapter 4: HUD’s Community Planning and Development Programs                                                   73
 established under HUD-approved partial action plans, (2) expended the funds for eligible administration and
 planning expenses in accordance with applicable laws and regulations, and (3) had a financial management
 system in place that adequately safeguarded the funds and prevented misuse.

     During the audit period, the Corporation disbursed approximately $132.7 million of the $2.783 billion in
 appropriated funds. The Corporation generally disbursed the funds in accordance with HUD-approved
 action plans, expended funds for eligible administration and planning expenses in accordance with applicable
 laws and regulations, and maintained a financial management system that adequately safeguarded funds and
 prevented misuse. However, an internal control weakness existed in the management of grant repayments in
 the Employment Training Assistance Program. The subrecipient that administered the program credited 10
 grant recipient repayments to the wrong HUD grant and did not return recovered funds to HUD's Line of
 Credit Control System in a timely manner.

     OIG recommended that HUD require the Corporation to strengthen controls to ensure that future grant
 repayments to the Employment Training and Assistance Program are properly recorded and credited to the
 correct HUD grant. (Audit Report: 2008-NY-1004)



    HUD OIG performed its ninth audit of the Lower Manhattan Development Corporation's (Corporation)
 administration of the $2.783 billion in Community Development Block Grant Disaster Recovery Assistance
 funds provided to the State of New York following the September 11, 2001, terrorist attacks on the World
 Trade Center in New York City, NY.

     The Corporation's final action plan did not always specify projects to which funds were to be allocated or
 identify alternative funding sources for some of the activities. While it was prepared and approved at a time
 when the operation of the Corporation as a going concern was in question, which may have resulted in the lack
 of specifics on certain projects, this question appears to have been resolved for the immediate future.
 Consequently, the lack of specifics in the final action plan will lessen HUD's ability to evaluate the extent to
 which future disbursements comply with the approved final action plan. In addition, the lack of information
 on the nonfederal sources of funding for the World Trade Center Memorial/Museum project lessens HUD's
 assurance that the funds will be available and that the project will be successfully completed as envisioned.

     OIG recommended that HUD instruct the Corporation to (1) provide specifics for HUD review for the
 activities and outcomes expected as a result of the funding approved in the final action plan for the affordable
 housing, economic development, education, and transportation projects and (2) identify the amount of
 private and nonfederal public resources that are reasonably expected to be available for the completion of the
 World Trade Center Memorial/Museum to ensure that the allocated Federal funds will sufficiently leverage
 those additional resources. (Audit Report: 2008-NY-0801)

 HOME Investment Partnerships Program
     HUD OIG audited the City of New York, NY's Department of Housing Preservation and Development
 to evaluate its administration of the HOME program. The City generally committed and disbursed HOME
 funds in accordance with program regulations; however, there were weaknesses in its monitoring procedures.
 As a result, the City lacked assurance that its community housing development organizations were properly




74                                              Chapter 4: HUD’s Community Planning and Development Programs
 organized and operated effectively, data in HUD's Integrated Disbursement and Information System
 accurately reflected the status of its HOME funds, and HOME-funded projects being monitored met the
 statutory eligibility requirements throughout the affordability periods. In addition, while the City met its
 HOME match requirements and reported a substantial balance of match contributions made in excess of the
 required amounts, erroneous calculations of the match contributions resulted in ineligible match being carried
 forward as a balance for use in future years.

     OIG recommended that HUD require the City to (1) implement procedures to recertify its community
 housing development organizations and evaluate their performance, (2) enter information into HUD's
 Integrated Disbursement and Information System to reflect the current status of seven old projects that have
 not been closed out, (3) implement procedures to ensure that all completed projects are monitored for the
 specified affordability period, (4) remove $34.1 million in ineligible match from its 2007 HOME match
 report, and (5) establish procedures to accurately report the value of match contributions for each of its
 programs. (Audit Report: 2008-NY-1003)



     HUD OIG audited Fulton County, GA's HOME program. The County did not properly manage its
 HOME program and consistently failed to follow requirements. There was more than $6.4 million in HOME
 funds that involved questioned costs, funds that were subject to recapture, and a missing match contribution.
 The County did not (1) properly commit more than $2.57 million and was in danger of losing more than
 $828,000 that was approaching the commitment deadline, (2) prepare or maintain proper documentation to
 support project approvals, (3) ensure the eligibility of more than $1.26 million, (4) ensure proper support for
 more than $1.55 million, (5) effectively address project delays, (6) maintain records to support affordable
 housing compliance, (7) contribute more than $226,000 in HOME match funds, (8) maintain proper
 performance records, (9) conduct or document project monitoring, and (10) properly maintain and manage
 program staff.

     OIG recommended that HUD take appropriate administrative action against the County official
 responsible for most significant reported violations and require the County to properly support or repay more
 than $4.28 million in questioned costs, recapture more than $2.16 million because of program violations, and
 determine whether the County has the capacity to continue administering the HOME program. If the County
 does not have the capacity to continue administering the program, HUD should terminate the program and
 reallocate the County's HOME funding to other properly performing participating jurisdictions. If the
 County is allowed to continue administering the program, HUD should require it to establish and implement
 proper controls and procedures to ensure compliance with program requirements, obtain periodic reviews of
 the program by its internal audit division to confirm compliance, and provide copies of the reports to HUD
 with actions taken to correct reported violations. (Audit Report: 2007-AT-1006)



     HUD OIG audited the City of Los Angeles, CA, Housing Department's single-family and small
 multifamily property rehabilitation programs funded by the HOME program. The Department did not
 always (1) ensure that HOME-assisted rehabilitation work met all applicable construction standards and/or
 was complete, (2) have complete documentation of income eligibility and property values, and (3) report the
 status of its program activities to HUD in the required timeframes.




Chapter 4: HUD’s Community Planning and Development Programs                                                   75
     OIG recommended that HUD require the Department to (1) develop, maintain, and implement
 operating policies, procedures, and controls regarding loan approvals, construction standards, and monitoring
 and ensure accurate and timely reporting of program data to HUD; (2) certify that construction deficiencies
 and incomplete construction work for the properties identified have been repaired or completed in accordance
 with the applicable standards or reimburse the HOME trust fund for the uncertified portion of the $1.2
 million disbursed for these properties; and (3) inspect and certify 35 properties rehabilitated under the asset
 control agreement or reimburse the HOME trust fund for the uncertified portion of the $4.8 million
 disbursed for these properties. (Audit Report: 2008-LA-1004)



     HUD OIG audited the City of Huntington Park, CA's HOME program and found that the City did not
 ensure that its contracted community and housing development organization supported homebuyers' income
 eligibility with appropriate source documentation and that income determinations were performed in
 accordance with HOME requirements. It also did not ensure that HOME affordability requirements were
 imposed with the sale of a property. As a result, nearly $297,000 in HOME funds was unsupported, and
 income eligibility determinations did not meet HOME requirements. In addition, more than $204,000
 earned from the sale of the property was retained by the community and housing development organization
 for 4 years and had not been applied to another project.

     OIG recommended that HUD require the City to (1) provide documentation to support the eligibility of
 homebuyers with unsupported income or repay the HOME funds that were spent on the project, (2) establish
 procedures with sufficient detail to ensure that income determinations are performed consistent with HOME
 requirements, and (3) ensure that the future use of proceeds that are retained by a community and housing
 development organization are documented in a written agreement. (Audit Report: 2008-LA-1001)

 Supportive Housing Program Grants
    HUD OIG audited Homes for Life Foundation in Los Angeles, CA, to determine whether the
 Foundation applied and tracked its HUD Supportive Housing Program cash match in accordance with
 applicable requirements.

     The Foundation did not administer its Supportive Housing Program grants in compliance with HUD
 requirements. Specifically, it could not adequately support that it met the statutory 25 percent cash match
 requirement of more than $389,000 for all 12 grants reviewed. Further, it inappropriately charged nearly
 $113,000 in duplicate costs.

     OIG recommended that HUD require the Foundation and/or the Los Angeles Homeless Services
 Authority to (1) provide adequate supporting documentation to substantiate that the cash match was met or
 repay from nonfederal funds more than $2 million in grant funds expended, (2) implement a financial
 management system that adequately identifies the source and application of all cash match funds for federally
 sponsored activities, (3) support or repay nearly $113,000 in duplicate costs from nonfederal funds, and
 (4) establish and implement a cost allocation plan that allocates program expenditures for its multifunded
 projects equitably. (Audit Report: 2008-LA-1003)




76                                              Chapter 4: HUD’s Community Planning and Development Programs
     HUD OIG audited the Community Development Corporation of Brownsville, Inc., Brownsville, TX,
 to determine whether the Corporation correctly charged administrative costs to its various Federal funding
 sources and whether it used housing counseling grant funds to qualify mortgage applicants instead of
 counseling potential homebuyers.

     The Corporation incorrectly used part of its housing counseling grant funds for qualifying mortgage
 applicants. This condition occurred because the Corporation had a prohibited conflict of interest as it
 provided housing counseling, mortgage qualifying, and underwriting services. As a result, it charged ineligible
 salaries and unsupported fringe benefits to its grants. In addition, it did not allocate general administrative
 costs in proportion to the relative benefits received by the various funding sources or awards. Further, it could
 not support a more than $472,000 increase in its building acquisition cost or the $66,000 value assigned to the
 land. As a result, it may have overcharged its Federal funding sources or awards by more than $67,000 for
 depreciation.

     OIG recommended that the Corporation (1) resolve its conflict of interest, repay to HUD more than
 $177,000 in ineligible salaries, and support or repay nearly $81,000 in fringe benefits; (2) develop a cost
 allocation plan for HUD approval that allocates general administrative expenses relative to the benefits
 received by its funding sources or awards; (3) reallocate more than $391,000 in general administrative expenses
 in accordance with its cost allocation plan; (4) obtain an appraisal that values the building and land separately
 as of the date it purchased the building; and (5) reallocate the correct depreciation. (Audit Report:
 2008-FW-1004)



      HUD OIG reviewed the Housing Opportunities for Persons with AIDS (HOPWA) grant to the City of
 Dallas, TX, to determine whether the City and its program sponsors provided rent, mortgage, and utility
 assistance to persons who met program criteria and whether the 2005 and 2006 competitive grants provided
 transitional and replacement housing.

      Generally, the City complied with program requirements to ensure that it and its program sponsors
 provided assistance to eligible persons. However, in violation of the HOPWA grant agreement, two program
 sponsors charged nearly $25,000 in ineligible expenses, and one program sponsor did not support nearly
 $139,000 in expenses. Further, the City provided almost $2,000 in excess short-term rental, mortgage, and
 utility assistance, and several client files lacked adequate supporting documentation.

     OIG recommended that HUD require the City to (1) repay more than $26,000 to its HOPWA formula
 grant; (2) provide supporting documentation or reimburse its formula grant nearly $139,000; (3) discontinue
 cable television payments, which will result in more than $16,000 in formula grant funds being put to better
 use; and (3) strengthen controls to better comply with requirements. (Audit Report: 2008-FW-1007)




Chapter 4: HUD’s Community Planning and Development Programs                                                     77
 Inspections and Evaluations
 Monitoring of Local Governments under the State CDBG Program
     In 2004 and 2005, Congress appropriated more than $4 billion in CDBG funds to States. After
 withholding funds reserved for specific areas, 70 percent of the remaining program funds were then allocated
 to "entitlement" cities, and 30 percent were disbursed to States for "nonentitlement" areas. Each State and
 Puerto Rico, except Hawaii, administers the distribution and oversight of nonentitlement funds to local grant
 recipients. This oversight by State agencies includes the monitoring of local grant recipients to determine
 program compliance and to prevent and detect fraud.

     HUD OIG completed a nationwide inspection of the 2004 and 2005 monitoring of local grant recipients
 by State agencies. The results of this inspection showed that almost all of the State agencies conducted on-site
 monitoring visits during the 2004 and 2005 program years, State agencies followed basic Federal monitoring
 requirements except for the need to ensure timely receipt of single-audit reports from local grant recipients,
 and each State agency submitted its annual performance and evaluation report to HUD. Additional
 inspection results showed that six State agencies reported that inadequate resources hindered their ability to
 monitor local grant recipients, and five of the nine State agencies contacted had issued sanctions against local
 grant recipients for their failure to comply with program requirements or achieve program objectives.

     To address the inspection results above, HUD OIG recommended that HUD ensure that State agencies
 establish a system to monitor their receipt of annual single-audit reports from local grant recipients and assist
 the State agencies that reported inadequate staff in developing a plan and methods to effectively use their
 available resources. (I&E Report: IED 07 002)




78                                               Chapter 4: HUD’s Community Planning and Development Programs
 Investigation
      Some investigations discussed in this report were generated from leads provided by HUD CPD program
 staff or conducted jointly with Federal, State, and local law enforcement agencies. The results of various
 significant investigations are described below.


                Strategic Initiative 3: Contribute to the strengthening of communities
     Key program               Cases                        $                     Convictions/pleas/             Admin/civil
        results                closed                   recovered                     pretrials                    actions
    Investigations                98                 $5.7 million                        27                          22

          Our                 Page 80          - Theft/embezzlement
         focus                Page 85          - Other fraud/crimes




                 Chart 4.2: Percentage of OIG community planning and development
                        closed investigation cases during this reporting period

                                                                                                      Region 1
                                                                                                       10%
                                           Region 7-8                    Region 5
                                              7%                                         Region 2
                                                                          10%             24%




                                                                                                        Region 3
   Region 9-10                                                                                           14%
      14%



                                                                                              Region 4
                                          Region 6                                              0%
                                           21%



                                                                                Region 11
                                                                        (Disaster Relief Oversight)
                                                                                 %(N/A)*

 * This does not include hurricane relief cases. See chapter 5 for these cases.




Chapter 4: HUD’s Community Planning and Development Programs                                                                   79
 Theft/Embezzlement
     Linda Bevins, the former payroll supervisor for the Crotched Mountain Foundation (Crotched
 Mountain), an organization that received HUD CDBG funds, was indicted in U.S. District Court, Concord,
 NH, for committing theft from programs receiving Federal funds. From June 2004 through July 2007, Bevins
 allegedly diverted and personally used about $1.6 million in Crotched Mountain funds without authorization.
 In addition, New Hampshire civil default judgments in the amount of $1.6 million were individually awarded
 against Bevins and her daughter, Holly Sears.



     Jojuana Meeks, the former executive director for Gary Urban Enterprise Association (Gary Urban), an
 organization that received HUD HOME funds, was sentenced in U.S. District Court, Gary, IN, to 71 months
 incarceration and 3 years supervised release and ordered to pay the Indiana Attorney General more than $1.1
 million and the Internal Revenue Service $89,024 in restitution for her earlier guilty plea to theft of
 government funds. Meeks and previously convicted conspirators embezzled more than $1 million in Gary
 Urban funds when they obtained excessive wages, misused Gary Urban credit cards, and diverted Gary Urban
 funds into their personal bank accounts.



     James Hayes, the former treasurer for Love Social Services Center (Love SSC), an organization that
 received HUD Economic Development Initiative grants and U.S. Department of Justice funding, was
 convicted in U.S. District Court, Anchorage, AK, of conspiracy, misapplication from an organization
 receiving Federal funds, money laundering, filing a false Federal income tax return, and committing fraud and
 theft. Murilda Hayes, the former executive director for Love SSC, pled guilty to committing theft, fraud,
 misapplication from an organization receiving Federal funds, and money laundering. From 2000 through
 2005, James and Murilda Hayes embezzled and personally used more than $825,000 in Love SSC funds
 without authorization.



    Leo Hardy, Jr., and Shirley Hardy Walden, the president and treasurer of Southampton County Assembly
 (Southampton), an organization that received HUD HOME funds, were each indicted in U.S. District Court,
 Norfolk, VA, for making false statements. Hardy and Walden allegedly used about $150,000 in Southampton
 funds for projects not related to HUD programs.



     Josh Brown, a building inspector for Golden Triangle Planning and Development District (Golden
 Triangle), an organization that administered HUD HOME funds, was sentenced in U.S. District Court,
 Jackson, MS, to 6 months home detention and 2 years probation and fined $17,500 for his earlier guilty plea
 to conspiracy. Brown and others conspired, embezzled, and personally used $100,000 in Golden Triangle
 funds without authorization.




80                                             Chapter 4: HUD’s Community Planning and Development Programs
     James Fantroy, Sr., the former treasurer for Paul Quinn College Community
 Development Corporation (Paul Quinn CDC), an organization that administered a
 HUD Historically Black College and University grant, was convicted in U.S. District
 Court, Dallas, TX, of committing theft from a program receiving Federal funds. Fantroy
 obtained and personally used about $48,000 in Paul Quinn CDC funds without
 authorization.



     Derrick Ward and Abdullah Aziz were each arrested after their indictments in U.S.
 District Court, New York City, NY, for conspiracy to defraud HUD and theft of
 government funds. In addition, Michael Calore, the former owner of Via Restaurant,
 Inc., pled guilty to theft of government funds, and George Crawford was sentenced to
 36 months probation and ordered to pay Empire State Development Corporation
 (Empire) $4,569 in restitution, jointly and severally with Ward and Aziz, for his earlier
 guilty plea to theft of government funds. Aziz and Ward allegedly and Calore and
 Crawford admittedly submitted false applications and collectively obtained $46,463 in
 Business Recovery grant funds from Empire, a HUD-funded nonprofit established to
 provide assistance to businesses in lower Manhattan after the September 11,2001,
 terrorist attacks.



                                          Kenneth Elliott, the former executive director
                                      for Metro Housing Partnership (Metro), an
                                      organization that received HUD HOME funds,
                                      pled guilty in U.S. District Court, Arlington, TX,
                                      to theft from a program receiving Federal funds.         Copyright, 2008.
                                      Elliott created bogus invoices and embezzled more      The Dallas Morning
                                      than $42,000 in Metro funds to purchase boats,          News -Dallas, TX.
                                      vehicles, and other personal use items.                     Reprinted with
                                                                                                     permission.



                                          Constance Post, also known as Gerrie Post, the executive director for
                                      the Mount Vernon Urban Renewal Agency (MountVernon) and a
                                      commissioner for the Mount Vernon Department of Planning and
                                      Community Development, organizations that received HUD CDBG
                                      funds, and Wayne Charles, president of the Charles Group and owner of
                                      Micros Only Computer Concepts (Micros), were each indicted in U.S.
                                      District Court, White Plains, NY, for conspiracy to commit mail fraud
                                      and making false statements. Post allegedly awarded $1.1 million in
                                      Mount Vernon computer contracts to Micros without obtaining bids
                                      from others, provided the Charles Group with a $500,000 loan from
 Copyright, 2008. The Dallas
 Morning News - Dallas, TX.
 Reprinted with permission.




Chapter 4: HUD’s Community Planning and Development Programs                                                   81
 Mount Vernon funds and failed to disclose the loan in Mount Vernon books and records, and concealed about
 $30,000 she personally received from Charles.



     Steven Scott, a former City of New Brunswick housing inspector previously sentenced in U.S. District
 Court, Newark, NJ, for his guilty plea to theft of public funds, was suspended from procurement and
 nonprocurement transactions with HUD and throughout the Executive Branch of the Federal Government
 pending the outcome of criminal proceedings or any related debarment actions. Scott used the identification
 of another and fraudulently obtained $19,940 in HUD housing rehabilitation grant funds.



     Wendell France, a former Baltimore County Housing Authority (BCHA) Housing Opportunities for
 Persons with AIDS (HOPWA) Section 8 tenant and BCHA landlord, was sentenced in Baltimore County
 Circuit Court, Baltimore, MD, to 1 year incarceration (suspended) and 1 year supervised release and ordered
 to pay BCHA $18,659 in restitution for his earlier guilty plea to theft. France failed to report income,
 employment, assets, or BCHA housing contract payments on BCHA HOPWA certifications and obtained
 $18,659 in BCHA HOPWA assistance he was not entitled to receive.



     Ebony Davis, a former case manager for Volusia and Flager Counties AIDS Coalition, an organization
 that received HUD HOPWA funds, was sentenced in U.S. District Court, Orlando, FL, to 6 months
 incarceration, 3 months home confinement, and 3 years probation and ordered to perform 150 hours of
 community service, pay HUD $2,182 in restitution, enter into a drug treatment program, and cooperate in
 DNA collection for her earlier guilty plea to embezzlement. Davis falsified HOPWA recipient lease
 agreements, generated payments to fictitious landlords, and embezzled more than $11,036 in HOPWA funds.




         Copyright, 2008. The Daytona Beach News-Journal - Daytona Beach, FL. Reprinted with permission.




82                                              Chapter 4: HUD’s Community Planning and Development Programs
     Danny Davis, owner of Gray Home Improvements (Gray) and a former administrator for the Johnson
 City Community Planning and Development Department (Johnson CPD), an organization that received
 HUD CDBG funds, was charged in Washington County Circuit Court, Johnson City, TN, with committing
 theft, forgery, money laundering, and official misconduct. Davis allegedly awarded inflated Johnson CPD
 housing rehabilitation contracts to Gray, deposited Johnson CPD funds into his personal bank account, and
 personally paid subcontractors to complete Johnson CPD-funded rehabilitations. HUD's losses are not yet
 determined.



     Keith Woods, the former mayor of Brookshire, TX, and Henry Cheney, the former Brookshire director of
 public works, were each indicted in U.S. District Court, Houston, TX, for conspiracy to commit Federal
 program fraud and Travel Act violations to promote State bribery. Woods and Cheney allegedly accepted
 bribes from a demolition contractor in exchange for city contracts funded with HUD CDBG resources.




       Copyright, 2008. The Houston Chronicle - Houston, TX. Reprinted with permission.



     William Walker, the former director for both the Neighborhood Preservation and the Housing
 Rehabilitation programs in New Brunswick, NJ, organizations that received HUD CDBG and HOME funds,
 was charged in a superseding indictment filed in U.S. District Court, Newark, NJ, with conspiracy to extort
 under color of law and soliciting and accepting corrupt payments. Walker allegedly accepted $112,500 in
 bribes from construction and maintenance companies under contract with both HUD-funded programs
 identified above.



     Linda Roach, a former supervisory clerk for the New Brunswick Department of Community Planning and
 Economic Development (New Brunswick CPED), an organization that received HUD CDBG funds, was
 sentenced in U.S. District Court, Newark, NJ, to 5 months incarceration, 5 months home confinement, and




Chapter 4: HUD’s Community Planning and Development Programs                                               83
 36 months probation for her earlier guilty plea to receiving corrupt payments. Roach accepted cash payments
 from New Brunswick CPED contractors in exchange for expedited contract payments.



     Frank Rose, the director for the Neighborhood Preservation program in Linden, NJ, an organization that
 received HUD CDBG funds; Anthony Rose, the former director for the Linden Department of
 Transportation and Parks; and Walter Zawacki, a partner in Zawacki Construction, each pled guilty in U.S.
 District Court, Newark, NJ, to mail fraud and filing a false Federal income tax return. From January 1998 to
 October 2007, Frank Rose accepted bribes from Zawacki and others in exchange for more than $5 million in
 Neighborhood Preservation construction contracts, and Anthony Rose awarded more than $1.3 million in
 construction and maintenance contracts to companies he owned.



     Matthew Price, the former director for the Florida City Housing and Economic Development, an
 organization that received HUD HOME funds, and Jennifer Stimpson, a broker for Venture Mortgage
 Investments, each pled guilty in U.S. District Court, Miami, FL, to conspiracy to commit mail and wire fraud.
 Price and Stimpson conspired with others and fraudulently obtained mortgage funding from contractors in
 exchange for discounted sales of city-owned properties, including a property constructed with HUD HOME
 and CDBG funds.



     Jose Cipolla and Frank Guido, former contractors previously sentenced in U.S. District Court, Buffalo,
 NY, for their guilty pleas to perjury, were each debarred from procurement and nonprocurement transactions
 with HUD and throughout the Executive Branch of the Federal Government for 3 years. Cipolla and Guido
 paid kickbacks to a City of Rochester rehabilitation specialist in exchange for HUD-funded rehabilitation
 contracts.



    Richard Goyette, the former mayor of Chicopee, MA, was sentenced in U.S. District Court, Springfield,
 MA, to 24 months incarceration, 12 months in a community correction center, and 3 years probation and
 ordered to pay the Federal Bureau of Investigation $10,000 in restitution for his earlier guilty plea to extortion.




     Copyright, 2007. The Republican - Springfield, MA. Reprinted with permission.




84                                                  Chapter 4: HUD’s Community Planning and Development Programs
 Goyette extorted two $5,000 campaign contributions from a developer under contract with the Chicopee
 Office of Economic Development (Chicopee OED), an organization that received HUD CDBG funds, and
 in return, Goyette promised to approve, modify, and extend the Chicopee OED contract to benefit the
 developer.

 Other Fraud/Crimes
     James Middleton, the former executive director for Southside Community Development and Housing
 Corporation (Southside), an organization that received HUD HOME funds, was sentenced in U.S. District
 Court, Richmond, VA, to 3 years probation, ordered to pay the Philip Morris Employees Community Fund
 $26,532 in restitution, and fined $1,000 for his earlier guilty plea to mail fraud. Middleton provided
 fraudulent applications to private corporations and obtained $300,000 in grants and loans to pay cost overruns
 on Southside building projects.




Chapter 4: HUD’s Community Planning and Development Programs                                                  85
    Chapter 5
Hurricane Relief
  Oversight
                                 Investigation cases closed by program area*




                  70
                                 68
                  60

                  50
                  40
                  30
                  20                                                       12

                  10                                    3                                       2

                   0
                          Community             Multifamily           Public          Single-Family
                          Planning and           Housing            and Indian           Housing
                          Development                                Housing

     * Total number of hurricane-related cases, some of which may have been worked in different States due to relocation
     of evacuees.

                                  Gulf Coast audit reports isued by location

                              Mississippi
                                  1                                                          Entire Gulf
                                                                                               Coast
                                                                                                  2


          Louisiana
             2




88                                                                                    Chapter 5: Hurricane Relief Oversight
  Introduction and Background
      The U.S. Department of Housing and Urban Development (HUD), Office of Inspector General (OIG),
  successfully established the Gulf Coast Region Offices of Audit and Investigation in the Gulf Coast disaster
  areas to prevent, detect, and combat fraud, waste, and abuse of HUD program disaster funds. HUD received
  supplemental appropriations of approximately $20 billion. HUD has approved numerous State action plans
  and distributed billions of dollars in the form of HUD Community Development Block Grants (CDBG) for
  housing and other needs. In addition, HUD has responsibility for temporary housing assistance for
  approximately 45,000 Federal Emergency Management Agency (FEMA) households from the declared
  disaster areas under a FEMA interagency agreement in the new Disaster Housing Assistance Program (DHAP).
  HUD has also provided a variety of public housing program funds for repair and reconstruction of severely
  damaged public housing properties, most notably in Biloxi, MS, and New Orleans, LA.

      The Office of Audit (OA) continues to be diligent in its efforts to pursue fraud, waste, and abuse in the
  audits of the $20 billion in HUD's emergency supplemental funding provided to the Gulf Coast States. The
  Gulf Coast Region OA has completed five audits of the supplemental funding resulting in findings of
  questioned costs of more than $16 million. Currently, auditors are evaluating the Housing Authority of New
  Orleans (HANO) as part of a congressional request. It should be noted that OA is monitoring the funding
  for Louisiana's Road Home program, which exceeds $9 billion, and the amount obligated for Mississippi's
  Homeowner Grant Assistance program, which totals $2.5 billion.

       The Office of Investigation (OI) has concentrated on hurricane fraud in the Gulf Coast States by focusing
  its resources in the recently established Gulf Coast Region, headquartered in New Orleans, LA. The Gulf
  Coast Region conducts the majority of HUD OIG's disaster investigations, and a number of HUD OIG field
  offices conduct criminal investigations related to Hurricane Katrina fraud throughout the country.

      OI has provided training, presentations, and outreach on HUD disaster recovery funding and investigative
  matters to prosecutors and law enforcement and State agencies. In the Gulf Coast States, OI has been working
  with the State agencies and grantees to implement antifraud measures, which they have used in their disburse-
  ment of disaster funds. One example is the State agencies in Louisiana, Mississippi, and Texas, which have
  established many fraud controls recommended by OI for their homeowner assistance grant programs. The
  Gulf Coast Region is actively participating in the U.S. Department of Justice (DOJ) Hurricane Katrina Fraud
  Task Force (HKFTF) in Baton Rouge, LA, which receives approximately 1,000 hotline calls monthly related to
  hurricane fraud.

      OI monitors and assists with all disaster investigations nationwide. It works closely with OA to coordinate
  audits and to monitor and conduct research regarding all HUD disaster program funds. It continues to
  implement fraud prevention measures within HUD and in the affected States of the Gulf Coast Region. Most
  recently, OI has partnered with the HUD Office of Public and Indian Housing (PIH); the Office of
  Multifamily Housing (MH); and the Office of Policy, Development, and Research (PD&R) to identify and
  investigate duplicate benefits in HUD and FEMA disaster rental assistance programs.




Chapter 5: Hurricane Relief Oversight                                                                           89
 Hurricane Financial Profiles of HUD Community Development
 Block Grant Funds
     The following provides a status as of March 31, 2008, of the HUD CDBG disaster funds appropriated to
 the five Gulf States and a summary of the homeowners programs for Mississippi and Louisiana. HUD's
 distribution of the funds and the receipt and use of the funds by State agencies, contractors, consultants,
 homeowners, and evacuees are being tracked and monitored for waste, fraud, and abuse by HUD OIG OA
 and OI.

 Disaster Community Development Block Grant
              States               Allocations                 Disbursements                  Balance
                                                  Alabama
     1st & 2nd                    $95,613,574                   $16,920,445                $78,693,129
     supplemental total
                                                   Florida
     1st & 2nd                    $182,970,518                  $5,249,718                 $177,720,800
     supplemental total
                                                  Louisiana
     1st, 2nd & 3rd             $13,410,000,000               $7,106,085,784              $6,303,914,216
     supplemental total
                                                 Mississippi
     1st & 2nd                   $5,481,221,059               $2,005,808,477              $3,475,412,582
     supplemental total
                                                   Texas
     1st & 2nd                    $503,194,849                  $21,707,968                $481,486,881
     supplemental total
              Totals            $19,673,000,000               $9,155,772,392             $10,517,227,608




90                                                                            Chapter 5: Hurricane Relief Oversight
  State of Louisiana
  The Road Home Program (authorized $9.93 billion; disbursed $4.16 billion)
      The Road Home program is the major program set up to rebuild Louisiana's impacted communities.
  Devastated communities will be subjected to abandoned homes, clouded land titles, and disinvestments if a
  large portion of the financial assistance is not provided to homeowners. Some owner-occupants, however, may
  choose none of the basic options to repair, rebuild, or relocate in Louisiana. In these instances, the State will
  compensate the homeowner for 60 percent of the home's prestorm value, less insurance and FEMA repair
  funds. The State of Louisiana received an additional $3 billion in emergency funding during this period. The
  status of the Road Home program is described below.

                                 State of Louisiana homeowner program status
                                        Community Planning and Development
                                           Community Development Fund
                                              The Road Home snapshot
                                        Analysis of the homeowner applications
                                                   State of Louisiana
                                             Status as of March 31, 2008
                                  Line items                                                   Totals
   Total applications received and recorded to date                                       185,106 (final)
   Closings held                                                                              103,377
   Average award                                                                              $58,900
  Source of Funds: Emergency Supplemental Appropriations I, II, & III (P.L. 109-148, P.L. 109-234, & P.L. 110-116)


  State of Mississippi
  Homeowner Grant Assistance Program (authorized $2.5 billion; disbursed $1.5 billion)
     The purpose of the Homeowner Grant Assistance program is to provide a one-time grant payment
  (maximum $150,000) to eligible homeowners who had suffered flood damage to their primary residence as of
  August 29, 2005, from Hurricane Katrina. The Homeowner Grant Assistance program is designed to provide
  compensation to those impacted by the hurricane.

      Also noted: There is no requirement that the homeowner occupy the property after replacement/
  rehabilitation work is completed. After certain deductions, homeowners have complete discretion over the use
  of grant funds, as allowable by State and Federal law, as they work through their personal disaster recovery
  situation. The status of the Mississippi homeowner program is described below.




Chapter 5: Hurricane Relief Oversight                                                                                91
                                   State of Mississippi homeowner program status
                                     The Homeowner Grant Assistance Program
                                   Snapshot analysis of the homeowner applications
                                                 State of Mississippi
                                             Status as of March 31, 2008
                                    Line items                                               Totals
     Applications received                                                                  31,006
     Grants paid                                                                            19,786
     Dollar value of grants paid                                                          $1.5 billion
     Average grant paid                                                                    $71,300
 Source of Funds: Emergency Supplemental Appropriations I & II (P.L. 109-148 and P.L. 109-234) 96




92                                                                               Chapter 5: Hurricane Relief Oversight
  Audit




  Emerging Oversight Trends
      OA will continue to pursue audits of Louisiana's largest disaster grant program, the Road Home program.
  However, auditors are currently, as part of a congressional request, evaluating the Housing Authority of New
  Orleans (HANO). In addition, auditors are finishing up an audit of the Road Home program to determine
  the impact of the Additional Compensation Grant and the eligibility of its recipients. There are four other
  audits planned in addition to the HANO review. One audit will look at the Road Home program (E-grants),
  and the others involve Mississippi's small rental program, Texas's homeowner program, and the small business
  loan program. The objectives of the planned audits are as follows:

        HANO - To determine whether HANO carried out its housing activities in accordance with HUD
        requirements, including procurement, Section 8 and public housing activities, and financial condition.

        State of Mississippi Small Rental Program - To determine whether controls are adequate to ensure that
        funds are only expended for eligible participants and awards are properly calculated.

        Louisiana's Road Home Program (E-grants system) - To determine whether E-grants system data
        provide results that are accurate and adequately supported.

        Economic Development (Small Business Loan Program) - To determine whether duplicate loans
        were given on behalf of HUD and the Small Business Administration (SBA). OIG wants to ensure
        that HUD loans do not duplicate SBA assistance. OIG is proposing a joint audit review with SBA/OIG.

        Texas Homeowner Program - To determine whether controls are in place to ensure that funding isused
        for intended purposes and awards are provided to eligible applicants and are properly calculated.




Chapter 5: Hurricane Relief Oversight                                                                        93
 Final Audit Products
     During this period, OIG issued five audits of the supplemental funding resulting in findings of
 questioned costs of more than $16 million. The auditors concentrated their efforts on the community
 planning and development programs, as well as some of the public and Indian housing programs during this
 period. In one audit of the Louisiana Road Home program, auditors found that the State funded 411
 applicants who were coded ineligible or lacking an eligibility determination, resulting in possible overpayment
 totaling $15.5 million. The audits completed during this period are summarized as follows:

     HUD OIG, Washington, DC, audited HUD's Katrina Disaster Housing Assistance Program (KDHAP)
 and Disaster Voucher Program (DVP) administered by public housing agencies to determine whether HUD
 (1) properly determined the eligibility of KDHAP/DVP participants and (2) implemented adequate measures
 to prevent KDHAP/DVP participants from receiving duplicate housing assistance from other HUD housing
 programs.

      HUD did not always ensure that only eligible KDHAP/DVP participants received disaster housing
 assistance. As a result, as of August 31, 2007, $760,317 in Federal funds had been misspent for 84 KDHAP/
 DVP participants who were ineligible for disaster assistance. If ineligible costs continue to be incurred, HUD
 could spend an additional $153,808 on ineligible participants from September 2007 to the end of the
 program. However, these 84 participants count as less than 1 percent of the total number of participants.

     OIG recommended that HUD take appropriate actions deemed necessary to recover or write off the
 Federal funds that were misspent on 84 ineligible participants, immediately cease paying funding on the
 participants ineligible for KDHAP and/or DVP, and take appropriate actions to remove any other ineligible
 participants from the Disaster Information System. (Audit Report: 2008-AO-0001)



     HUD OIG audited the performance of the State of Louisiana's Road Home program housing manager,
 ICF Emergency Management Services, Baton Rouge, LA, to determine whether ICF provided contract
 deliverables in accordance with the terms and conditions of its contract with the State. The State is a CDBG
 disaster recovery grantee under the Department of Defense Appropriations Act of 2006.

     ICF did not always provide contract deliverables in accordance with the terms and conditions of its
 contract with the State, thereby causing the State to reject the deliverables. Specifically, the State rejected 6 of
 80 deliverables provided by ICF. Of the rejected deliverables, the homeowner management information
 system deliverable was most critical, since it was the core processing mechanism needed for the progress of the
 homeowner assistance program. Collectively, the management information system, in conjunction with the
 State's perpetual modification requirements to the system, and inadequate monitoring of system modification
 requirements during phase 1 of the program contributed to delaying the distribution of grants to eligible
 homeowners.

     OIG recommended that HUD require the State to set realistic goals for ICF, taking timely appropriate
 action against ICF when performance problems arise as stipulated by the contract, and verify whether the State
 adequately implemented its new monitoring policies and procedures. (Audit Report: 2008-AO-1001)




94                                                                               Chapter 5: Hurricane Relief Oversight
      HUD OIG audited the State of Louisiana's additional compensation grant component of the Road Home
  homeowner assistance program, managed by the State's contractor, ICF Emergency Management Services,
  LLC, Baton Rouge, LA. OIG initiated the audit in conjunction with the OIG Gulf Coast Region's audit plan
  and examination of relief efforts provided by the Federal Government in the aftermath of Hurricanes Katrina
  and Rita. During the audit to determine grant eligibility, OIG identified possible eligibility issues through a
  review of the electronic data. To immediately address the issues, OIG developed an additional objective to
  determine eligibility for those grants coded ineligible or lacking an eligibility determination.

      Of 22,135 grants, the State funded 418 (2 percent) grants coded ineligible or lacking an eligibility
  determination, totaling $15.8 million, because ICF did not have system controls in place to prevent these
  improper disbursements. File reviews of 26 (6 percent) of the 418 grants, determined that, as of October 13,
  2007, the State had misspent Federal funds for 17 ineligible and two unsupported grants. The remaining seven
  grants were eligible or had input or coding errors.

      OIG recommended that HUD require the State to (1) repay amounts disbursed for ineligible grants to its
  Road Home program, (2) either support or repay amounts disbursed for unsupported grants, (3) review all of
  the remaining 392 grants coded ineligible or lacking an eligibility determination and either support or repay
  the $14.6 million disbursed for them, and (4) implement system controls to prevent future improper
  disbursements. (Audit Report: 2008-AO-1002)



     HUD OIG audited HUD's KDHAP and DVP administered by various public housing agencies. The
  audit objective was to determine whether HUD established controls to ensure that HANO pre-Hurricane
  Katrina Housing Choice Voucher program participants did not receive duplicate assistance under KDHAP
  and/or DVP.

       OIG determined that in most cases, HUD ensured that KDHAP/DVP participants receiving assistance
  were not also receiving assistance under HANO's Housing Choice Voucher program. However, in a few
  instances (4 of 51), the participants received duplicate assistance. In all four cases, this occurred because HUD
  allowed Housing Choice Voucher Homeownership program (Homeownership program) participants to
  execute and receive KDHAP/DVP payments on their behalf while continuing to receive mortgage payments
  under the Homeownership program. HANO continued to pay participants Homeownership program
  assistance payments after Hurricane Katrina to avoid placing the participants into foreclosure. Since the
  Housing Choice Voucher and KDHAP/DVP program regulations prohibit families from receiving assistance
  while receiving another housing subsidy or receiving assistance for more than one unit or a unit in which they
  do not reside, $13,147 in Homeownership program funds was misspent. In addition, two of the four
  participants also received CDBG funding totaling $161,090 to rebuild their property, and the other two
  applied for assistance but had not received it as of October 2007. Finally, all four participants had also received
  duplicate rental assistance funding from FEMA totaling $14,655 as of September 2006. In addition, there is
  a risk that additional duplicate participants exist that were not detected by our testing methodology, as Social
  Security number information in HANO's register was not always reliable.

     OIG recommended that the HUD take appropriate actions to recover the ineligible funding totaling
  $13,147 for four duplicate participants, prevent duplicate payments by working with the lenders to rework the
  mortgages and suspending payment or seek a waiver for the duplicate payment prohibition for Homeownership




Chapter 5: Hurricane Relief Oversight                                                                               95
 program participants, and work with FEMA to ensure that its assistance did not duplicate HUD's rental
 assistance and recover any ineligible duplicate assistance payments, which currently total $14,655. (Audit
 Report: 2008-AO-0801)



     HUD OIG audited the Homeowner's Assistance Grant Program, a component of the State of Mississippi's
 administration of the $5.058 billion in CDBG disaster recovery funds provided to the State in the aftermath of
 Hurricane Katrina. The State allocated $3 billion to help homeowners in Southern Mississippi recover from
 Hurricane Katrina. The audit objectives were to determine whether the State and/or its contractor (1) allowed
 only eligible homeowners to participate in the Program and (2) implemented adequate controls to prevent the
 homeowners from receiving duplication of benefits.

      The State and its contractor had controls to ensure that only eligible homeowners participated in the
 Program. One of the 103 applicants reviewed was not eligible for the Program because the applicant did not
 meet one or more of the five eligibility requirements. The ineligible applicant received $16,871 in grant
 assistance. In addition, the State and its contractor had adequate controls to prevent homeowners from
 receiving duplicate benefits for the same damage. Of the 103 applicants reviewed, only one received a
 duplication of benefits totaling $3,700.

    OIG recommended that HUD require the Authority to repay the Program $20,571 for ineligible costs.
 (Audit Report: 2008-AO-1801)




96                                                                           Chapter 5: Hurricane Relief Oversight
  Investigations




      During this reporting period, OIG opened 112 and closed 85 investigations in the Gulf Coast Region
  disaster relief program areas. Judicial action taken on these cases included more than $1.1 million in
  investigative recoveries; $11.5 million in funds put to better use; 38 indictments or informations; 31
  convictions, pleas, or pretrial diversions; 13 administrative actions; and 38 arrests.

      OI continues to concentrate on disaster funding fraud in the Gulf Coast region. The primary focus during
  this period remains in both Mississippi and Louisiana with the homeowner grant programs and small rental
  grant programs. The purpose of the Homeowner Grant Assistance program is to provide a one-time grant
  payment (maximum $150,000) to eligible homeowners who had suffered flood damage to their primary
  residence as of August 29, 2005, from Hurricane Katrina. The program is designed to provide compensation
  to those impacted by the hurricane. The small rental grant programs provide financial assistance to small rental
  property owners to return an estimated 18,000 affordable and ready to be occupied units to the rental housing
  market. The primary purposes of this financing program is to enable small-scale rental properties to return to
  the market while limiting the amount of debt required for the properties so that the owners will be able to
  charge affordable rents. Investigations of these programs and others require continued close coordination by
  the Gulf Coast Region office with SBA OIG, the Federal Bureau of Investigation (FBI), and the Department
  of Homeland Security Office of Inspector General (DHS OIG).

     OI continues to conduct outreach to law enforcement partners, State agencies, multifamily property
  owners and managers, and HUD personnel in a continuing effort to implement antifraud measures and to
  ensure that information flows to the HKFTF Command Center in Baton Rouge, LA. The main HUD
  program areas are the Office of Community Planning and Development, Office of Public Housing, Office of
  Multifamily Housing, and the Office of Single Family Housing.




Chapter 5: Hurricane Relief Oversight                                                                            97
     OI continues to support the HKFTF and during this period has conducted analysis of more than 2,000
 hotline complaints, referring more than 70 of those complaints to the regional office for further evaluation.
 The Gulf Coast Region office has referred more than 50 of the HKFTF complaints to the Road Home
 program for additional review, resulting in 20 criminal investigations being initiated jointly by HUD OIG and
 the FBI on suspected fraud in the homeowner assistance program.

      The Gulf Coast Region and HUD's Office of Public Housing have collaborated on antifraud measures in
 DHAP, over which HUD assumed administrative control from FEMA in late 2007. DHAP, as a continuation
 of the FEMA DVP, provides for the immediate need for housing assistance that disaster-displaced families face,
 relieving FEMA of this responsibility. HUD, through an interagency agreement with FEMA, is administering
 DHAP with more than $565 million in FEMA grant funds. HUD has control of DHAP for up to 18 months
 of rental assistance and case management services for approximately 45,000 FEMA families, using public
 housing authorities nationwide. During this period, HUD has referred more than 150 potential DHAP
 criminal investigations of duplicate benefits by landlords, which are being reviewed and analyzed at the HKFTF
 for FEMA fraud, HUD fraud, SBA fraud, and other potential violations.

     Some of the investigations discussed in this report were conducted jointly with Federal, State, and local law
 enforcement agencies, including HKFTF. Following the Attorney General's policy of "zero tolerance" in
 relation to Hurricane Katrina fraud, OIG pursues all allegations of waste, fraud, and abuse in HUD's
 Hurricanes Katrina, Rita, and Wilma benefit programs. The results of various significant investigations are
 described below.

 Homeowner Grant Fraud
      Barbara Robicheaux was sentenced in U.S. District Court, Lafayette, LA, to 5 years probation; ordered to
 pay SBA $121,000, FEMA $8,211, and the U.S. Department of Agriculture (USDA) $798 in restitution;
 directed to remit $294 in monthly supervision costs for 5 years; and fined $15,000 for her earlier guilty plea to
 making false claims. Robicheaux applied for and received SBA, FEMA, and USDA disaster assistance and
 attempted to obtain $150,000 in CDBG disaster recovery funds through the Louisiana Road Home program
 for hurricane-damaged residential property, but the property damaged was not her residence during Hurricane
 Rita.



      Mario LeLeaux was sentenced in U.S. District Court, Gulfport, MS, to 12 months probation and ordered
 to pay MDA $35,413, FEMA $16,712, and USDA $792 in restitution for his earlier guilty plea to making
 false claims, theft of government funds, and food stamp fraud. LeLeaux applied for and received FEMA and
 USDA disaster assistance and CDBG disaster recovery funds through MDA for hurricane-damaged residential
 property, but the property damaged was not his primary residence.



     Debra Savage was sentenced in U.S. District Court, Gulfport, MS, to 6 months home confinement with
 electronic monitoring and 60 months supervised release and ordered to perform 60 hours of community
 service and pay the Mississippi Development Authority (MDA) $39,616 and FEMA $17,182 in restitution for
 her earlier guilty plea to making false statements and filing false claims. Savage applied for and received FEMA




98                                                                             Chapter 5: Hurricane Relief Oversight
  and CDBG disaster recovery funds through MDA for hurricane-damaged residential
  property, but the property damaged was not her primary residence.



      Pamelia Conroy was sentenced in U.S. District Court, Gulfport, MS, to 21months
  confinement and 36 months supervised probation and ordered to perform 70 hours of
  community service and pay FEMA $22,815 in restitution for her earlier guilty plea to
  making false statements, filing false claims, and theft of government funds. Conroy
  applied for and received FEMA disaster assistance and attempted to obtain USDA, SBA,
  and $100,000 in CDBG disaster recovery funds through MDA for hurricane-damaged
  residential property, but the property damaged was not her primary residence.



       Vincent Pempeit was sentenced in U.S. District Court, Gulfport, MS, to 3 years
  probation and 6 months home confinement with electronic monitoring and ordered to
  pay FEMA $9,558 in restitution for his earlier guilty plea to making false
  statements and filing false claims. Pempeit applied for and received FEMA disaster
  assistance and attempted to obtain $150,000 in CDBG disaster recovery funds through
  MDA for hurricane-damaged residential property, but the property damaged was not his
  primary residence.



       William and Deane Palmer were each sentenced in U.S. District Court, Gulfport,
  MS, for their earlier guilty pleas to making false statements and filing false claims.
  William Palmer was sentenced to 18 months incarceration and 3 years supervised
  release, ordered to pay FEMA $6,706 and SBA $47,078 in restitution, and fined $4,000.        Copyright, 2007. The
  Deane Palmer was sentenced to 36 months probation, ordered to pay the above                   Sun Herald - Biloxi,
  restitution jointly and severally with her husband, and fined $600. William and Deane         MS. Reprinted with
                                                                                                         permission.
  Palmer applied for and received $56,706 in FEMA and SBA disaster assistance and
  attempted to obtain $68,780 in CDBG disaster recovery funds through MDA for
  hurricane-damaged residential property, but the property damaged was not their
  primary residence.



       Christina Moses was sentenced in U.S. District Court, Gulfport, MS, to 6 months home confinement and
  5 years probation and ordered to perform 70 hours of community service and pay FEMA $24,337 in
  restitution for her earlier guilty plea to making false statements and filing false claims. Moses applied for and
  received FEMA disaster assistance and attempted to obtain $150,000 in CDBG disaster recovery funds through
  MDA for hurricane-damaged residential property, but the property damaged was not her primary residence.




Chapter 5: Hurricane Relief Oversight                                                                              99
     Joseph Pugh was sentenced in U.S. District Court, Gulfport, MS, to 12 months and 1 day incarceration
 and 36 months supervised release, ordered to perform 50 hours of community service and pay FEMA $8,000
 and SBA $10,156 in restitution, and fined $3,000 for his earlier guilty plea to making false statements and
 theft of government funds. Pugh applied for and received FEMA and SBA disaster assistance and attempted to
 obtain $150,000 in CDBG disaster recovery funds through MDA for hurricane-damaged residential property,
 but the property damaged was not his primary residence.



    Dominic Leperi, Jr., was sentenced in U.S. District Court, Gulfport, MS, to 5 months incarceration, 5
 months home confinement, and 24 months supervised release and ordered to perform 100 hours of
 community service and pay FEMA $24,634 in restitution for his earlier guilty plea to making false statements
 and filing false claims. Leperi applied for and received FEMA disaster assistance and attempted to obtain
 $64,503 in CDBG disaster recovery funds through MDA for hurricane-damaged residential property, but the
 property damaged was not his primary residence.




        Copyright, 2007. The Sun Herald - Biloxi, MS. Reprinted with permission.




     Catherine Pruitt pled guilty in U.S. District Court, Gulfport, MS, to making false statements and mail
 fraud. Pruitt applied for and received $4,358 in FEMA disaster assistance and attempted to obtain $100,000
 in CDBG disaster recovery funds through MDA for hurricane-damaged residential property, but the property
 damaged was not her primary residence.



     Doris Wilkerson was indicted in U.S. District Court, Jackson, MS, for making false statements, filing false
 claims, theft of government funds, and wire fraud. Wilkerson allegedly applied for and attempted to obtain
 $150,000 in CDBG disaster recovery funds through MDA for hurricane-damaged residential property, but
 the property damaged was not her primary residence.




100                                                                                Chapter 5: Hurricane Relief Oversight
                                                               Lee Taylor was convicted in U.S. District
                                                           Court, Gulfport, MS, of making false statements,
                                                           theft of government funds, and wire fraud.
                                                           Taylor applied for and received $25,841 in
                                                           FEMA disaster assistance and attempted to
                                                           obtain $150,000 in CDBG disaster recovery
                                                           funds through MDA for hurricane-damaged
                                                           residential property, but Taylor did not own or
                                                          occupy the property during Hurricane Katrina.



                                              Annette and Roger Williams were each indicted in U.S.
                                          District Court, Gulfport, MS, for making false statements, filing
  Copyright, 2008. The Sun Herald -       false claims, theft of government funds, committing fraud in
  Biloxi, MS. Reprinted with              connection with a government loan, and civil forfeiture. Annette
  permission.                             and Roger Williams allegedly applied for and received $17,814 in
                                          FEMA, $80,600 in SBA, and $13,667 in USDA disaster assistance
                                          and attempted to obtain $4,219 in CDBG disaster recovery funds
                                          through MDA for hurricane-damaged residential property, but the
                                          property damaged was not their residence during the storm.

  FEMA and Other Fraud by HUD Tenants
       Erica Prince, a Houston Housing Authority (HHA) Section 8 tenant, and Linda
  Prince, Carroll Ashton, Tawana Chevis, Roland Dixon, and Tarrance Manning each pled
  guilty in U.S. District Court, Houston, TX, to conspiracy to file false claims. Erica
  Prince and the above conspirators and others filed 77 fraudulent FEMA disaster
  assistance applications and received $92,958 in FEMA assistance they were not entitled
  to receive.



     Sixteen defendants were indicted or charged in U.S. District Court,Tucson, AZ, or
  Maricopa County Superior Court, Phoenix, AZ, for making false statements, theft of
  government funds, or committing forgery. The above defendants allegedly applied for
  and collectively received $67,000 in HUD-funded housing assistance and FEMA or
  American Red Cross disaster assistance after they claimed to be displaced victims of
  Hurricane Katrina, but each defendant resided in Arizona during the storm.




                                                                                  Copyright, 2007. The Arizona
                                                                                        Republic -Phoenix, AZ.
                                                                                     Reprinted with permission.



Chapter 5: Hurricane Relief Oversight                                                                        101
     Willie Blackmon, Jr., a former unauthorized Mississippi Regional Housing Authority Section 8 tenant,
 was sentenced in U.S. District Court, Jackson, MS, to 12 months incarceration and 36 months supervised
 release and ordered to pay FEMA $14,750 in restitution for his earlier guilty plea to making false statements,
 theft of government funds, aiding and abetting, and mail fraud. Blackmon applied for and received $14,750
 in FEMA disaster assistance after he claimed residency in a Biloxi Housing Authority (BHA) subsidized unit
 during Hurricane Katrina, but Blackmon was not an authorized BHA tenant before the storm.



     Linda Southall and Pamela Courtney, Thibodaux Housing Authority (THA) public housing tenants,
 each pled guilty or were sentenced in U.S. District Court, New Orleans, LA. Southall pled guilty to theft of
 government funds, and Courtney was sentenced to 3 years supervise probation and ordered to pay FEMA
 $500 in restitution for her earlier guilty plea to making false statements and claims. Southall and Courtney
 each applied for and received FEMA disaster assistance after they claimed personal property damage from
 Hurricane Katrina, but THA suffered no stormdamage, nor were tenants evacuated.



     Michelle Chapman, Chemeca Gant, Janale King, and Aaron Jones, authorized or unauthorized San
 Francisco Housing Authority (SFHA) Section 8 or public housing tenants, were each charged in U.S. District
 Court, San Francisco, CA, with theft of government funds. In addition, Antoinette Perea, a SFHA Section 8
 tenant, was sentenced to 12 months probation and ordered to pay FEMA $2,000 in restitution for her earlier
 guilty plea to theft of government funds. Chapman, Gant, King, and Jones allegedly and Perea admittedly
 applied for and received FEMA disaster assistance after they claimed to be displaced victims of Hurricane
 Katrina, but the above defendants resided in SFHA subsidized housing units during the storm.



      Renada Thornton, a Slidell Housing Authority
 Section 8 tenant and former DVP participant at both the
 Omaha Housing Authority and the Fulton County
 Housing Authority, pled guilty in U.S. District Court,
 New Orleans, LA, to wire and mail fraud. Thornton
 claimed hurricane evacuee status on 14 separate occasions
 at the American Red Cross Disaster Assistance Centers in
 Louisiana and Georgia and fraudulently obtained $18,580
 in disaster assistance she was not entitled to receive.



    Shantelle Griffin, a Section 8 tenant at Himbola
 Manor Apartments (Himbola), a HUD-funded
 multifamily housing development, was sentenced in
 U.S. District Court, Lafayette, LA, to 36 months
 probation and ordered to pay FEMA $2,000 in
                                                                          Copyright, 2008. The Times-Picayune -
                                                                      New Orleans, LA. Reprinted with permission.




102                                                                          Chapter 5: Hurricane Relief Oversight
  restitution for her earlier guilty plea to making a false claim. Griffin applied for and received FEMA disaster
  assistance after she claimed personal property damage from Hurricane Rita, but Himbola suffered no
  storm damage, nor were tenants evacuated.



      Lawanda Clark, a Section 8 tenant at Scotland Square Apartments (Scotland), a HUD-funded multifamily
  housing development, pled guilty in U.S. District Court, Baton Rouge, LA, to mail fraud. In addition, former
  Scotland Section 8 tenants Stephanie Jackson, Bridgette Toney, and Aretha Morris were each sentenced for
  their earlier guilty pleas to theft of government funds or filing false claims. Jackson and Toney were each
  sentenced to 2 years probation; Morris was sentenced to 3 years probation; and Jackson, Toney, and Morris
  were ordered to collectively pay FEMA $4,517 in restitution. The above defendants applied for and received
  FEMA disaster assistance after they claimed property damage or hurricane Katrina evacuee status, but Scotland
  suffered no storm damage, nor were tenants evacuated.



      Loretta Russell, a former Baton Rouge Housing Authority (BRHA) Section 8 tenant, was sentenced in
  U.S. District Court, Baton Rouge, LA, to 2 years probation and ordered to pay FEMA $2,000 in restitution
  for her earlier guilty plea to making false claims. Russell applied for and received FEMA disaster assistance after
  she claimed Hurricane Katrina evacuee status, but BRHA suffered no storm damage, nor were tenants
  evacuated.



      Patricia Franklin, a former Oakland Housing Authority (OHA) Section 8 tenant, was sentenced in U.S.
  District Court, Oakland, CA, to 2 years probation, ordered to pay FEMA $4,110 in restitution, and fined
  $1,000 for her earlier guilty plea to theft of government funds. Franklin applied for and received FEMA
  disaster assistance after she claimed to be a displaced victim of Hurricane Katrina, but Franklin resided in OHA
  subsidized housing during the storm.



      Penny Joseph, a former Indianapolis Housing Authority (IHA) Section 8 tenant, was convicted in Marion
  County Superior Court, Indianapolis, IN, of welfare fraud. Joseph applied for and received $2,600 in IHA
  housing assistance after she claimed to be a displaced victim of Hurricane Katrina, but Joseph resided in
  Indianapolis during the storm.



      Pamela Burdine, a Mississippi Regional Housing Authority VIII (MRHA) Section 8 tenant, was indicted
  in U.S. District Court, Gulfport, MS, for theft of government funds and mail fraud. Burdine allegedly
  obtained a DHAP voucher after Hurricane Katrina but failed to reside in the MRHA unit and subleased the
  unit to others. HUD's loss is estimated at $4,838.




Chapter 5: Hurricane Relief Oversight                                                                              103
      Shaunena Staple, a former Mississippi Regional Housing Authority VIII (MRHA) Section 8 tenant, was
 arrested after her indictment in U.S. District Court, Minneapolis, MN, for making false claims. Staple
 allegedly applied for and received $5,688 in MRHA housing assistance and $2,537 in FEMA disaster
 assistance after she claimed personal property damage and Hurricane Katrina evacuee status, but Staple resided
 in Minnesota during the storm.

 Other Fraud
     Travis Frank and Regina Dewey were each sentenced in U.S. District Court, Houston, TX, for their earlier
 guilty pleas to conspiracy. Frank was sentenced to 8 months incarceration and 3 years supervised release,
 Dewey was sentenced to time served (approximately 2 months) and 3 years supervised release, and Frank and
 Dewey were ordered to pay FEMA $12,112 in restitution, severally and individually. Frank applied for and
 received FEMA disaster assistance after he claimed residency in a Housing Authority of New Orleans (HANO)
 subsidized unit during Hurricane Katrina, but Frank never resided in HANO subsidized housing. Dewey
 provided fraudulent documents and falsified Frank's residency in a HANO subsidized unit.



     Latasha Maloid was sentenced in U.S. District Court, Baton Rouge, LA, to 3 years probation and ordered
 to pay FEMA $2,000 in restitution for her earlier guilty plea to submitting a false claim. Maloid applied for
 and received FEMA disaster assistance after she claimed to be a HANO evacuee, but Maloid resided in Baton
 Rouge, LA, during Hurricane Katrina.



     Stanley Burrell was indicted in U.S. District Court, Beaumont, TX, for making false claims and mail
 fraud. Burrell allegedly applied for and received $12,750 in FEMA disaster assistance after he claimed
 residency in a HANO subsidized unit during Hurricane Katrina, but Burrell never resided in HANO assisted
 housing.



     Joy Carter pled guilty in U.S. District Court, Jackson, MS, to embezzling Federal funds and was sentenced
 to 1 year probation and ordered to perform 40 hours of community service and pay FEMA $893 in restitution.
 Carter applied for and obtained $2,000 in FEMA disaster assistance after she fraudulently claimed property
 damage from Hurricane Katrina.


 Hurricane-Related Outreach
      Louisiana Outreach
    Assistant Special Agent in Charge (ASAC) Fernando Ramos and Senior Forensic Auditor (SFA) Windell
 Durant presented fraud awareness briefings in Baton Rouge, LA, to Louisiana Road Home program
 contractor ICF International staff members involved in the Small Landlord Rental and Road Home
 Recoupment programs. ASAC Ramos and SFA Durant provided an overview of HUD OIG's responsibilities
 when conducting audits and investigations, discussed systemic problems previously identified and methods of




104                                                                          Chapter 5: Hurricane Relief Oversight
  reporting suspected fraud and suspicious activity, and described specific tenant and rental rate issues involving
  the programs identified above. Approximately 12 ICF International staff members attended the briefings.

      Mississippi Outreach
      Special Agent in Charge (SAC) Thomas Luke and SFA Windell Durant provided an overview of HUD
  OIG's mission and authority, described fraud detection and enforcement methods used to successfully
  prosecute Federal Housing Administration-insured and subsidized multifamily fraud, and discussed HUD's
  role in the FEMA DHAP or DVP at a Southeastern Affordable Housing Management Association meeting
  held in Biloxi, MS. Approximately 100 Mississippi multifamily development owners, agents, and employees
  attended.

  Hurricane-Related Federal Sentencing Guidelines
       Pursuant to Section 5 of Pub. Law 100-179 (Jan. 7, 2008), the Department of Justice (DOJ) proposed
  amendments to Section 2B1.1 of the Federal Sentencing Guidelines, including enhancing the offense level for
  disaster fraud. By letter to the U.S. Sentencing Commission, OIG expressed its support for DOJ’s proposal.
  Additionally, Deputy Assistant Inspector General Ruth A. Ritzema testified before the U.S. Sentencing
  Commission, during a hearing concerning DOJ’s proposal. As a consequence of HUD’s efforts to respond the
  September 11, 2001 terrorist attack in New York City, the devastation of the Gulf Coast by Hurricanes Katrina,
  Rita and Wilma, and other natural disasters, OIG is acutely aware of the vulnerability of Federal disaster
  assistance to fraud. OIG strongly believes that this vulnerability derives largely from the laudable motivation
  to quickly provide assistance to those in need during their time of need, not months later; and the unfortunate
  realities that the volume of assistance payments complicates detection, and that the relatively small dollar
  amount of the majority of such payments tends to reduce the likelihood of prosecution. The U.S. Sentencing
  Commission concurred with these beliefs, and—effective November 1, 2008—amended Section 2B1.1 to
  enhance the offense for level disaster fraud by 2 with a floor of 12. See 73 Fed. Reg. 26923, 26933 (May 9,
  2008). OIG is convinced that this enhancement of the offense level for disaster fraud will improve the
  likelihood of prosecution of disaster fraud cases and increase deterrence, and, thus, will reduce the vulnerability
  of disaster assistance to fraud.


  Hurricane-Related OIG Hotline
     During this reporting period, the Hotline received and processed 77 complaints related to Hurricanes
  Katrina, Rita, and Wilma.




Chapter 5: Hurricane Relief Oversight                                                                              105
 Inspections and Evaluations
 Biloxi Housing Authority Risk Assessment: An Evaluation of HUD
 Community Development Block Grant and Office of Public and Indian
 Housing Funds Disbursed for Hurricane Katrina Reconstruction
     The Biloxi Housing Authority provided housing for 455 families at six developments when Hurricane
 Katrina destroyed 172 units and seriously damaged more than 300 more on August 29, 2005. Since August
 2005, the Biloxi Housing Authority has managed both the source and use of more than $22 million in disaster
 recovery funds to rebuild its damaged sites.

     HUD OIG completed a risk assessment of the HUD funding associated with the Biloxi Housing
 Authority reconstruction efforts. The reconstruction funding derived from the Office of Public and Indian
 Housing, CDBG through MDA, the State agency responsible for administering and monitoring Katrina
 recovery efforts, and other HUD sources. The evaluation found that the Biloxi Housing Authority
 demonstrated sufficient accounting and management control over these resources to minimize the risk of
 funding overlaps. However, since the State of Mississippi allocated an additional $41 million in CDBG funds
 to support its continued recovery, HUD and MDA need to scrutinize each grant application and the sites
 selected for redevelopment and carefully monitor future construction and related expenditures of taxpayer
 funds. HUD OIG provided HUD with this report as a management advisory without formal
 recommendations. (I&E Report: IED 08 001)




 The Biloxi Housing Authority used disaster recovery funds to rebuild its HOPE VI developmentto architecturally
 complement the historical character of Mississippi coastal homes.




106                                                                                  Chapter 5: Hurricane Relief Oversight
         Chapter 6
    Other Significant
Audits and Investigations/
       OIG Hotline
    In addition to the audits and investigations described in this chapter, the U.S. Department of Housing and
 Urban Development Office of Inspector General (HUD OIG), has conducted numerous outreach efforts (see
 chapter 7, pages 122 and 125).


 Audits
              Strategic Initiative 4: Contribute to improving HUD’s execution and
                accountability of fiscal responsibilities as a relevant and problem
                                 solving advisor to the Department
       Key program results            Questioned costs                         Funds put to better use
      Audit      6 audits                     ---                                   $922 million
                 Page 108       - Audit of HUD's financial statements
                 Page 108       - FHA financial statements
                 Page 109       - Audit of the Government National Mortgage Association's (Ginnie Mae)
       Our                        financial statements
      focus
                 Page 109       - Review of FHA controls over its IT resources
                 Page 109       - Review of Unisys performance and security controls
                 Page 113       - Fiscal year 2007 review of information systems controls in support of
                                  the financial statement audit


 Audit of HUD's Financial Statements
     HUD OIG, Washington, DC, audited HUD's fiscal years 2007 and 2006 financial statements. The
 financial statements were presented fairly, in all material respects, in conformity with accounting principles
 generally accepted in the United States of America. OIG identified (a) two material weaknesses, (b) eight
 significant weaknesses, and (c) one instance of noncompliance with applicable laws and regulations; assessed
 actions taken by HUD to mitigate the deficiencies noted; and made recommendations for corrective actions.
 (Audit Report: 2008-FO-0003)

 FHA Financial Statements
     Urbach Kahn and Werlin LLP, Washington, DC, audited the Federal Housing Administration's (FHA)
 financial statement for the years ending September 30, 2007 and 2006.

     FHA's principal financial statements were presented fairly, in all material respects, in conformity with
 accounting principles generally accepted in the United States of America. Three significant deficiencies were
 identified, two of which, relating to FHA's home equity conversion mortgage system and subsidy cash flow
 model, were considered to be material weaknesses. The audit did not identify any instances of noncompliance
 with laws and regulations. (Audit Report: 2008-FO-0002)




108                                                 Chapter 6: Other Significant Audits and Investigations/OIG Hotline
  Audit of the Government National Mortgage Association's
  Financial Statements
     Carmichael, Brasher, Tuvell and Company, Washington, DC, audited the Government National Mortgage
  Association's (Ginnie Mae) financial statements for the years ending September 30, 2007 and 2006.

      The financial statements presented fairly, in all material respects, the financial position of Ginnie Mae as of
  September 30, 2007, and September 30, 2006, and the results of its operations and its cash flows for the years
  then ended in conformity with accounting principles generally accepted in the United States of America. The
  audit identified one significant deficiency in Ginnie Mae's internal controls and no material weaknesses or
  reportable instances of noncompliance with laws, regulations, and provisions of contracts. (Audit Report:
  2008-FO-0001)

  Review of FHA Controls Over its Information Technology
  Resources
      HUD OIG, Washington, DC, audited the Federal Housing Administration's (FHA) management of its
  information technology resources and compliance with HUD and other Federal information security
  requirements. Additionally, OIG assessed FHA efforts to comply with HUD policy to close out all
  information security vulnerabilities by November 2007.

      FHA had made progress in meeting the November deadline to close out known information technology
  security vulnerabilities and update required security documents. However, FHA had not implemented the
  Federal information security risk management framework and did not comply with laws, directives, executive
  orders, policies, standards, or regulations. In addition, HUD had not fully implemented an information
  security program to provide a full range of role-based training needed by FHA application system owners to
  assume the system owner responsibilities stated in HUD's policy.

      OIG recommended that HUD (1) align FHA's information security line of delegation and accurately
  define roles to ensure that security controls are effectively implemented, (2) address and eliminate known
  security vulnerabilities, (3) identify the resources needed to provide the necessary security for its applications
  and ensure that staff with significant information security responsibilities obtain necessary training to assume
  assigned information security roles and responsibilities, and (4) complete the implementation of its security
  program for staff with specific security responsibilities and implement additional tools and forums to provide
  system owners the access needed to ensure that their data and systems are protected. (Audit Report:
  2008-DP-0002)

  Review of Unisys Performance and Security Controls
     HUD OIG, Washington, DC, audited HUD's security and performance controls over the Unisys 2200
  operating system, on which financial systems reside, to determine whether operational, technical, and
  management controls were in place and adequately protected HUD's data and resources.

     HUD was not in full compliance with applicable Federal laws and guidelines; and operational, technical,
  and management deficiencies existed in implementing effective security and performance controls over the
  Unisys 2200 operating system.



Chapter 6: Other Significant Audits and Investigations/OIG Hotline                                                 109
   OIG determined that the contents of this report would not be appropriate for public disclosure; therefore,
 OIG has limited its distribution to selected HUD officials. (Audit Report: 2008-DP-0001)

 Fiscal Year 2007 Review of Information Systems Controls in
 Support of the Financial Statement Audit
     HUD OIG reviewed general and application controls for selected information systems to assess
 management controls over HUD's computing environments as part of OIG's audit of HUD's financial
 statements for fiscal year 2007 under the Chief Financial Officer's Act of 1990.

     There were weaknesses and deficiencies in controls that stemmed from HUD's noncompliance with (1)
 requirements for internal controls established by the Office of Management and Budget (OMB), (2) guidance
 issued by the National Institute of Standards and Technology (NIST) for securing information systems, and
 (3) HUD's own policies and procedures.

     OIG recommended that HUD take steps to ensure compliance with OMB requirements, NIST
 guidelines, and HUD's own internal policies and procedures. (Audit Report: 2008-DP-0003)




110                                             Chapter 6: Other Significant Audits and Investigations/OIG Hotline
  Investigations
               Strategic Initiative 4: Contribute to improving HUD’s execution and
                 accountability of fiscal responsibilities as a relevant and problem
                                  solving advisor to the Department
     Key program            Cases                   $                Convictions/pleas/   Admin/civil
        results             closed              recovered                pretrials          actions
     Investigations           29                $168,000                     5                0


     The investigation discussed below was generated from leads provided by HUD program staff and
  conducted jointly with Federal, State, or local law enforcement agencies.

      Michelle Meek, a HUD employee and the former treasurer for the American Federation of Government
  Employees (AFGE) Local Union 3435, was indicted in U.S. District Court, Columbus, OH, for making false
  statements and theft. Meek allegedly provided false accounting statements and embezzled about $9,000 in
  AFGE Local Union 3435 funds.




Chapter 6: Other Significant Audits and Investigations/OIG Hotline                                      111
 OIG Hotline
     The HUD OIG Hotline is operational 5 days a week, Monday through Friday, from 10:00 a.m. to 4:30
 p.m. The Hotline is staffed by 10 full-time OIG employees who take allegations of waste, fraud, abuse, or
 serious mismanagement in HUD or HUD-funded programs from HUD employees, contractors, and the
 public. The Hotline also coordinates reviews with internal audit and investigative units or with HUD program
 offices.

     During this reporting period, the Hotline received and processed 10,114 complaints – 78 percent received
 by telephone, 15 percent by mail, and 7 percent by e-mail. Every allegation received by the Hotline is logged
 into a database and tracked.

    Of the complaints received, 874 were related to the mission of OIG and were addressed as Hotline cases.
 Hotline cases are referred to OIG's Offices of Audit and Investigation or to HUD program offices for action
 and response. The following illustration shows the distribution of Hotline case referrals by percentage.

                          Chart 6.1: Hotline cases opened by program area

                            OIG Audit and      Other HUD
                             Investigation       offices
                                                              Single-Family
                                 12%              1%
         Community                                              Housing
         Planning and                                              4%                 Public and Indian
         Development                                                                      Housing
             4%                                                                             64%



      Multifamily
       Housing
        15%




     The Hotline closed 1,765 cases this reporting period. The closed Hotline cases included 138 substantiated
 allegations. The substantiated allegations resulted in eight administrative sanctions including actions taken
 against HUD employees for misusing their e-mail accounts and HUD contractors for contracting
 improprieties. The Department also took 130 corrective actions that resulted in $131,080 in recoveries of
 losses and more than $2.3 million in HUD funding that could be put to better use. The recoveries included
 repayments of overpaid rental subsidies. Some of the funds that could be put to better use were the result of
 cases in which tenants were terminated from public housing or multifamily housing programs for improperly
 reporting their incomes or family composition to qualify for rental assistance.




112                                             Chapter 6: Other Significant Audits and Investigations/OIG Hotline
                        Chart 6.2: Hotline dollar impact from program offices



        $2,500,000


        $2,000,000


        $1,500,000


        $1,000,000


          $500,000


                 $0
                                Public and Indian                         Multifamily
                                    Housing                                Housing

                                       Recoveries        Funds put to better use



             Chart 6.3: Substantiated cases by type of complaint received by Hotline

                                         Owner/occupant
                                           violations
                   Mismanagement              1%             Other
                        4%                                    2%
                                                                                        Rental fraud and
                                                                                         improprieties
                                                                                             93%




Chapter 6: Other Significant Audits and Investigations/OIG Hotline                                         113
 Chapter 7
Outreach
 Efforts
      To foster cooperative, informative, and mutually beneficial relationships with agencies and organizations
 assisting the U.S. Department of Housing and Urban Development (HUD) in accomplishing its mission, the
 Office of Inspector General (OIG) participates in special outreach efforts. The outreach efforts described
 below complement routine coordination with Federal, State, and local law enforcement agencies, various
 congressional committees or subcommittees, and other OIGs. During outreach efforts, OIG personnel present
 information about HUD OIG's role and function, provide audit and investigative results, and discuss desired
 goals and objectives.

 Single-Family Housing Programs
    Special Agent in Charge (SAC) Barry McLaughlin and Regional Inspector General for Audit (RIGA)
 Heath Wolfe provided an overview of single-family programs, the Program Fraud Civil Remedies Act, and
 common Federal Housing Administration (FHA) mortgagee audit findings at an Illinois Mortgage Bankers
 Association (MBA) conference held in Springfield, IL. More than 20 members attended.



     SAC Rene Febles and Special Agent (SA) Michael Carlucci described mortgage fraud "red flag" indicators
 to New York City and Long Island Credit Union Real Estate Network members meeting in Brookhaven, NY.
 Approximately 20 members attended.



    SAC Barry McLaughlin provided a presentation, entitled "Staying Ahead of Mortgage Fraud - Solutions,
 Tools, and Strategies for the Mortgage Industry," for more than 80 Illinois MBA members meeting in Naperville,
 IL. Special Assistant U.S. Attorney Patrick Layng and Federal Bureau of Investigation (FBI) Supervisory
 Special Agent Anthony D'Angelo also addressed the members.



    SAC Barry McLaughlin, Federal National Mortgage Association senior industry relations manager Amy
 Heinz, and Freddie Mac lead investigator Robb Hagberg described mortgage fraud schemes, trends, and
 consequences for the secondary mortgage market at an MBA National Fraud Conference held in Chicago, IL.
 More than 125 members attended.



    SAC Barry McLaughlin provided an overview of HUD OIG, mortgage fraud, predatory lending, and
 common fraud schemes and trends at a Milwaukee Chapter of the League of Woman Voters meeting held in
 Milwaukee, WI. More than 30 members attended.



     Assistant Special Agent in Charge (ASAC) Brad Geary provided a presentation, entitled "An Informed
 Discussion of Nontraditional Mortgage Products and Escalating Foreclosures," and described the role of HUD
 OIG in both FHA and Section 8 landlord rescue fraud investigations at a Federal Reserve Bank meeting held
 in Waukesha, WI. In addition, ASACs Brad Geary and Ray Espinosa provided two training sessions, entitled




116                                                                                   Chapter 7: Outreach Efforts
  "Current Trends in Mortgage and Real Estate Fraud," described mortgage fraud schemes and "red flag"
  indicators, and hosted a question and answer forum at a Federal Reserve Bank meeting in Milwaukee, WI.
  More than 160 financial, legal, mortgage institution, nonprofit, and local governmental representatives
  attended.



     ASACs Ray Espinosa and Brad Geary provided an overview of real estate and mortgage fraud schemes at a
  National Association of Realtors meeting held in Chicago, IL. ASACs Espinosa and Geary described inflated
  appraisals, property flipping, equity skimming, and rescue fraud for more than 80 attorneys in attendance.



      ASAC Suzanne Steigerwald provided an overview of HUD OIG's mission and authority and described
  fraud detection and enforcement methods used to successfully prosecute investigations at a real estate fraud
  conference hosted by the HUD Homeownership Center in Denver, CO. More than 100 real estate
  professionals attended.



     ASAC Brad Geary provided a presentation, entitled "Mortgage Fraud: Destruction of Neighborhoods,"
  and explained the impact of bankruptcy and mortgage fraud on communities at a U.S. Trustee meeting held in
  Detroit, MI. In addition, SA Jim Waldron provided an overview of bankruptcy issues that affect single-family
  and public housing programs. Approximately 75 U.S. Trustees, Assistant U.S. Attorneys, and others attended.



      ASAC Brad Geary provided a presentation, entitled "The Latest Trends in Mortgage and Real Estate Fraud,"
  and described property flipping, rescue fraud, and FHA vulnerabilities at the Illinois Association of Mortgage
  Professionals Midwest Lending conference held in Lombard, IL. Approximately 50 association members
  attended.



      ASAC Herschell Harvell discussed mortgage fraud trends and patterns at an annual Fraud and Risk
  Conference sponsored by SourceMedia in Las Vegas, NV. Approximately 110 mortgage industry
  representatives attended.



      ASAC Brad Geary provided a presentation, entitled "Real Estate Fraud and Bankruptcy Prosecutions," and
  discussed foreclosure and rescue fraud trends and investigations at a U.S. Trustees meeting held at the
  Department of Justice National Advocacy Center in Columbia, SC. More than 50 trial attorneys attended.




Chapter 7: Outreach Efforts                                                                                   117
     ASAC Brad Geary provided an overview of HUD OIG bankruptcy investigations and real estate schemes
 within the FHA and Section 8 programs to more than 25 bankruptcy trustees meeting in Madison, WI, and
 more than 80 bankruptcy trustees and attorneys meeting in Chicago, IL.



     Special Agent (SA) Kedric McKnight provided an overview of FHA mortgage fraud and current trends
 involving FHA loan fraud schemes at a North Texas Housing Coalition conference held in Irving, TX.
 Approximately 550 individuals representing the mortgage and real estate industries attended.



     SA Heather Yannello and Auditor Patrick Anthony provided a presentation, entitled "Flip or Fraud, Know
 your Limits," at the Buffalo/Niagara Board of Realtors Association's annual conference held in Buffalo, NY.
 SA Yannello and Auditor Anthony described illegal property flipping and other real estate fraud schemes for
 more than 100 real estate agents in attendance. In addition, SAC Febles discussed HUD fraud and responded
 to questions from association members.



     SA Murray Stravers provided an overview of HUD OIG, FHA and conventional loans, and general
 mortgage fraud schemes at an Association of Certified Fraud Examiners conference sponsored by Freddie Mac
 in Las Vegas, NV. In addition, SA Stravers described fraud indicators, applicable Federal criminal and civil
 statutes, administrative remedies, fraud prevention measures, tips on packaging mortgage fraud referrals,
 investigative procedures and interviewing techniques, and the importance of mortgage fraud task forces. More
 than 110 individuals including Assistant U.S. Attorneys; financial and real estate professionals; and Federal,
 State, and local government officials and law enforcement personnel attended.



     SA Michael Wagenhauser and FBI SA Todd Urheim provided an overview of HUD OIG and mortgage
 fraud schemes at a Richmond Association of Realtors meeting in Richmond, VA. SAs Wagenhauser and
 Urheim described document and appraisal fraud, property flipping, equity skimming, bankruptcy fraud, Real
 Estate Settlement Procedures Act violations, and identity theft for approximately 35 association members.



     SA Kedric McKnight was the keynote speaker at a U.S. Office of Thrift Supervision seminar held in Irving,
 TX. SA McKnight presented common mortgage fraud schemes, described HUD OIG's role in loan
 origination fraud investigations, and hosted a question and answer forum following his presentation.
 Approximately 50 individuals representing various lending institutions, real estate firms, and nonprofit
 corporations attended.



     Forensic Auditor James Hoogoian provided an overview of HUD OIG and appraisal fraud relating to
 FHA-insured mortgages at an Appraisal Fraud Prevention Seminar sponsored by HUD and the Appraisal
 Institute in Santa Ana, CA. More than 80 licensed appraisers attended.




118                                                                                   Chapter 7: Outreach Efforts
  Public Housing and Rental Assistance Programs
      SAC Rene Febles described housing fraud and prevention techniques at a National Association of Housing
  and Redevelopment Officials (NAHRO) conference held in Galloway Township, NJ. More than 40 housing
  authority representatives attended.



      ASAC Michael Wixted and Assistant Regional Inspector General for Audit (ARIGA) Michael Motulski
  described housing program fraud and detection methods at a Connecticut NAHRO conference in Meriden,
  CT. Following their presentation, ASAC Wixted and ARIGA Motulski hosted a question and answer forum
  for approximately 40 NAHRO members in attendance.



      SAs Melissa McFadden and Amy Durso provided an overview of HUD OIG's mission and authority and
  described fraud detection and enforcement methods used to successfully prosecute investigations at a NAHRO
  conference held in Omaha, NE. Approximately 30 NAHRO members attended.



      SA Murray Stravers and ARIGA Helen Sparks provided an overview of HUD OIG and described public
  and Indian housing internal fraud schemes at a NAHRO conference held in Las Vegas, NV. The presentation
  included case studies, fraud indicators, applicable Federal statutes, administrative remedies, and general fraud
  prevention measures. More than 30 NAHRO members attended.



     SAC Rene Febles and SA Michael Carlucci provided a presentation describing public corruption and
  Section 8 fraud at an Association of Long Island Housing Authorities meeting in Brookhaven, NY.
  Approximately 20 representatives from various Suffolk County housing authorities attended.



      SAC Barry McLaughlin and HUD public and Indian housing staff members Debra Kravik and Linda
  Woolever provided an overview of the HUD Enterprise Income Verification system, common tenant fraud
  schemes, and housing management responsibilities at a Minnesota Multifamily Association meeting held in
  Brooklyn Center, MN. Approximately 80 association members attended.



       SAC Rene Febles, RIGA Edgar Moore, and ARIGA John Harrison provided an overview of HUD OIG's
  mission and authority and described both the investigative and audit processes at a HUD-sponsored training
  session held in New York City, NY. Approximately 50 public and Indian housing executive directors and
  HUD public and Indian housing personnel from both HUD headquarters and the New York City field office
  attended.




Chapter 7: Outreach Efforts                                                                                     119
      ASAC Tony Meeks and SAs Charles Grace and Kimberly Studerus provided a presentation, entitled
 "Preventing and Identifying Section 8 Fraud," at a housing authority colloquium held at the Bremerton
 Government Center in Bremerton, WA. ASAC Meeks and SAs Grace and Studerus described HUD OIG
 initiatives relating to rental assistance programs; fraud indicators; criminal and civil statutes; administrative
 remedies; general fraud prevention measures; and investigations involving sex offenders, unreported income,
 and unauthorized tenants. Approximately 40 Bremerton, Longview, Tacoma, and Kitsap County Housing
 Authority representatives attended.



     ASAC Kathleen Hatcher provided an overview of HUD OIG's mission, priorities, and public and assisted
 housing programs and participated as a panelist for a training session, entitled "Identifying and Preventing
 Fraud in Housing Programs," at an annual Quadel Consulting Corporation (QCC) National Housing Choice
 Voucher conference held in Washington, DC. QCC provides direct management, training, and consulting
 services for the affordable housing industry. At the conclusion of the training session, ASAC Hatcher and
 others hosted a question and answer forum for approximately 200 housing representatives in attendance.



     Senior Special Agent (SSA) Daniel Ellis provided an overview of HUD OIG's mission and initiatives and
 discussed fraud identification and prevention at an annual Lancaster Housing Development Corporation
 (Lancaster HDC) conference held in Mountville, PA. Lancaster HDC owns and operates 36 HUD-funded
 multifamily housing developments in or around the Pennsylvania counties of Berks, Chester, Dauphin, Lancaster,
 Lebanon, and York. Approximately 30 Lancaster HDC managers attended.



     SA Michael Wagenhauser provided an overview of HUD OIG and presented a public housing and Section
 8 fraud training session at the United Council on Welfare Fraud training conference held in Virginia Beach,
 VA. SA Wagenhauser described rental assistance fraud and successful prosecutions for approximately 100
 members in attendance.



     SA Mack Walker described public housing and Section 8 fraud schemes, portability issues, financial
 recoveries, and prosecution guidelines to Central and Southern Illinois Housing Authority Association
 members meeting in Galesburg, IL. Approximately 25 housing authority representatives attended.



     SA Brian Rymill provided an overview of HUD OIG and described housing assistance fraud for housing
 managers from Landura Management Associates, a management agent for HUD-funded multifamily housing
 developments in Winston-Salem, NC. SA Rymill also described successful tenant fraud investigations and
 discussed methods to identify and report fraud for criminal, civil, or administrative actions. Approximately 60
 housing managers attended




120                                                                                     Chapter 7: Outreach Efforts
      SA Scott Savedow provided a presentation, entitled "Criminal and Fraudulent Activity in HUD Public
  Housing Programs," to Miami-Dade Housing Agency Tenant Advisory Council members meeting in Miami,
  FL. SA Savedow, speaking in both English and Spanish, described HUD OIG's mission and relationship to
  HUD and public housing authorities and illustrated the identification and prosecution of subsidized housing
  fraud. Approximately 30 council members and public housing tenants attended.



      SA Amy Durso provided an overview of HUD OIG's mission and authority and described fraud detection
  and enforcement methods used to successfully prosecute subsidized housing fraud at a Kansas City Housing
  Authority regional housing conference held in Kansas City, MO. Approximately 50 housing authority
  representatives attended.

  Community Planning and Development
     SAC Rene Febles provided an overview of HUD OIG's investigative priorities and described HUD
  community planning and development, public corruption, and mortgage fraud at a Long Island Community
  Development Organization meeting held in Westbury, NY. Approximately 30 members attended.



      RIGA John Buck and SA Frank Aeillo provided an overview of HUD OIG's mission and role in detecting,
  investigating, and preventing waste, fraud, and abuse in HUD's Community Development Block Grant
  programs at a meeting of nonprofit organizational leaders and Bristol Township Community Development
  personnel in Bristol, PA. In addition, SA Aeillo provided an overview of recent HUD OIG investigations and
  prosecutions before leading a question and answer forum.



      Acting ASAC James Luu described HUD OIG's mission and authority, provided an overview of the
  Davis-Bacon Act and illustrated investigative and prosecutorial challenges with violations, and explained the
  importance of record keeping and administrative oversight at a HUD-sponsored Labor Standards Training
  seminar held in San Francisco, CA. Approximately 300 community development officials, HUD HOME
  Investment Partnerships program grantees, and public housing representatives from California, Nevada,
  Arizona, and Guam attended.



     SA Jesse Barragan provided an overview of HUD OIG’s mission, priorities, and organizational structure at
  a meeting with California Department of Housing and Community Development personnel in Sacramento,
  CA. Linda Nichols, Community and Economic Development chief , and employees from the Community
  Development Block Grant Division attended.




Chapter 7: Outreach Efforts                                                                                  121
 Law Enforcement Outreach
     SAC Phyllis Grissom Robinson discussed mortgage fraud issues specific to Utah in a meeting held at the
 U.S. Attorney's Office in Salt Lake City, UT. U.S. Attorney General Michael B. Mukasey and U.S. Attorney
 for the State of Utah, Brett Tolman, attended.



     SAC Barry McLaughlin hosted two meetings of the Illinois Mortgage Fraud Working Group in Chicago,
 IL. Chicago Title vice president Allison Rabin provided a presentation on antifraud provisions and Appraisal
 Research Counselors vice president Russ Haraus illustrated appraisal industry guidelines and trends. More
 than 40 representatives from State regulatory agencies and Federal and local law enforcement agencies
 attended.



     ASACs Ray Espinosa and Brad Geary provided a presentation, entitled "The Latest Trends in Real Estate
 Fraud," at a mortgage fraud seminar sponsored by HUD OIG and the Chicago Police Department in
 Chicago, IL. In addition, Brenda Grauer, a prosecutor with the Illinois Attorney General's Office, provided an
 overview of the Illinois rescue fraud statutes for more than 50 law enforcement, financial institution loss
 prevention, and HUD quality assurance staff in attendance.



     ASAC George Dobrovic and SA Dave Fredrick presented an overview of HUD OIG and described
 mortgage fraud in HUD's Housing Choice Voucher and FHA insurance programs at a meeting of the Cuyahoga
 County Mortgage Fraud Task Force in Cleveland, OH. In addition, Dean Wyman, a Special Assistant U.S.
 Attorney assigned to the U.S. Bankruptcy Trustees Office, presented an overview of bankruptcy and mortgage
 fraud and described joint investigative efforts involving HUD OIG. More than 20 representatives from the
 U.S. Attorney's Office, the Ohio State Attorney General's Office, the Cuyahoga County Prosecutor's Office,
 the Cuyahoga County Sheriff's Office, the Cuyahoga County Recorder's Office, the City of Solon, OH, and
 local law enforcement personnel attended.



    ASAC Brad Geary and SA Julien Kubesh provided an overview of HUD OIG and described single-family
 and housing assistance fraud schemes at a Minnesota Fraud Investigators Association meeting held in
 Minneapolis, MN. More than 50 fraud investigators attended.

 Audit-Related Outreach
    ARIGA Frederick Smith participated in a meeting of the accounting advisory board for the University of
 Northern Colorado School of Business in Greeley, CO. He explained how HUD OIG accomplishes its
 mission by conducting independent and objective audits, investigations, and other activities relevant to the
 HUD missions; keeps the Secretary, Congress, and the American public fully and currently informed; and




122                                                                                   Chapter 7: Outreach Efforts
  works collaboratively with HUD staff and program participants to ensure success in meeting HUD
  program goals.



      RIGA Ron Hosking participated as a panelist during a session of the Association of Government
  Accountants Kansas City Chapter Professional Development Seminar in Kansas City, MO. The topic of the
  panel was "Improving Government through Oversight." The other panelists included RIGAs from the
  Department of Veterans Affairs OIG and the Social Security Administration OIG. Each of the panelists spoke
  about a significant audit that was performed by their agency. RIGA Hosking spoke about the series of late
  endorsement audits performed by HUD OIG. He reported that the audits identified more than 7,000 loans,
  valued at more than $1 billion, that were submitted by lenders for endorsement more than 60 days after closing
  when the borrowers had already missed making mortgage payments.



      ARIGA Michael Motulski, Auditor Jodi Desorcy, SAC Peter C. Emerzian, and ASAC Michael Wixted
  made a presentation to the acting executive director and principal staff of the Connecticut Housing Finance
  Authority (CHFA) in Rocky Hill, CT, to discuss HUD OIG's mission, role, and responsibility with regard to
  detecting and investigating fraud, waste, and mismanagement in HUD's multifamily, community planning
  and development, and FHA programs. CHFA provided information on its recent program to assist subprime
  borrowers' transition to FHA-insured loans. Areas of mutual concern were identified, and channels of
  communication were established.



       ARIGA Kevin Smullen, SAC Peter C. Emerzian, and ASAC Diane DeChellis made a presentation to the
  staff of the Maine State Housing Authority in Augusta, ME, to discuss HUD OIG's mission, role, and
  responsibility with regard to detecting and investigating fraud, waste, and mismanagement in HUD's
  multifamily, community planning and development, and FHA programs. As a result of the meeting, many
  areas of collaboration were identified, and additional training opportunities were discussed for other real estate
  industry professional organizations in the State of Maine.



      ARIGA Michael Motulski and SAC Peter C. Emerzian made a presentation to the staff of the
  Massachusetts Housing Finance Agency in Boston, MA, to discuss HUD OIG's mission, role, and
  responsibility with regard to detecting and investigating fraud, waste, and mismanagement in HUD's
  multifamily and FHA programs. During the meeting, the anticipated FHA market share increase in
  Massachusetts and FHA home equity conversion mortgages (HECM) were discussed, as well as OIG's role in
  monitoring these programs.



      RIGA John Dvorak and SAC Peter C. Emerzian made a presentation to the staff of the New Hampshire
  Housing Finance Agency in Bedford, NH, to discuss HUD OIG's mission, role, and responsibility with regard
  to detecting and investigating fraud, waste, and mismanagement in HUD's Section 8, multifamily, and FHA




Chapter 7: Outreach Efforts                                                                                       123
 programs. During the meeting, the anticipated FHA market share increase in New Hampshire and FHA
 HECM were discussed, as well as OIG's role in monitoring these programs. In addition, the use of HUD's
 Enterprise Income Verification (EIV) system to monitor and detect Section 8 tenant fraud was discussed.



    ARIGA Michael Motulski, SAC Peter C. Emerzian, ASAC Michael Wixted, and SA Alexander Rosania
 made a presentation to the staff of the Rhode Island Housing Agency (RIHA) in Providence, RI, to discuss
 HUD OIG's mission, role, and responsibility with regard to detecting and investigating fraud, waste, and
 mismanagement in programs administered by RIHA. These programs include HUD's Community
 Development Block Grant, HOME Investment Partnerships, Section 8, multifamily, and FHA programs.
 During the meeting, RIHA origination of FHA loans including FHA HECM to assist in the mortgage crisis in
 Rhode Island and were discussed, as well as the assistance OIG could provide in monitoring these programs.



      SAC James Todak and RIGA Joan Hobbs served on a four-member panel at the NAHRO conference held
 in San Diego, CA. The national conference had approximately 450 people in attendance, and the topic of the
 session was “Fraud Detection: Preserving Assets and Saving Public Dollars.” Most of the attendees were
 commissioners and executive directors of public housing authorities. Discussion and questions centered around
 how housing authorities can prevent fraud within their own ranks and the legal issues surrounding the
 performance of annual background checks.



     RIGA Heath Wolfe and Auditor Cynthia Fierro participated in the Federal Executive Board's 2008
 Government Job Fair at Roosevelt University in Chicago, IL. They spoke to students about HUD OIG's
 mission and the benefits of pursuing student volunteer and auditing positions with HUD OIG. They
 informed students that OIG has student volunteer opportunities at its Chicago, IL; Detroit, MI; and
 Columbus, OH, offices and accepted resumes from students interested in both a career and student volunteer
 position with HUD OIG.



     RIGA Heath Wolfe and ARIGA Kelly Anderson participated in the Loyola University Chicago Spring
 2008 "Call to Serve" Non-Profit Job and Internship Fair in Chicago, IL. They spoke with students about
 OIG's mission and the benefits of pursuing student volunteer and career positions with HUD OIG and
 accepted resumes from students interested in the student volunteer program at OIG's Chicago, IL; Columbus,
 OH; or Detroit, MI, Offices of Audit and careers with HUD OIG.



     RIGA Edgar Moore and SAC Rene Febles met with Mr. Bob Young, Acting Assistant Deputy Secretary for
 Field Policy and Management, the HUD Region 2 Director, and other Region 2 officials in New York, NY.
 They provided an overview of the responsibilities of the Region 2 Offices of Audit and Investigation and
 explained the general audit and investigation areas that OIG has focused on this year based on its strategic plan.




124                                                                                      Chapter 7: Outreach Efforts
      ARIGA Karen Campbell and Senior Auditor Mary Rose Aylwin met with Robert Scofield, Director of the
  HUD field office in Albany, NY, to discuss the OIG mission and annual audit plan, process for audit planning
  and selection of auditees, and possible future audits within the Albany field office's jurisdiction. They also
  discussed the results of recent audits conducted by OIG Albany staff. In addition, they discussed HUD's
  centralized EIV system and debt collection activity at HUD's Financial Operations Center's Asset Recovery
  Division in Albany. The EIV system is a HUD-provided Internet-based wage and benefit tool that allows
  public housing agencies and multifamily program users to validate the accuracy of tenant-reported income
  from an independent source that systematically and uniformly maintains income information in computerized
  form.



      Senior Auditors Mike Hall, Larry McMillion, and Joanna Varenhorst made a presentation to a graduate
  auditing class at St. Mary's University in San Antonio, TX. The team described the OIG mission, provided an
  overview of HUD OIG, discussed the difference between private industry and the public sector, and described
  the benefits of pursuing a career with HUD OIG. They also discussed recent audit reports, the HUD OIG
  annual report, and how OIG has impacted the community.



      Senior Auditor Martin Bardak and IT (information technology) Specialist Adam Bernstein participated in
  the Federal Cyber Service Scholarship for Service program 2008 annual job fair and symposium in
  Washington, DC. They spoke with students about careers with HUD OIG and collected resumes from
  students interested in internships and full-time positions. HUD OIG was one of more than 35 federal
  agencies participating in the job fair, which hosts an elite cadre of specialists dedicated to protecting the Nation's
  information technology infrastructure.

  Other Outreach
      RIGA Heath Wolfe made a presentation to Loyola University Chicago's Beta Alpha Psi in Chicago, IL. He
  spoke to students about the benefits of pursuing student volunteer and auditing positions with HUD OIG, as
  well as OIG's overall mission. Students were informed that OIG has student volunteer opportunities in
  Chicago, IL; Columbus, OH; and Detroit, MI. More than 40 students attended the presentation.



      RIGA Heath Wolfe made a presentation to the University of Illinois-Springfield's Student Accounting
  Society in Springfield, IL. He spoke to students and faculty about the benefits of pursuing student volunteer
  and auditing positions with HUD OIG, as well as OIG's overall mission. Students were informed that OIG
  has student volunteer opportunities in Chicago, IL; Columbus, OH; and Detroit, MI.



      RIGA Heath Wolfe and ARIGA Carrie Gray participated in the 2008 Springfield Collegiate Fair in
  Springfield, IL. The Fair was sponsored by the University of Illinois-Springfield, Robert Morris College, and
  Lincoln Land Community College. RIGA Wolfe and ARIGA Gray spoke with students about OIG's mission
  and the benefits of pursuing student volunteer and career positions with the HUD OIG. They accepted




Chapter 7: Outreach Efforts                                                                                           125
 resumes from students interested in the student volunteer program at OIG's Chicago, IL; Columbus, OH; or
 Detroit, MI, Offices of Audit and careers with HUD OIG.



     RIGA Heath Wolfe and ARIGA Carrie Gray participated in the Career Network '08 Career Fair in
 Edwardsville, IL. The fair was sponsored by Southern Illinois University at Edwardsville, Blackburn College,
 Greenville College, Illinois College, McKendree University, and Principia College. RIGA Wolfe and ARIGA
 Gray spoke with interested students about HUD OIG's mission and the benefits of pursuing a career with
 HUD OIG. They accepted resumes from students interested in the student volunteer program and careers
 with HUD OIG.



     RIGA Heath Wolfe and ARIGA Carrie Gray participated in the Bradley University's Social Service
 Government Career Fair in Peoria, IL. They spoke with students about OIG's mission and the benefits of
 pursuing student volunteer and career positions with HUD OIG. They accepted resumes from students
 interested in a career or a student volunteer position with HUD OIG Offices of Audit in St. Louis, MO;
 Chicago, IL; Columbus, OH; or Detroit, MI.



     ARIGA Carrie Gray and Auditor Tina Venker participated in the University of Missouri-St. Louis Spring
 Internship and Job Fair in St. Louis, MO. They spoke with interested students about HUD OIG's mission
 and the benefits of pursuing a career with HUD OIG. They accepted resumes from students interested in the
 student volunteer program and careers with HUD OIG.



    ARIGAs Carrie Gray and Brent Bowen participated in the Southern Illinois University Edwardsville,
 Chicago, IL, career fair, along with more than 100 other employers. They spoke with more than 50 students
 about HUD OIG's mission and the benefits of pursing a career and/or a student volunteer position with HUD
 OIG. They accepted resumes from students interested in a career or a student volunteer position with HUD
 OIG Offices of Audit in St. Louis, MO, or Columbus, OH.



     ARIGA Kim Randall and Senior Auditor Dan Tipton attended the University of Central Missouri Career
 Fair in Warrensburg, MO. They spoke with students about careers with HUD OIG and collected resumes
 from students interested in internships and full-time positions. HUD OIG was one of more than 150
 employers participating in the career fair.




126                                                                                  Chapter 7: Outreach Efforts
    Chapter 8
   Review of
Policy Directives
     Reviewing and making recommendations on legislation, regulations, and policy issues is a critical part of
 the U.S. Department of Housing and Urban Development, Office of Inspector General's (HUD OIG)
 responsibilities under the Inspector General Act. During this 6-month reporting period, OIG reviewed 111
 issuances. This chapter highlights some of OIG's prior comments on notices, comments for this reporting
 period, and other policy directives.

 Proposed Legislation
    Due to the collapse of the subprime mortgage market and resulting increase in foreclosures, Congress has
 proposed a number of legislative solutions. OIG continues to review the proposed legislation and HUD's role.
 As of this reporting period, none of the proposed legislation has become law. OIG plans to continue to
 monitor Congress' efforts in this area.

 FHA Modernization
     The U.S. Department of Housing and Urban Development (HUD) has proposed legislation that would
 allow increased flexibility in setting insurance premiums based on risk and reduce downpayment requirements.
 As noted in the President's fiscal year 2008 budget, through the Expanding Homeownership Act of 2006,
 HUD has sought to provide workable solutions for homebuyers who do not qualify for prime financing, giving
 them more affordable and safer ways to achieve the "American dream." The key components of the legislative
 proposal are to

      -   Modify the current statutory 3 percent minimum downpayment.
      -   Create a new, risk-based insurance premium structure for the Federal Housing Administration (FHA)
          that would match the premium amount with the credit profile of the borrower.
      -   Increase and simplify FHA's loan limits.

     In the last Semiannual Report, OIG published its concerns related to the proposed legislation. As of this
 report, Congress has not passed the proposed legislation.

 Proposed Rules
     HUD proposed Mortgagee Letter 2008-05, Expansion of FHASecure and Clarification on Cash-Out
 Refinance. OIG nonconcurred with an initial draft of the mortgagee letter. OIG raised concerns regarding
 these higher risk loans and HUD's plans to monitor the performance of the loans. After considering our input,
 FHA provided additional documents regarding the risk to the FHA fund and its plans for monitoring the
 performance of the loans.

      OIG continues to work with HUD to resolve other nonconcurrence.




128                                                                         Chapter 8: Review of Policy Directives
 Chapter 9
  Audit
Resolution
     In the audit resolution process, Office of Inspector General (OIG) and U.S. Department of Housing and
 Urban Development (HUD) management agree upon the needed actions and timeframes for resolving audit
 recommendations. Through this process, OIG hopes to achieve measurable improvements in HUD programs
 and operations. The overall responsibility for assuring that the agreed-upon changes are implemented rests
 with HUD managers. This chapter describes significant management decisions with which OIG disagrees. It
 also contains a status report on HUD's implementation of the Federal Financial Management Improvement
 Act of 1996 (FFMIA). In addition to this chapter on audit resolution, see appendix 2, table B, "Significant
 Audit Reports Described in Previous Semiannual Reports in Which Final Action Had Not Been Completed as
 of March 31, 2008."

 Audit Reports Issued before Start of Period with No Management
 Decision as of March 31, 2008
 Office of Housing,Washington, DC
      Single-Family Mortgage Insurance Claims Issued July 11, 2006. The Inspector General referred this issue to
 the Deputy Secretary on December 4, 2006, because agreement could not be reached with the Office of
 Housing. The three recommendations relate to the Office of Housing's not independently determining that
 mortgage loans insured under the Mutual Mortgage Insurance Fund met program requirements after paying
 billions in single-family insurance claims. During the period October 1, 2003, through June 3, 2005, HUD
 received and paid claims on loans for which the lender did not show that the borrower (1) was able to make the
 required monthly payments, (2) made the minimum investment in the property, and (3) was creditworthy.
 HUD paid the claims and did not subsequently review the loan files for compliance with the program
 requirements, fraud, and/or misrepresentations. HUD relied upon lender certifications that loans were
 eligible and contained all required supporting documents, a preendorsement review of the insurance
 applications for key documents, and risk-based compliance testing of recently insured loans. We estimate that
 final HUD costs for claims that HUD's files did not support as meeting program requirements during the
 period reviewed totaled $356 million on those claims for which all revenues and expenses were finalized.

     In his February 23, 2007, response, the Deputy Secretary stated support of OIG's objective and agreed
 with the overall conclusions reached. The Deputy Secretary directed the Office of Housing to immediately
 begin implementing procedures in conjunction with and acceptable to OIG to effect the recommendations.
 However, the Office of Housing did not submit its plan to implement the Deputy Secretary's directive until
 March 30, 2007. Even then, the plan was unacceptable. Then on June 11, 2007, the Office of Housing
 submitted an additional proposal, which was also rejected by OIG. The Office of Housing's proposal does not
 provide for the development of procedures to take appropriate actions for all claims with inadequate
 documentation and essentially renders the recommendations ineffective. Since June 2007, we have received
 no further correspondence from the Office of Housing on this matter. The recommendations remain open,
 without management decisions, until the Office of Housing submits a corrective action plan that accurately
 reflects the Deputy Secretary's instructions and demonstrates a good faith effort to implement OIG's
 recommendations. (Report No. 2006-SE-0001).




130                                                                                    Chapter 9: Audit Resolution
 Significantly Revised Management Decisions
    Section 5(a)(11) of the Inspector General Act, as amended, requires that OIG report information
 concerning the reasons for any significant revised management decisions made during the reporting period.
 During the current reporting period, there were significant revised management decisions on two audits.

 Carbondale Nursing Home - Carbondale, PA
     Issue Date: March 25, 2004. In response to an audit request by the Philadelphia Multifamily Hub, we
 audited Carbondale Nursing Home (project), a Section 232 HUD-insured project owned by CNH,
 Incorporated (owner). The purpose of our audit was to assess the owner's compliance with the terms and
 conditions of the regulatory agreement and all other applicable HUD requirements.

     The owner did not comply with the regulatory agreement and other HUD requirements in operating the
 project. In total, the owner made nearly $1.3 million in ineligible and unsupported payments from project
 funds. Specifically, the owner received nearly $375,000 in ineligible salary payments, collected more than
 $170,000 in ineligible distributions/repayment of advances, paid nearly $486,000 in ineligible expenses for
 another company, disbursed nearly $133,000 in ineligible extension fees, and paid nearly $98,000 in
 unsupported loan payments. Several staff members at the project, including the controller and administrator,
 stated that the owner was not aware of the HUD requirements prohibiting these expenditures. If the owner
 had complied with HUD requirements and used project funds for only necessary operating expenses of the
 project, the owner could have used these funds to pay the mortgage costs (principal and interest) for more than
 2 years and possibly avoided bankruptcy and default on the HUD-insured loan.

     We recommended that HUD require the owner to repay nearly $1.2 million in ineligible expenditures and
 either support or repay the nearly $98,000 in unsupported expenditures and take appropriate administrative
 action against the owner. On April 30, 2004, HUD sent the owner a letter requiring her to repay all
 questioned costs identified in the audit report. On May 10, 2004, HUD received correspondence from the
 owner's attorneys stating that they were representing the owner in her Chapter 11 bankruptcy proceedings and
 questioning HUD's authority to collect these funds. HUD responded by explaining that it is authorized to
 demand payment pursuant to the regulatory agreement, and HUD again requested repayment of the
 questioned costs.

     Due to the owner's unresponsiveness, HUD requested the assistance of the U.S. Attorney's Office to
 resolve this matter. On June 15, 2005, the U.S. Attorney's Office advised the owner's attorney that HUD had
 referred the matter to it for resolution. On August 29, 2005, the owner's attorney notified the U.S. Attorney's
 Office that he was no longer representing the owner and had advised the owner to obtain new counsel. The
 U.S. Attorney's Office then contacted the owner directly, advising that the owner or an attorney on the owner's
 behalf contact the U.S. Attorney's Office to discuss the matter. In the interim, a portion of the ineligible costs
 were recovered. HUD received a check from the lender in the amount of nearly $133,000 for the reported
 ineligible extension fees. The payment reduced the total ineligible costs from nearly $1.2 million to just over
 $1 million. No further recoveries were made.

      On January 17, 2007, HUD received notification that the U.S. Attorney's Office had decided not to
 initiate civil proceedings against the owner. HUD continued to believe that the matter should be pursued,
 however, and attempted to persuade the U.S. Attorney's Office to reopen the case to no avail. On May 17,




Chapter 9: Audit Resolution                                                                                      131
 2007, HUD was notified that the owner had passed away. On September 14, 2007, the Director of
 Philadelphia's Multifamily Hub sent a letter to HUD's Departmental Claims Officer requesting a full
 write-off of the remaining disallowed costs due to the above events. Pursuant to the Federal Claims Collection
 Standards, 31 CFR [Code of Federal Regulations] 903.1(b), the U.S. Department of Justice authorized HUD's
 Departmental Claims Officer to terminate collection action on January 16, 2008. On January 31, 2008,
 disallowed costs of more than $1.1 million were written off, and the audit was closed. (Audit Report:
 2004-PH-1004)

 Idaho Housing and Finance Association, Boise, ID
     Issue Date: September 16, 2005. HUD OIG audited Idaho Housing and Finance Association in Boise, ID.
 The audit objectives were to determine whether Idaho Housing followed Federal regulation sand HUD
 guidelines when it (1) allowed project owners to prepay project mortgages and (2) refunded bonds in 1994.

      Idaho Housing did not properly follow Federal regulations and HUD guidelines when it allowed 10 project
 owners to prepay project mortgages. As a result, HUD paid more than $8.5 million in subsidies in excess of
 fair market rents for these projects. Further, Idaho Housing did not properly follow Federal regulations and
 HUD guidelines when it did not return HUD's 50 percent share of the savings of more than $6 million
 generated from the 1994 bond refunding for 30 McKinney Act projects and did not use more than $997,000
 of its 50 percent of the McKinney Act savings appropriately. As a result, the McKinney Act savings were not
 available for HUD programs, including those administered by Idaho Housing.

     The original recommendation 2A stated that Idaho Housing should reimburse HUD from nonfederal
 funds nearly $6.2 million for its share of the McKinney Act savings resulting from the 1994 bond refund. The
 original recommendation 2B stated that Idaho Housing should reimburse its Federal program accounts from
 nonfederal funds nearly $998,000 for its portion of the McKinney Act savings that was not appropriately
 expended. Specifically, owners of nonprofit and limited distribution properties received funds in excess of the
 allowable limited distribution amount.

     On December 13, 2005, HUD agreed that OIG should amend recommendation 2B for consideration of
 just over $1 million in excessive distributions that had been included in the amount in recommendation 2A,
 which was closed due to a HUD Office of General Counsel decision that the McKinney Act did not apply to
 these projects. On June 5, 2006, Idaho Housing sent an appeal to Secretary Jackson to remove
 recommendation 2B on the question of whether loan funds constituted owner distributions. The Office of
 General Counsel reviewed the appeal and in a March 14, 2008, memorandum to the Multifamily Hub
 Director in Seattle, stated that it had determined that the proceeds from the refunding program were not
 considered distributions and were, therefore, not subject to HUD's limited distribution rules. As a result,
 HUD requested that recommendation 2B be withdrawn and the associated monetary amounts eliminated.
 OIG agreed to eliminate recommendation 2B. (Audit Report: 2005-SE-1008)

 Significant Management Decision with Which OIG Disagrees
     During the reporting period, there were no significant management decisions with which OIG
 disagreed.




132                                                                                    Chapter 9: Audit Resolution
 Federal Financial Management Improvement Act of 1996
    In fiscal year 2007, HUD did not substantially comply with FFMIA. In this regard, HUD's financial
 management systems did not substantially comply with Federal financial management system requirements.

    FFMIA requires that HUD implement a remediation plan that will bring financial systems into
 compliance with Federal financial management system requirements within 3 years or obtain Office of
 Management and Budget (OMB) concurrence if more time is needed.

     FFMIA requires OIG to report in its Semiannual Reports to the Congress instances and reasons when an
 agency has not met the intermediate target dates established in its mediation plan required by FFMIA. In April
 1998, HUD determined that 38 of its systems were not in substantial compliance with FFMIA. At the end of
 2007, the Department reported that 2 of its 42 financial management systems were not in substantial
 compliance with FFMIA. These two systems are the HUD Procurement System (HPS) and Small Purchase
 System (SPS).




Chapter 9: Audit Resolution                                                                                  133
  Appendix 1
Audit Reports
   Issued
 Internal Reports
 15 Audit Reports
 Chief Financial Officer (2 Reports)
 2008-DP-0003          FY 2007 Review of Information Systems Controls in Support of the Financial
                       Statements Audit, 03/04/2008.
 2008-FO-0003          Additional Details to Supplement Our Report on HUD's FY 2007and 2006 Financial
                       Statements, 11/14/2007. Better use: $922,300,000.
 Chief Information Officer (1 Report)
 2008-DP-0001          Review of Unisys Performance and Security Controls, 10/19/2007.
 Community Planning and Development (2 Reports)
 2008-NY-0001          HUD's Monitoring Controls and Procedures Regarding the CDBG Program Were
                       Not Adequate, 12/31/2007.
 2008-PH-0001          HUD's Process for Tracking the American Dream Downpayment Initiative Had
                       Weaknesses, 03/26/2008.
 Government National Mortgage Association (1 Report)
 2008-FO-0001          Audit of the Government National Mortgage Association's Financial Statements for
                       FY 2007 and 2006, 11/07/2007.
 Housing (6 Reports)
 2008-BO-0001          Office of Multifamily Housing Boston Hub Staff Effectively Used Contract Fee
                       Inspectors, 02/14/2008.
 2008-DP-0002          Review of FHA Controls over Its Information Technology Resources,10/31/2007.
 2008-FO-0002          Audit of the FHA's Financial Statements for FY 2007 and 2006, 11/08/2007.
 2008-KC-0001          HUD's Quality Assurance Division Did Not Always Resolve Materially Deficient or
                       Potentially Fraudulent Loans Consistently, 01/14/2008. Questioned: $233,351;
                       Better use: $722,652.
 2008-LA-0001          The Los Angeles Multifamily Hub Did Not Properly Monitor Its Performance-Based
                       Contract Administrator, Los Angeles LOMOD, 11/05/2007. Questioned: $1,465,219;
                       Better use: $38,839.
 2008-LA-0002          HUD Did Not Have Adequate Internal Controls over Its FHA Appraiser Roster,
                       03/04/2008.
 Public and Indian Housing (3 Reports)
 2008-AO-0001          HUD Had a Less Than 1 Percent Error Rate in Housing Ineligible Participants for
                       Katrina Disaster Housing Assistance Program and Disaster Voucher Program Disaster
                       Housing Assistance, 12/04/2007. Questioned: $760,317; Better use: $153,808.
 2008-AT-0001          The Atlanta PIH Did Not Ensure That the Housing Authority of DeKalb County
                       Accurately Implemented Its Memorandum of Agreement, 01/10/2008.




136                                                                         Appendix 1: Audit Reports Issued
 2008-KC-0002                 HUD Did Not Ensure That Housing Authorities Properly Administered the
                              Community Service and Self-Sufficiency Requirement, 03/24/2008. Better use:
                              $257,712,000.

 Audit-Related Memoranda1
 Community Planning and Development (1 Report)
 2008-NY-0801                 CDBG Disaster Recovery Assistance Funds Lower Manhattan Development
                              Corporation, New York, NY, 10/23/2007.
 Public and Indian Housing (2 Reports)
 2008-AO-0801                 Review of Duplication of Participants Benefits under HUD's Katrina Disaster
                              Housing Assistance Program and Disaster Voucher Program, 03/28/2008. Questioned:
                              $27,802.
 2008-AT-0801                 Corrective Action Verification, Miami-Dade Housing Agency Did Not Ensure
                              Section 8-Assisted Units Met Housing Quality Standards, 2006-AT-1001, 02/11/2008.




 External Reports
 47 Audit Reports
 Community Planning and Development (17 Reports)
 2008-AO-1001                 State of Louisiana's Road Home Program, ICF, Did Not Always Provide Contract
                              Deliverables As Required, Baton Rouge, LA, 12/19/2007.
 2008-AO-1002                 State of Louisiana, Road Home Program, Funded 418 Grants Coded Ineligible or
                              Lacking an Eligibility Determination, Baton Rouge, LA, 01/30/2008. Questioned:
                              $15,528,378; Unsupported: $14,785,034.
 2008-AT-1002                 The Municipality of Canovanas Needs to Improve Administration of Its CDBG
                              Program, Canovanas, PR, 11/15/2007. Questioned: $1,951,996; Unsupported:
                              $1,822,026.
 2008-AT-1003                 The City of Jacksonville Lacked Proper Support for Some Subrecipient Purchases and
                              Expenditures, Jacksonville, FL, 12/26/2007. Questioned: $190,552; Unsupported:
                              $34,552.
 2008-AT-1004                 The City of West Palm Beach Did Not Properly Administer Its CDBG Program, West
                              Palm Beach, FL, 01/09/2008. Questioned: $3,397,170; Unsupported: $3,397,170;
                              Better use: $157,122.




 1
   The memorandum format is used to communicate the results of reviews not performed in accordance with
 generallyaccepted government audit standards, to close out assignments with no findings and recommendations,
 to respond to requests for information, to report on the results of a survey, to report results, or to report the results
 of civil actions or settlements.



Appendix 1: Audit Reports Issued                                                                                             137
 2008-AT-1005          The City of Fort Lauderdale Did Not Properly Administer Its CDBG Program, Fort
                       Lauderdale, FL, 01/11/2008. Questioned: $5,114,130; Unsupported: $5,114,130;
                       Better use: $722,377.
 2008-AT-1006          Fulton County Lacked Adequate Controls Over Its HOME Program, Atlanta, GA,
                       03/07/2008. Questioned: $4,285,846; Unsupported: $1,780,971; Better use:
                       $2,159,649.
 2008-BO-1001          The City of Chicopee Did Not Properly Administer More Than $4.3 Million in CDBG
                       Funds, Chicopee, MA, 11/07/2007. Questioned: $4,320,387; Unsupported:
                       $3,106,886; Better use: $62,975.
 2008-BO-1003          The Maine State Housing Authority Needs to Improve Controls over Its
                       Administration of the HOME Program, Augusta, ME, 01/18/2008. Better use:
                       $13,686.
 2008-FW-1004          Community Development Corporation of Brownsville Did Not Use Its Housing
                       Counseling Grants for the Intended Purpose, Brownsville, TX, 12/18/2007.
                       Questioned: $716,309; Unsupported: $539,170.
 2008-FW-1007          City of Dallas Incurred Ineligible and Unsupported Expenses for Its HOPWA Grant,
                       Dallas, TX, 03/20/2008. Questioned: $165,232; Unsupported: $138,979; Better use:
                       $16,345.
 2008-LA-1001          The City of Huntington Park Did Not Always Ensure That HOME Program
                       Requirements Were Met, Huntington Park, CA, 11/01/2007. Questioned: $296,599;
                       Unsupported: $296,599; Better use: $204,442.
 2008-LA-1003          Home for Life Foundation Did Not Properly Administer Its Supportive Housing
                       Program Grants, Los Angeles, CA, 12/18/2007. Questioned: $2,124,624; Unsupported:
                       $2,119,137.
 2008-LA-1004          The City of Los Angeles Housing Department Did Not Adequately Monitor HOME
                       Program-Assisted Rehabilitation Construction, Los Angeles, CA, 01/15/2008.
                       Questioned: $6,073,275; Unsupported: $6,073,275; Better use: $72,835.
 2008-NY-1001          The City of New Rochelle Had Administrative Control Weaknesses in Its HOME
                       Program, New Rochelle, NY, 11/08/2007. Questioned: $12,000; Unsupported:
                       $12,000.
 2008-NY-1003          The City of New York's Department of Housing Preservation and Development Had
                       Administrative Weaknesses in Its HOME Program, New York, NY, 01/23/2008.
                       Questioned: $34,100,000.
 2008-NY-1004          Lower Manhattan Development Corporation CDBG Disaster Recovery Assistance
                       Funds, New York, NY, 03/31/2008. Better use: $6,782.
 Housing (7 Reports)
 2008-BO-1004          Multifamily Project Deficiencies Resulted in More Than $1.1 Million in Cost
                       Exceptions for Mohegan Commons, Norwich, CT, 02/04/2008. Questioned: $926,898;
                       Better Use: $267,344.
 2008-BO-1005          Multifamily Project Deficiencies Resulted in More Than $2.8 Million in Cost
                       Exceptions for Windham Heights Apartments, Windham, CT, 02/05/2008.
                       Questioned: $2,510,318; Better use: $317,675.



138                                                                          Appendix 1: Audit Reports Issued
 2008-FW-1008            The Owner of Century Mission Oaks Violated Its Regulatory Agreement with HUD,
                         San Antonio, TX, 03/21/2008. Questioned: $3,286,489; Unsupported: $3,023,965.
 2008-LA-1006            Phoenix Apartments Did Not Use Project Funds in Accordance with HUD
                         Requirements, Concord, CA, 02/04/2008. Questioned: $207,971; Unsupported:
                         $118,220.
 2008-NY-1002            Richard A. Hutchens and Associates, Management Agent, Used Project Funds for
                         Ineligible and/or Unsupported Costs, Buffalo, NY, 12/05/2007. Questioned:
                         $1,643,726; Unsupported: $1,056,282; Better use: $91,650.
 2008-PH-1002            National City Mortgage Generally Complied with HUD Requirements in Originating
                         FHA-Insured Single-Family Loans, Plymouth Meeting, PA, 11/20/2007. Questioned:
                         $857; Better use: $57,533.
 2008-PH-1005            Elders Place, Incorporated, Did Not Administer Project Operating Funds in
                         Accordance with HUD Requirements, Philadelphia, PA, 03/28/2008. Questioned:
                         $383,376; Unsupported: $309,929; Better use: $13,155.
 Public and Indian Housing (23 Reports)
 2008-AT-1001            The Municipality of Ponce Needs to Improve Controls over Its Section 8 Program,
                         Ponce, PR, 11/08/2007. Better use: $447,300.
 2008-BO-1002            Holyoke Housing Authority's Lack of Management Controls Resulted in Section 8
                         Units Not Meeting Housing Quality Standards, Holyoke, MA, 11/26/2007.
                         Questioned: $6,193; Better use: $1,654,350.
 2008-CH-1001            The Housing Authority of the City of Michigan City Failed to Follow Federal
                         Requirements for Its Nonprofit Development Activities, Michigan City, IN,
                         11/19/2007. Questioned: $1,520,878; Better use: $1,814,838.
 2008-CH-1002            The Akron Metropolitan Housing Authority Lacked Adequate Controls over Its 5(h)
                         Homeownership Proceeds, Akron, OH, 01/09/2008. Better use: $384,691.
 2008-CH-1003            The Highland Park Housing Commission Did Not Effectively Administer Its Public
                         Housing and Capital Fund Programs, Highland Park, MI, 02/15/2008. Questioned:
                         $346,864; Unsupported: $297,199; Better use: $70,437.
 2008-DE-1001            The Housing Authority of the City of Colorado Springs Improperly Managed
                         Contracts and Improperly Maintained Its Section 8 Waiting List, Colorado Springs,
                         CO, 11/27/2007.
 2008-DE-1002            The Housing Authority of the City of Brighton Did Not Maintain Proper Inventory
                         Records and Improperly Awarded Contracts, Brighton, CO, 03/18/2008.
 2008-FW-1001            The Housing Authorities of the City of Konawa, City of Langston, City of Pauls
                         Valley, City of Wynnewood, Town of Cheyenne, and Caddo Electric Cooperative
                         Improperly Awarded Their Management Contracts and Did Not Manage Certain
                         Operations or Administer Funds Properly, Ada, OK, 10/26/2007. Questioned:
                         $205,174; Unsupported: $194,716; Better use: $84,332.
 2008-FW-1002            The Shreveport Housing Authority Did Not Ensure That Section 8 Units Met
                         Housing Quality Standards, Shreveport, LA, 11/28/2007. Better use: $6,145,796.




Appendix 1: Audit Reports Issued                                                                           139
 2008-FW-1003   The Dallas Housing Authority Mismanaged Its Portable Vouchers, Dallas, TX,
                12/05/2007. Questioned: $3,789,254; Unsupported: $3,789,254.
 2008-FW-1005   The Housing Authority of the City of McKinney Inappropriately Advanced Funds and
                Transferred Real Estate to Its Not-for-Profit Affiliate, McKinney, TX, 01/07/2008.
                Questioned: $994,546; Unsupported: $79,059.
 2008-FW-1006   Dallas Housing Authority Management Failed to Implement Internal Controls over Its
                Housing Choice Voucher Program, Dallas, TX, 03/20/2008. Questioned: $32,440,786;
                Unsupported: $32,440,786; Better use: $648,530.
 2008-KC-1001   The Douglas County Housing Authority Improperly Encumbered and Spent Its
                Public Housing Funds, Omaha, NE, 02/11/2008. Questioned: $925,520; Unsupported:
                $729,361; Better use: $2,116,159.
 2008-KC-1002   The Schuyler Housing Authority Improperly Used Public Housing Funds to Support a
                Non-HUD Assisted Living Program, Schuyler, NE, 02/20/2008. Questioned: $84,133;
                Better use: $102,000.
 2008-LA-1002   The Housing Authority of the City of Napa Did Not Adequately Determine and
                Support Section 8 Rents, Napa, CA, 11/30/2007. Questioned: $63,466.
 2008-LA-1005   The Anaheim Housing Authority Did Not Always Operate Its Section 8 Housing Choice
                Voucher Program Effectively, Anaheim, CA, 01/16/2008. Questioned: $6,297;
                Unsupported: $200; Better use: $90.
 2008-LA-1007   The Housing Authority of the County of Los Angeles Did Not Adequately Administer
                Its Section 8 Voucher Program, Los Angeles, CA, 02/08/2008. Questioned: $3,702,296;
                Unsupported: $5,860; Better use: $2,838.
 2008-LA-1008   The Housing Authority of the County of San Joaquin Did Not Administer Capital
                Funds in Accordance with HUD Requirements, Stockton, CA, 03/06/2008.
                Questioned: $292,227; Unsupported: $1,346; Better use: $77,188.
 2008-PH-1001   The District of Columbia Housing Authority Did Not Ensure That Its Program Units
                Met Housing Quality Standards under Its MTW Program, Washington, DC,
                11/05/2007. Questioned: $192,821; Better use: $21,743,120.
 2008-PH-1003   The Housing Authority of the City of Allentown Needs to Settle Interfund Accounts
                Monthly and Revise Its Method of Allocating Administrative Salary and Benefit Costs,
                Allentown, PA, 11/21/2007. Questioned: $910,946; Better use: $926,726.
 2008-PH-1004   The Housing Authority of Baltimore City Generally Had Adequate Controls over Its
                Tenant Files, Baltimore, MD, 12/19/2007. Questioned: $3,193; Better use:
                $2,596.
 2008-SE-1001   Accounting for Program Income from NAHASDA-Assisted 1937 Act Housing Projects
                at Warm Springs Housing Authority, Warm Springs, OR, 10/30/2007. Questioned:
                $1,613,071; Unsupported: $1,613,071.
 2008-SE-1002   Oneida Housing Authority Did Not Properly Recognize and Use Program Income
                from Native American Housing Assistance and Self-Determination Act-Assisted
                1937 Act Housing Projects, Oneida, WI, 02/20/2008. Questioned: $2,228,880;
                Unsupported: $2,228,880.




140                                                                    Appendix 1: Audit Reports Issued
 Audit-Related Memorandums1
 Community Planning and Development (1 Report)
 2008-AO-1801                 The State of Mississippi's and/or Its Contractor's Procedures for and Controls over the
                              Homeowner's Assistance Grant Program Generally Ensured Eligibility and Prevented
                              Duplication of Benefits, Jackson, MS, 03/06/2008. Questioned: $20,571.




 1
   The memorandum format is used to communicate the results of reviews not performed in accordance with
 generallyaccepted government audit standards, to close out assignments with no findings and recommendations,
 to respond to requests for information, to report on the results of a survey, to report results, or to report the results
 of civil actions or settlements.



Appendix 1: Audit Reports Issued                                                                                             141
Appendix 2
 Tables
                                             Table A
                            Audit reports issued prior to start of period
                         with no management decision at March 31, 2008
                   * Significant audit reports described in previous semiannual reports

  Report number                  Reason for lack of                     Issue date/target
  and title                      management decision                    for management decision
  *2006-SE-0001 Single           See chapter 9, page 130                07/11/2006
  Family Mortgage
  Insurance Claims




144                                                                                       Appendix 2: Tables
                                                 Table B
                      Significant audit reports described in previous semiannual
                        reports in which final action had not been completed
                                         as of March 31, 2008
  Report             Report title                               Issue       Decision       Final
  number                                                        date         date         action
 1997-AT-1003        Municipality of Mayaguez, CDBG and       07/01/1997   10/29/1997   06/30/2009
                     Section 108 Loan Guarantee Assistance
                     Programs, Mayaguez, PR

 2001-CH-1007        Detroit Housing Commission, Hope VI 05/16/2001        09/13/2001   06/30/2008
                     Program, Detroit, MI

 2002-AT-1002        Housing Authority of the City of         07/03/2002   10/31/2002   04/30/2010
                     Tupelo, Housing Programs Operations,
                     Tupelo, MS

 2002-KC-0002        Nationwide Survey of HUD's Office of     07/31/2002   11/22/2002     Note 2
                     Housing Section 232 Nursing Home
                     Program

 2002-PH-1005        Philadelphia Regional Alliance of        09/30/2002   03/31/2003   04/01/2008
                     HUD Tenants, Outreach and Training
                     Assistance Grant and Intermediary
                     Technical Assistance Grant,
                     Philadelphia PA

 2003-SE-1002        Tenants Union, Outreach and Training     12/02/2002   03/31/2003   04/01/2008
                     Assistance Grant and Intermediary
                     Training Assistance Grant, Seattle, WA

 2004-BO-1004        Danbury Housing Authority, Capital       12/05/2003   04/05/2004   12/01/2008
                     Fund Program, Boston, MA

 2004-AO-0001        Award and Administration of Lead-        02/06/2004   06/30/2004   04/01/2008
                     Based Paint Hazard Reduction Grants

 2004-PH-1003        The Congress of National Black           02/19/2004   06/18/2004   11/15/2008
                     Churches, Incorporated, Housing
                     Counseling Program, Washington, DC

 2004-DP-0002        Application Control Review of the        02/25/2004   07/14/2004   08/30/2008
                     Tenant Rental Assistance Certification
                     System

 2004-PH-1008        Safe Haven Outreach Ministry,            06/03/2004   08/31/2004     Note 2
                     Incorporated, Washington, DC




Appendix 2: Tables                                                                                   145
  Report        Report title                             Issue       Decision         Final
  number                                                 date         date           action
 2004-AT-1012   Housing Authority of the City of       08/02/2004   11/29/2004    12/01/2014
                Durham, NC

 2004-CH-1803   Somerset Point Nursing Home,           08/09/2004   08/09/2004    07/31/2009
                Multifamily Equity Skimming,
                Shaker Heights, OH

 2004-PH-1012   Mortgage America Bankers, LLC,         09/10/2004   01/06/2005    09/21/2008
                Nonsupervised Loan Correspondent,
                Kensington, MD

 2004-FW-1009   Mays Property Management,Inc.,         09/17/2004   02/23/2005    10/01/2008
                Multifamily Management Agent,
                Little Rock, AR

 2004-LA-1008   United States Veterans Initiative,     09/27/2004   03/31/2005    04/15/2013
                Inc., Inglewood, CA

 2005-AT-1004   Housing Authority of the City of       11/19/2004   03/15/2005    03/15/2015
                Durham, NC

 2005-CH-1003   Royal Oak Township Housing             11/29/2004   03/29/2005    10/31/2008
                Commission, Public Housing
                Program, Ferndale, MI

 2005-AT-1005   Pan American Financial Corporation,    01/27/2005   05/17/2005    05/15/2008
                Nonsupervised Direct Endorsement
                Lender, Guaynabo, PR

 2005-PH-0001   Criteria Governing Local Government    03/29/2005   07/27/2005       Note 1
                Participation in HUD's Single Family
                Property Disposition Discount Sales
                Program

 2005-DE-0001   HUD's Controls over FHA Claims         05/12/2005   09/09/2005       Note 1
                Payments

 2005-CH-1012   Savanna Trace Apartments Multifamily   08/04/2005   12/28/2005    04/01/2008
                Equity Skimming, Kalamazoo, MI

 2005-CH-1013   Ivan Woods Senior Apartments           08/05/2005   12/28/2005    04/01/2008
                Multifamily Equity Skimming,
                Lansing, MI

 2005-LA-0001   Single Family Preforeclosure           09/13/2005   01/10/2006       Note 1
                SaleProgram




146                                                                              Appendix 2: Tables
  Report             Report title                             Issue       Decision       Final
  number                                                      date         date         action
 2005-AT-1013        Corporacion Para el Fomento            09/15/2005   01/11/2006   05/30/2008
                     Economico de la Ciudad Capital
                     Did Not Administer Its Independent
                     Capital Fund in Accordance with
                     HUD Requirements, San Juan,
                     PR

 2005-SE-1008        Idaho Housing and Finance              09/16/2005   03/31/2006     Note 1
                     Association, Boise, ID

 2005-CH-1017        Flint Housing Commission, Section 8    09/23/2005   01/20/2006   01/20/2016
                     Housing Program, Flint, MI

 2005-FW-1018        The Housing Authority of the City      09/27/2005   01/24/2006   06/30/2008
                     of Houston Violated HUD
                     Regulations Concerning Section 8
                     Housing Choice Voucher Tenants
                     and Units, Houston, TX

 2005-CH-1020        Housing Authority of the City of       09/29/2005   01/25/2006   12/31/2052
                     Gary, Section 8 Housing Program,
                     Gary, IN

 2006-CH-0001        Real Estate Assessment Center's        11/30/2005   01/10/2006   11/30/2008
                     Physical Condition Assessment
                     Was Compromised

 2006-AT-1001        Miami Dade Housing Agency Did          12/21/2005   05/31/2006   10/01/2008
                     Not Ensure Section 8 Assisted Units
                     Met Housing Quality Standards,
                     Miami, FL

 2006-AT-1004        The Housing Authority of the City      01/13/2006   04/25/2006   12/31/2008
                     of Prichard Did Not Ensure Section 8
                     Subsidy Payments Were for Eligible
                     Units, Tenants, and Landlords,
                     Prichard, AL

 2006-SE-1001        Idaho Housing and Finance              01/26/2006   05/23/2006   12/31/2008
                     Association Did Not Monitor
                     Subsidized Multifamily Projects in
                     Accordance with Regulations or Its
                     Annual Contributions Contract
                     with HUD, Boise, ID

 2006-DP-0003        Vulnerability Assessment of HUD's      01/31/2006   04/19/2006   06/30/2008
                     Computer Network




Appendix 2: Tables                                                                                 147
  Report        Report title                             Issue       Decision         Final
  number                                                 date         date           action
 2006-NY-1003   The Housing Authority of the City      02/14/2006   08/17/2006    12/31/2008
                of Newark's Controls over Bond
                Financing Activities, Obtaining
                Supporting Documentation, and
                Legal Settlements Require
                Improvement, Newark, NJ

 2006-LA-1009   Fontana Native American Indian         03/03/2006   03/17/2006    09/15/2008
                Center Did Not Adequately
                Administer Its Supportive Housing
                Program Grant, Fontana, CA

 2006-LA-1010   The Owner and Agent of Holiday         03/03/2006   06/23/2006    04/30/2008
                Apartments, LA PRO 30, and Two
                Worlds II Mismanaged Project
                Finances and Operations, Los
                Angeles, CA

 2006-BO-1005   Hartford Housing Authority Had         03/10/2006   07/07/2006    07/31/2008
                Housing Choice Voucher Program
                Deficiencies Resulting in More Than
                $2.6 Million in Costs Exceptions,
                Hartford, CT

 2006-CH-1007   Huntington National Bank, Supervised   03/15/2006   09/18/2006    09/30/2008
                Lender, Generally Complied with
                Requirements Regarding Submission
                of Late Requests for Endorsement and
                Underwriting of Loans, Columbus, OH

 2006-AT-1007   The Housing Authority of the City of   03/30/2006   07/20/2006    07/31/2011
                Winston-Salem Used More Than $4.9
                Million in Operating Subsidies for
                Other Programs, Winston-Salem, NC

 2006-CH-1008   US Bank NA, Supervised Lender, Did     03/31/2006   09/18/2006    09/30/2008
                Not Always Comply with HUD's
                Requirements Regarding Late Requests
                for Endorsements and Underwriting of
                Loans, Minneapolis, MN

 2006-LA-1011   Sundial Care Center Used $659,746      05/18/2006   09/14/2006    07/20/2008
                in Project Funds for Ineligible and
                Undocumented Costs and Was Unable
                to Account for Revenue Totaling
                $407,454, Modesto, CA




148                                                                              Appendix 2: Tables
  Report             Report title                              Issue       Decision       Final
  number                                                       date         date         action
 2006-PH-0002        HUD Improperly Admitted the             05/31/2006   10/24/2006   10/01/2008
                     Housing Authority of Baltimore
                     City into the MTW Demonstration
                     Program, Baltimore, MD

 2006-NY-0001        HUD's Controls over the Reporting,      06/08/2006   01/08/2007   01/31/2009
                     Oversight, and Monitoring of the
                     Housing Counseling Assistance
                     Program Were Not Adequate

 2006-KC-0003        HUD Did Not Ensure That the Omaha       06/19/2006   09/13/2006   09/30/2008
                     Housing Authority Repaid Its Public
                     Housing Programs $2.7 Million,
                     Omaha, NE

 2006-KC-1011        The Owner of Wellston Townhouses        06/29/2006   09/06/2006   10/28/2008
                     in St. Louis County Violated Its
                     Regulatory Agreement, Wellston, MO

 2006-KC-1012        The Owner of HDC Retirement             06/29/2006   08/31/2006   10/30/2008
                     Village in St. Louis Violated Its
                     Regulatory Agreement, St. Louis, MO

 2006-BO-1008        Hall Commons, Inc., Did Not             06/30/2006   10/25/2006   05/21/2008
                     Administer Its $4.1 Million Section
                     202 Capital Advance Construction
                     Grant in Accordance with Federal
                     Requirements, Bridgeport, CT

 2006-NY-1008        The Freeport Housing Authority Has      06/30/2006   12/01/2006   06/30/2008
                     Financial and Management Control
                     Weaknesses, Freeport, NY

 2006-BO-1009        The Rhode Island Housing and            07/06/2006   10/24/2006   12/01/2009
                     Mortgage Finance Corporation
                     Incorrectly Made More Than $1.8
                     Million in Section 8 Subsidy Payments
                     and Released More Than $900,000
                     from Restricted Residual Receipts
                     Accounts, Providence, RI

 2006-BO-0001        HUD Incorrectly Approved $42            07/11/2006   10/13/2006   10/01/2008
                     Million in Operating Subsidies for
                     Phase-Down for Demolition
                     Add-On Funding




Appendix 2: Tables                                                                                  149
  Report        Report title                            Issue       Decision         Final
  number                                                date         date           action
 2006-CH-0002   PIH Is Taking Action to Oversee the   07/13/2006   07/13/2006    12/31/2009
                Section 202 Mandatory Conversion
                Program,Washington, DC

 2006-CH-1013   The Ann Arbor Housing                 07/21/2006   11/15/2006    12/31/2016
                Commission's Administration of Its
                Section 8 Housing Choice Voucher
                Program Needs to Be Improved, Ann
                Arbor, MI

 2006-AT-1016   The Municipality of Humacao Did       07/28/2006   11/17/2006    07/30/2008
                Not Administer Its CDBG in
                Accordance with HUD
                Requirements, Humacao, PR

 2006-CH-1014   National City Mortgage Company,       07/31/2006   01/31/2007    09/08/2009
                Nonsupervised Lender, Did Not
                Comply with HUD's Requirements
                Regarding Underwriting of Loans
                and Quality Control Reviews,
                Miamisburg, OH

 2006-SE-0002   The Office of Single Family           08/16/2006   03/30/2007       Note 2
                Housing Expanded Late
                Endorsement Eligibility without
                Studying Associated Risks

 2006-KC-1013   The Columbus Housing Authority        08/30/2006   10/17/2006    11/30/2012
                Improperly Expended and
                Encumbered Its Public Housing
                Funds, Columbus, NE

 2006-DP-0005   Review of HUD's Information           08/31/2006   11/17/2006    05/30/2008
                Technology Contingency Planning
                and Preparedness

 2006-AT-1019   The Municipality of Toa Baja Did      09/06/2006   12/11/2006    12/31/2008
                Not Administer Its Section 108 Loan
                Guarantee Assistance Program in
                Accordance with HUD Requirements,
                Toa Baja, PR

 2006-DP-0802   Assessment of HUD's Compliance        09/21/2006   11/24/2006    10/01/2009
                with OMB Memorandum
                M-06-16, "Protection of Sensitive
                Agency Information"




150                                                                             Appendix 2: Tables
  Report             Report title                           Issue       Decision       Final
  number                                                    date         date         action
 2006-NY-1012        The Housing Authority of the City    09/22/2006   01/19/2007   08/30/2037
                     of Passaic Has Allegations of
                     Mismanagement That Need to Be
                     Addressed, Passaic, NJ

 2006-CH-1018        Saginaw Housing Commission           09/28/2006   01/19/2007   12/31/2021
                     Improperly Used Public Housing
                     Funds to Purchase Property,
                     Saginaw, MI

 2007-KC-1001        The City of St. Louis Did Not Meet   10/11/2006   02/06/2007   04/30/2008
                     HUD's Requirements for Creating
                     and Retaining Jobs, St. Louis, MO

 2007-AT-1002        Pine State Mortgage Company Did      11/03/2006   03/02/2007   12/31/2008
                     Not Always Comply with FHA
                     Underwriting and Quality Control
                     Requirements, Atlanta, GA

 2007-LA-0001        Tax Credit Project Owners Are        11/08/2006   07/05/2007   10/01/2010
                     Allowed to Charge Higher Rents for
                     Tenant-Based Section 8 Voucher
                     Households Than Non-Voucher
                     Households

 2007-FO-0003        Additional Details to Supplement     11/14/2006   03/07/2007     Note 2
                     Our Report on HUD's FY 2006
                     and 2005 Financial Statements

 2007-LA-1003        The City of Long Beach Did Not       12/12/2006   04/10/2007   04/10/2008
                     Administer Its Continuum of Care
                     Supportive Housing Program in
                     Compliance with HUD
                     Requirements, Long Beach, CA

 2007-CH-1001        The Marion Housing Authority         12/13/2006   04/05/2007   07/01/2027
                     Improperly Used HUD Funds for
                     Nonprofit Development Activities,
                     Marion, IN

 2007-PH-1002        The Montgomery County Housing        12/13/2006   04/12/2007   08/08/2008
                     Authority Improperly Used HUD
                     Funds to Purchase, Renovate, and
                     Maintain Its Main Office,
                     Norristown, PA

 2007-DP-0002        Review of HUD's Information          01/18/2007   05/25/2007   05/15/2008
                     Technology Services Contracts



Appendix 2: Tables                                                                               151
  Report        Report title                              Issue       Decision         Final
  number                                                  date         date           action
 2007-CH-1002   Benton Harbor Housing Commission        01/25/2007   05/25/2007    12/15/2008
                Did Not Effectively Manage Its Public
                Housing Program and Has Not Used
                Special Purpose Grant Funds It
                Received More Than Nine Years
                Ago, Benton Harbor, MI

 2007-DP-0003   Review of HUD's Procurement             01/25/2007   05/25/2007    12/31/2008
                Systems

 2007-KC-0002   HUD Can Improve Its Use of              01/29/2007   01/29/2007    07/30/2008
                Residual Receipts to Reduce
                Housing Assistance Payments

 2007-CH-1003   The Housing Authority of the City       02/13/2007   06/11/2007    12/31/2016
                of Evansville Needs to Improve Its
                Section 8 Housing Choice Voucher
                Program Administration,
                Evansville, IN

 2007-LA-1005   Oakland Housing Authority Did           02/14/2007   06/14/2007    01/01/2009
                Not Comply with Procurement
                and Contracting Requirements,
                Oakland, CA

 2007-DP-0004   FY 2006 Review of Information           02/22/2007   06/21/2007    09/30/2008
                Systems Controls in Support of
                the Financial Statements Audit

 2007-FW-1006   Aberdeen Villa Apartments, Formerly     03/07/2007   05/22/2007    07/23/2008
                Asbury Square Apartments, FHA
                #118-35200, Spent Almost $35,000
                in Projec tFunds on Ineligible and
                Unsupported Costs, Tulsa, OK

 2007-AT-1004   The Wilmington Housing Authority        03/09/2007   06/25/2007    06/28/2010
                Needs to Improve Internal Controls
                over Its Program, Wilmington, NC

 2007-CH-1004   The Columbus Metropolitan               03/15/2007   05/24/2007    04/11/2008
                Housing Authority Failed to
                Adequately Operate Its Section 8
                Housing Choice Voucher Program,
                Columbus, OH




152                                                                               Appendix 2: Tables
  Report             Report title                              Issue       Decision       Final
  number                                                       date         date         action
 2007-BO-1003        The Office of Community                 03/21/2007   07/19/2007   04/21/2008
                     Development, City of Chicopee,
                     Did Not Properly Award and
                     Administer CDBG and HOME
                     Funds Used for its Housing
                     Activities, Chicopee, MA

 2007-BO-1004        Harris Health Center Did Not            03/22/2007   05/24/2007   04/30/2008
                     Ensure That Renovations Were
                     Properly Completed, Paid $21,729
                     for Unnecessary and Nonproject
                     Costs, and Did Not Calculate
                     Management Fees Properly,
                     East Providence, RI

 2007-CH-1005        The Housing Authority of the City       03/23/2007   07/19/2007   12/31/2056
                     of Gary Lacked Adequate Controls
                     over Refunding Savings, Gary, IN

 2007-CH-1006        Colony Mortgage Corporation,            03/26/2007   09/27/2007   07/23/2008
                     Supervised Lender, Did Not Always
                     Comply with HUD's Requirements
                     Regarding Underwriting of Loans
                     and Quality Control Reviews, Fairview
                     Park, OH

 2007-AT-1005        The Puerto Rico Department of           03/29/2007   07/16/2007   06/30/2008
                     Housing Did Not Effectively
                     Administer Its Section 8 Housing
                     Program, San Juan, PR

 2007-DP-0005        Review of HUD's Information             04/05/2007   08/03/2007   04/15/2008
                     Technology Security Program

 2007-LA-1008        The Navajo Housing Authority            04/09/2007   08/02/2007   06/30/2008
                     Should Discontinue Its Use of
                     Subgrantees for Development Projects
                     or Implement Additional Program
                     Controls, Window Rock, AZ

 2007-AT-1007        The Municipality of Toa Baja Needs      04/11/2007   07/16/2007   04/11/2008
                     to Improve Its CDBG Program
                     Administration, Toa Baja, PR

 2007-KC-0003        HUD Did Not Recapture Excess            04/30/2007   08/27/2007   01/31/2009
                     Funds from Assigned Bond-Financed
                     Projects




Appendix 2: Tables                                                                                  153
  Report        Report title                               Issue       Decision         Final
  number                                                   date         date           action
 2007-AO-1001   The State of Mississippi's Homeowner's   05/07/2007   09/26/2007    06/30/2008
                Assistance Grant Program Did Not
                Appropriately Calculate Grants and
                Monitor the Program, Jackson, MS

 2007-FW-1009   Countrywide Home Loans, Inc.,            05/10/2007   08/09/2007    05/10/2008
                Generally Complied with HUD
                Requirements in Originating
                FHA-Insured Single-Family
                Mortgages, Houston, TX

 2007-BO-0002   HUD Did Not Process Multifamily          05/21/2007   09/07/2007    09/30/2008
                Accelerated Processing Applications
                within Established Processing Goals
                and the Multifamily Accelerated
                Processing Guide Is Outdated

 2007-LA-1011   Suburban Mortgage Company Did            05/29/2007   12/31/2007    09/30/2008
                Not Comply with HUD
                Requirements in the Origination
                of FHA-Insured Single-Family
                Mortgages, Phoenix, AZ

 2007-LA-1012   Central City Lutheran Mission            06/04/2007   09/21/2007    09/21/2008
                Did Not Properly Administer Its
                Supportive Housing Program
                Grants, San Bernardino, CA

 2007-SE-0001   HUD Did Not Ensure That                  06/07/2007   10/05/2007    10/31/2008
                Payments to Contract
                Administrators Were for Work
                Performed or That Interest Was
                Earned on Advances and Recovered

 2007-FW-1010   Alethes Mortgage, LLC, and Its Dallas,   06/08/2007   08/24/2007    06/08/2008
                Texas, Branch, Waters Edge Mortgage,
                LLC, Did No tComply with All
                HUD Underwriting Requirements,
                Dallas, TX

 2007-LA-1013   The Los Angeles Homeless Services        06/08/2007   09/28/2007    09/28/2008
                Authority Did Not Perform On-Site
                Fiscal Monitoring of Its Project
                Sponsors, Los Angeles, CA




154                                                                                Appendix 2: Tables
  Report             Report title                              Issue       Decision       Final
  number                                                       date         date         action
 2007-NY-1007        The City of Jersey City Did Not         06/13/2007   09/24/2007   09/12/2008
                     Always Adequately Administer Its
                     HOME Investment Partnerships
                     Program, Jersey City, NJ

 2007-CH-1008        The Dayton Metropolitan Housing         06/19/2007   08/24/2007   05/15/2008
                     Authority Did Not Effectively Operate
                     Its Section 8 Housing Choice Voucher
                     Program, Dayton, OH

 2007-NY-1008        The City of Newark Did Not Always       06/22/2007   10/17/2007   10/17/2008
                     Administer Its CDBG Program in
                     Accordance with HUD Requirements,
                     Newark, NJ

 2007-NY-1009        The Town of Alexandria's Small Cities   06/29/2007   10/05/2007   06/30/2008
                     CDBG Program Did Not Meet Its
                     Program Objective of Job Creation,
                     Alexandria, NY

 2007-FW-1011        Capmark Finance, Inc.,                  07/02/2007   10/23/2007   10/29/2008
                     Misrepresented Asbury Square
                     Apartments' Financial and Physical
                     Condition When Underwriting the
                     $9.098 Million Loan, Tulsa, OK

 2007-FW-1012        Fallbrook Apartments' Owner             07/06/2007   10/10/2007   12/31/2008
                     and/or Management Agent Made
                     Unauthorized Distributions of the
                     Project's Funds, Houston, TX

 2007-CH-1009        The Boyne City Housing                  07/17/2007   11/06/2007   10/31/2017
                     Commission Failed to Follow
                     HUD's Requirements for Its
                     Nonprofit Development Activities,
                     Boyne City, MI

 2007-CH-1010        The Madison County Housing              07/20/2007   11/16/2007   05/31/2008
                     Authority Did Not Effectively
                     Administer Its Section 8 Housing
                     Choice Voucher Program,
                     Collinsville, IL

 2007-CH-1011        The Indianapolis Housing Agency         07/23/2007   11/19/2007   01/31/2025
                     Lacked Adequate Controls over
                     Expenses Charged to Its Section 8
                     Program, Indianapolis, IN




Appendix 2: Tables                                                                                  155
  Report        Report title                             Issue        Decision         Final
  number                                                 date          date           action
 2007-PH-1009   The Newport News Redevelopment         07/24/2007    11/13/2007    07/31/2008
                and Housing Authority Did Not
                Effectively Operate Its Housing
                Choice Voucher Program,
                Newport News, VA

 2007-BO-1006   Multifamily Project Deficiencies       07/25/2007    11/20/2007    02/27/2009
                Resulted in More Than $730,000
                in Cost Exceptions for Moosup
                Gardens Apartments, Moosup, CT

 2007-PH-1010   Countrywide Home Loans Generally       07/26/2007    10/16/2007    07/31/2008
                Complied with HUD Requirements
                in Originating FHA-Insured
                Single-Family Loans, Plymouth
                Meeting, PA

 2007-LA-1014   The Housing Authority of the           07/27/2007    11/23/2007    11/24/2017
                County of San Mateo Did Not Use
                HUD Program Funds in Accordance
                with HUD Requirements, San
                Mateo, CA

 2007-CH-1012   The Plymouth Housing Commission        08/03/2007    11/23/2007    11/30/2008
                Needs to Improve Its Section 8
                Housing Choice Voucher Program
                Administration, Plymouth, MI

 2007-DE-1006   The State of Utah Did Not Comply       08/10/2007    10/19/2007    10/01/2008
                with HOME Investment Partnerships
                Program Requirements, Salt Lake
                City, UT

 2007-AT-1010   The Cathedral Foundation of             08/14/2007   12/03/2007    12/31/2008
                Jacksonville Used More Than $2.65
                Million in Project Funds for Questioned
                Costs, Jacksonville, FL

 2007-PH-1011   The Housing Commission of Anne         08/14/2007    12/11/2007    06/30/2008
                Arundel County Did Not Always
                Operate Its Housing Choice Voucher
                Program in Accordance with Federal
                Requirements, Glen Burnie, MD

 2007-NY-1011   The Hoboken Housing Authority          08/17/2007    12/11/2007    06/30/2008
                Requires Improved Controls over
                Its Capital Fund Program and Cash
                Disbursement Process, Hoboken, NJ



156                                                                               Appendix 2: Tables
  Report             Report title                               Issue       Decision       Final
  number                                                        date         date         action
 2007-PH-0002        HUD's Oversight of Contractors'          08/17/2007   12/12/2007   12/31/2008
                     Marketing of Its Real Estate-Owned
                     Properties

 2007-PH-1012        The State of Maryland Did Not            08/27/2007   12/19/2007   04/30/2008
                     Always Administer Its Homeownership
                     Assistance Program in Accordance
                     with Federal Regulations and Written
                     Agreements, Crownsville, MD

 2007-DP-0006        Review of HUD's Personal Identity        08/28/2007   12/20/2007   04/30/2009
                     Verification and Privacy Program

 2007-BO-1008        Holyoke Housing Authority Needs to       08/29/2007   12/31/2007   06/30/2008
                     Improve Its Internal Controls over
                     the Voucher Program, Cost Allocations
                     and Transfers, Holyoke, MA

 2007-LA-1015        The Housing Authority of the City        09/04/2007   11/07/2007   04/30/2008
                     of North Las Vegas Significantly
                     Underleased Its Section 8 Housing
                     Choice Voucher Program, North
                     Las Vegas, NV

 2007-NY-1012        The City of Passaic's Community          09/12/2007   12/17/2007   12/12/2008
                     Development Department Has
                     Weaknesses in Its HOME Investment
                     Partnerships Program, Passaic, NJ

 2007-AT-0001        HUD Needs to Improve Controls            09/19/2007   09/19/2007   09/30/2009
                     over Its Contract Administration
                     Processes

 2007-DP-0007        Vulnerability Assessment of HUD's        09/19/2007   01/28/2008   08/31/2008
                     Computer Network

 2007-LA-1016        A Community of Friends Did Not           09/21/2007   01/18/2008   01/17/2009
                     Always Administer Its Cash Match
                     in Compliance with HUD
                     Requirements, Los Angeles, CA

 2007-CH-1014        The Peoria Housing Authority Did         09/24/2007   01/14/2008   05/31/2008
                     Not Effectively Administer Its Section
                     8 Housing Choice Voucher Program,
                     Peoria, IL




Appendix 2: Tables                                                                                   157
  Report        Report title                            Issue       Decision         Final
  number                                                date         date           action
 2007-KC-0004   More Than 80 Percent of Recently      09/24/2007   03/28/2008    11/30/2008
                Insured Title II Manufactured
                Housing Loans Are on Homes
                with Substandard Foundations

 2007-KC-0801   Lenders Submitted Title II            09/24/2007   03/11/2008    03/07/2009
                Manufactured Housing Loans for
                Endorsement without the Required
                Foundation Certifications

 2007-AT-1011   The Wilmington Housing Authority      09/26/2007   01/24/2008    01/01/2011
                Did Not Follow HUD Requirements
                for Its Nonprofit Development
                Activities, Wilmington, NC

 2007-CH-1015   Cook County Lacked Adequate           09/26/2007   01/24/2008    09/30/2008
                Controls over Its HOME Investment
                Partnerships Program, Chicago, IL

 2007-PH-1013   The Harrisburg Housing Authority      09/27/2007   11/28/2007    12/31/2024
                Did Not Properly Administer Its
                Low-Rent Public Housing Program,
                Harrisburg, PA

 2007-CH-1016   The Plymouth Housing Commission       09/28/2007   01/24/2008    01/24/2009
                Failed to Adequately Administer Its
                Section 8 Housing Choice Voucher
                Program, Plymouth, MI

 2007-FW-0001   Overpayments in the Housing           09/28/2007   01/24/2008    12/31/2008
                Choice Voucher Program Occurred
                When Public Housing Agencies
                Subsidized Rental Units with More
                Bedrooms Than Authorized

 2007-CH-0001   HUD Did Not Fully Implement           09/29/2007   10/26/2007    04/28/2008
                Succession Planning

 2007-CH-1017   The City of Cincinnati Lacked         09/30/2007   01/28/2008    09/30/2008
                Adequate Controls over Its HOME
                Investment Partnerships Program,
                Cincinnati, OH




158                                                                             Appendix 2: Tables
  Report             Report title                           Issue         Decision          Final
  number                                                    date           date            action
 2007-CH-1018        The City of Milwaukee Needs to       09/30/2007     03/20/2008     10/30/2009
                     Improve Existing Controls over Its
                     HOME Program Regarding
                     Housing Conditions and
                     Contracting, Milwaukee, WI

 2007-SE-1004        The Tacoma Consortium Did Not        09/30/2007     01/25/2008     09/30/2008
                     Properly Administer Its HOME
                     Investment Partnerships Grants,
                     Tacoma, WA




 Audits excluded                                           Notes
 44 audits under repayment plans                           1 Management did not meet the target date.
                                                           Target date is over 1 year old.
 33 audits under formal judicial review,
 investigation, or legislative solution                    2 Management did not meet the target date.
                                                           Target date is under 1 year old.
                                                           3 No management decision




Appendix 2: Tables                                                                                   159
                                                        Table C
                           Inspector general-issued reports with questioned and
                                  unsupported costs at March 31, 2008
                                                         (Thousands)

     Audit reports                                                       Number of          Questiones   Unsupported
                                                                        audit reports         costs         costs
     A1 For which no management decision had been made                        35               41,352       20,332
        by the commencement of the reporting period
     A2 For which litigation, legislation, or investigation was               11               29,630       17,230
        pending at the commencement of the reporting
        period
     A3 For which additional costs were added to reports in                    -                4,705        2,597
        beginning inventory
     A4 For which costs were added to noncost reports                          0                  0            0
     B1 Which were issued during the reporting period                         44              139,076       85,108
     B2 Which were reopened during the reporting period                        0                  0            0
                                                   Subtotals (A+B)            90              214,763      125,267
      C For which a management decision was made during                       541              67,696       33,712
        the reporting period
         (1) Dollar value of disallowed costs:
            - Due HUD                                                         142              19,115        9,084
            - Due program participants                                        42               45,157       22,791
         (2) Dollar value of costs not disallowed                             133               3,424        1,837
      D For which management decision had been made not                        8               21,423       14,768
        to determine costs until completion of litigation,
        legislation, or investigation
      E For which no management decision had made by                         28              125,644       76,787
        the end of the reporting period                                     <74>4           <125,379>4    <76,573>4




 1
   37 audit reports also contain recommendations with funds to be put to better use.
 2
   3 audit reports also contain recommendations with funds due program participants.
 3
   12 audit reports also contain recommendations with funds agreed to by management.
 4
   The figures in brackets represent data at the recommendation level as compared to the report level.
   See explanations of tables C and D.




160                                                                                                      Appendix 2: Tables
                                                        Table D
                         Inspector general-issued reports with recommendations
                            that funds be put to better use at March 31, 2008
                                                         (Thousands)

     Audit reports                                                                   Number of              Dollar
                                                                                    audit reports           value
     A1 For which no management decision had been made by the                             30               333,233
        commencement of the reporting period
     A2 For which litigation, legislation, or investigation was                            9               90,852
        pending at the commencement of the reporting period
     A3 For which additional costs were added to reports in                                -                 507
        beginning inventory
     A4 For which costs were added to noncost reports                                      0                  0
     B1 Which were issued during the reporting period                                     35              1,221,312
     B2 Which were reopened during the reporting period                                    0                  0
                                                            Subtotals (A+B)               74              1,645,904
      C For which a management decision was made during the                              451               156,783
        reporting period
          (1) Dollar value of disallowed costs:
                 - Due HUD                                                                11                54,599
                 - Due program participants                                               33               101,252
          (2) Dollar value of costs not disallowed                                        42                 932
      D For which management decision had been made not to                                 8               87,487
        determine costs until completion of litigation, legislation,
        or investigation
      E For which no management decision had made by the end                             21               1,401,634
        of the reporting period                                                         <27>3            <1,059,180>3




 1
   37 audit reports also contain recommendations with questioned costs.
 2
   3 audit reports also contain recommendations with funds agreed to by management.
 3
   The figures in brackets represent data at the recommendation level as compared to the report level.
   See explanations of tables C and D.




Appendix 2: Tables                                                                                                      161
 Explanations of tables C and D
     The Inspector General Act Amendments of 1988 require Inspectors General and agency heads to report
 cost data on management decisions and final actions on audit reports. The current method of reporting at the
 "report" level rather than at the individual audit "recommendation" level results in misleading reporting of
 cost data. Under the Act, an audit "report" does not have a management decision or final action until all
 questioned cost items or other recommendations have a management decision or final action. Under these
 circumstances, the use of the "report" based rather than the "recommendation" based method of reporting
 distorts the actual agency efforts to resolve and complete action on audit recommendations. For example,
 certain cost items or recommendations could have a management decision and repayment (final action) in a
 short period of time. Other cost items or nonmonetary recommendation issues in the same audit report may
 be more complex, requiring a longer period of time for management's decision or final action. Although
 management may have taken timely action on all but one of many recommendations in an audit report, the
 current "all or nothing" reporting format does not take recognition of their efforts.

     The closing inventory for items with no management decision in tables C and D (line E) reflects figures at
 the report level as well as the recommendation level.




162                                                                                            Appendix 2: Tables
Appendix 3
 Index
  State                  Page numbers

  Alaska                 80
  Alabama                43
  Arizona                18, 37, 101
  California             13, 15, 17, 18, 24, 26, 30, 40, 41, 42, 46, 49, 50, 51, 52, 53, 59, 61, 64,
                         65, 66, 75, 76, 102, 103, 118, 121, 124
  Colorado               15, 16, 18, 27, 32, 117, 122
  Connecticut            35, 60, 119, 123
  District of Columbia   9, 19, 27, 53, 71, 94, 108, 109, 120, 125, 130
  Florida                25, 35, 37, 39, 43, 65, 71, 72, 73, 82, 84, 121
  Georgia                18, 32, 36, 54, 75
  Idaho                  132
  Illinois               15, 16, 17, 18, 19, 36, 38, 42, 48, 116, 117, 118, 120, 122, 124, 125,
                         126
  Indiana                28, 53, 80, 103
  Kansas                 45, 49, 66, 67
  Kentucky               37
  Louisiana              14, 24, 38, 54, 89, 94, 95, 97, 98, 102, 103, 104
  Maine                  36, 47, 53, 123
  Maryland               19, 31, 43, 45, 47, 48, 82
  Massachusetts          25, 35, 40, 43, 44, 46, 47, 65, 66, 72, 84, 123
  Michigan               29, 45, 117, 124, 125, 126
  Minneapolis            104, 119, 122
  Mississippi            80, 89, 98, 99, 100, 101, 102, 103, 104, 105
  Missouri               38, 53, 54, 121, 123, 126
  Montana                47, 55
  Nebraska               28, 31, 44, 119
  Nevada                 39, 50, 55, 117, 118, 119
  New Hampshire          80, 123
  New Jersey             13, 14, 17, 38, 52, 55, 56, 82, 83, 84, 119
  New Mexico             36
  New York               15, 16, 37, 40, 41, 42, 46, 50, 51, 60, 64, 65, 66, 73, 74, 81, 84, 116,
                         118, 119, 121, 124, 125
  North Carolina         48, 49, 53, 120
  Ohio                   14, 30, 39, 40, 47, 64, 111, 122




164                                                                                    Appendix 3: Index
  State             Page numbers

   Oklahoma         30, 48
   Oregon           33
   Pennsylvania     10, 14, 25, 35, 36, 41, 61, 66, 120, 121, 131
   Puerto Rico      25, 50, 72
   Rhode Island     124
   South Carolina   117
   Tennessee        47, 83
   Texas            13, 15, 17, 18, 23, 29, 45, 51, 54, 59, 77, 81, 83, 101, 104, 118, 125
   Utah             17, 37, 51, 55, 122
   Virginia         45, 46, 48, 80, 85, 118, 120
   Washington       46, 49, 120
   Wisconsin        32, 116, 118




Appendix 3: Index                                                                            165
    HUD OIG
   Operations
Telephone Listing
 Office of Audit
 Headquarters Office of Audit, Washington, DC                202-708-0364
 Region 1                    Boston, MA                      617-994-8380
                             Hartford, CT                    860-240-4800


 Region2                     New York, NY                    212-264-4174
                             Albany, NY                      518-464-4200
                             Buffalo, NY                     716-551-5755
                             Newark, NJ                      973-622-7900
 Region 3                    Philadelphia, PA                215-656-0500
                             Baltimore, MD                   410-962-2520
                             Pittsburgh, PA                  412-644-6372
                             Richmond, VA                    804-771-2100
 Region 4                    Atlanta, GA                     404-331-3369
                             Miami, FL                       305-536-5387
                             Greensboro, NC                  336-547-4001
                             Jacksonville, FL                904-232-1226
                             Knoxville, TN                   865-545-4369
                             San Juan, PR                    787-766-5202
 Region 5                    Chicago, IL                     312-353-7832
                             Columbus, OH                    614-469-5745
                             Detroit, MI                     313-226-6190
 Region 6                    Fort Worth, TX                  817-978-9309
                             Houston, TX                     713-718-3199
                             Oklahoma City, OK               405-609-8606
                             San Antonio, TX                 210-475-6898
 Regions 7/8                 Kansas City, KS                 913-551-5870
                             St. Louis, MO                   314-539-6339
                             Denver, CO                      303-672-5452
 Regions 9/10                Los Angeles, CA                 213-894-8016
                             Phoenix, AZ                     602-379-7250
                             San Francisco, CA               415-489-6400
                             Seattle, WA                     206-220-5360
 Gulf Coast Region           New Orleans, LA                 504-671-3715
                             Jackson, MS                     601-965-4700




168                                              HUD OIG Operations Telephone Listing
 Office of Investigation
 Headquarters Office of Investigation, Washington, DC             202-708-0390
 Region 1                              Boston, MA                 617-994-8450
                                       Hartford, CT               860-240-4800
                                       Manchester, NH             603-666-7988
 Region 2                              New York, NY               212-264-8062
                                       Buffalo, NY                716-551-5755
                                       Newark, NJ                 973-776-7347
 Region 3                              Philadelphia, PA           215-656-0500
                                       Baltimore, MD              410-962-4502
                                       Pittsburgh, PA             412-644-6598
                                       Richmond, VA               804-771-2100
 Region 4                              Atlanta, GA                404-331-3359
                                       Miami, FL                  305-536-3087
                                       Greensboro, NC             336-547-4000
                                       Knoxville, TN              865-545-4000
                                       San Juan, PR               787-766-5868
                                       Tampa, FL                  813-228-2026
 Region 5                              Chicago, IL                312-353-4196
                                       Cleveland, OH              216-522-4421
                                       Columbus, OH               614-469-6677
                                       Detroit, MI                313-226-6280
                                       Indianapolis, IN           317-226-5427
                                       Minneapolis-St. Paul, MN   612-370-3130
 Region 6                              Arlington, TX              817-978-5440
                                       Houston, TX                713-718-3196
                                       Oklahoma City, OK          405-609-8601
                                       San Antonio, TX            210-475-6819
 Region 7/8                            Kansas City, KS            913-551-5866
                                       St. Louis, MO              314-539-6559
                                       Denver, CO                 303-672-5350
                                       Billings, MT               406-247-4080
                                       Salt Lake City, UT         801-524-6090
 Region 9/10                           Los Angeles, CA            213-894-0219
                                       San Francisco, CA          415-489-6683
                                       Phoenix, AZ                602-379-7255
                                       Sacramento, CA             916-930-5691
                                       Las Vegas, NV              702-366-2144
                                       Seattle, WA                206-220-5380




HUD OIG Operations Telephone Listing                                             169
 Gulf Coast Region   New Orleans, LA               504-671-3701
                     Arlington, TX                 817-978-5440
                     Baton Rouge, LA               225-334-4913
                     Hattiesburg, MS               601-299-4279
                     Houston, TX                   713-718-3196
                     Jackson, MS                   601-965-5772
                     Washington, DC                202-708-0390




170                                    HUD OIG Operations Telephone Listing
   Report fraud, waste, and mismanagement in HUD
              programs and operations by

      Calling the OIG Hotline: 1-800-347-3735

        Faxing the OIG Hotline: 202-708-4829

          Sending written information to:
   Department of Housing and Urban Development
          Inspector General Hotline (GFI)
                 451 7th Street, SW
              Washington, DC 20410

    E-mailing the OIG Hotline: hotline@hudoig.gov

Internet:http://www.hud.gov/complaints/fraud_waste.cfm

            All information is confidential,
           and you may remain anonymous.
This Semiannual Report to Congress is dedicated to the brave men and
women of the armed forces. We especially honor those who have been
wounded and pay tribute to those who have paid the ultimate price to
defend our country.




Semiannual Report to Congress
October 1, 2007, through March 31, 2008

www.hud.gov/offices/oig

No. 59    HUD-2008-01-OIG
